PETITION APPENDIX
Case No._____________
[BROWN vCPIC]
[USCAll Case: 20-11607]
Appeal from the United States District Court for the
Middle District of Florida
[D.C. No. 8:19-cv-01951-CEH-SPF]
TABLE OF CONTENTS
A. Eleventh Circuit Refusal for Rehearing April 29,
2021 [Pg 1]
B. Eleventh Circuit Order Affirming District Court
CPIC Eleventh Amendment Immunity February 4,
2021 before Circuit Judges WILSON,
ROSENBAUM, and GRANT, is unpublished.
[USCA11 Case: 20-11607-BB] [Pg3-9]
C. District Court Order Granting CPIC Eleventh
Amendment Immunity April 3, 2020 The Judges
overseeing this case were Charlene Edwards
Honeywell and Sean P. Flynn. [District Court,
Middle District Of Florida, Tampa Division Case No.
8:19-cv-1951-T-36SPF] [Pg9-20]
D. Appellant Brief for Petition for Rehearing March
24, 2021 [Pg 20-43]
E. Appellant Reply Brief to CPIC Appellee Brief
September 14, 2020 [Pg 43-87]
F. Appellant Brief June 24, 2020 [Pg 87-163]

1

G. Affidavit All Appendix items are actual and true
copies of the Originals [Pg 163-164]
A. Eleventh Circuit Refusal for Rehearing April
29, 2021
04/29/2021
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ROGER BROWN,
Plaintiff - Appellant,
versus
CITIZENS PROPERTY INSURANCE
CORPORATION,
UNKNOWN EMPLOYEES OF CITIZENS
PROPERTY INSURANCE CORPORATION,
Defendants - Appellees.
Appeal from the United States District Court
for the Middle District of Florida
ON PETITION(S) FOR REHEARING AND
PETITION(S) FOR REHEARING EN BANC
BEFORE: WILSON, ROSENBAUM, and GRANT,
Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no
judge in regular active service on the Court having
requested that the Court be polled on rehearing en
2

j

banc. (FRAP 35) The Petition for Panel Rehearing is
also denied. (FRAP 40)
ORD-46

B. Eleventh Circuit Order Affirming District
Court CPIC Eleventh Amendment Immunity
February 4, 2021
[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-11607 Non-Argument Calendar
D.C. Docket No. 8:19-cv-01951-CEH-SPF
ROGER BROWN, Plaintiff-Appellant, versus
CITIZENS PROPERTY INSURANCE
CORPORATION, UNKNOWN EMPLOYEES OF
CITIZENS PROPERTY INSURANCE
CORPORATION,
Defendants-Appellees.
Appeal from the United States District Court for the
Middle District of Florida___________________ (February 4, 2021)
Before WILSON, ROSENBAUM, and GRANT,
Circuit Judges.
PER CURIAM:
USCAll Case: 20-11607 Date Filed: 02/04/2021
Page: 1 of 7

3

Roger Brown filed an action against Citizens
Property Insurance Corporation, alleging various
state law claims connected to a settlement
agreement. The district court dismissed the action
when it found that the corporation was an arm of the
state. Finding no error in the district court’s holding,
we affirm.
I.
Citizens Property Insurance Corporation (CPIC) was
established by the Florida legislature to provide
“affordable property insurance.” Fla. Stat. §
627.351(6)(a)l. And the Florida legislature further
described CPIC as “a government entity that is an
integral part of the state, and that is not a private
insurance company.” Id. That is the entity which
Brown now sues.
In 2011, Brown co-owned property in Clearwater,
Florida. The trouble was that his property was
adjacent to a designated sinkhole property. So he
submitted a claim to his property’s insurer, CPIC.
His claim was disputed, but the ensuing litigation
was settled in 2014. That same year, Brown’s
property was foreclosed, with the final judgment of
foreclosure assigned to the Federal National
Mortgage Association (FNMA).
CPIC wrote a check for about half the settlement
amount, made jointly to Brown and FNMA. Because
Brown had not dealt with FNMA before, he sought to
get it reissued in his name only. But each time
Brown demanded payment, CPIC continued to issue
joint checks. Eventually Brown had enough, and he
4

filed this action in federal district court against CPIC
and “unknown employees” of that corporation.
Brown’s amended complaint alleges breach of
contract, conversion, unjust enrichment, intentional
breach of fiduciary duty, and intentional infliction of
severe emotional distress.
CPIC filed a motion to dismiss for lack of subject
matter jurisdiction, citing Eleventh Amendment
immunity. In response, Brown argued that Congress
can abrogate sovereign immunity, that he could still
sue under Ex parte Young, that Florida had waived
its immunity, and that CPIC is not an arm of the
state. He also filed a motion to compel CPIC to
answer interrogatories and produce documents, as
well as a motion to compel discovery. Both were
denied by the district court because “the discovery
requests at issue” were “not relevant to a
determination of the Court’s jurisdiction.”
And ultimately, the district court agreed with CPIC
that the Eleventh Amendment blocked subject
matter jurisdiction. More specifically, the court noted
the language of the state statute, and that “courts
regularly recognize [CPIC]’s status as a state
government entity.” It also found that Florida never
explicitly waived CPIC’s “immunity from suit in
federal court.” And the court found that the
“unknown employees” were not identified or served,
and that therefore their inclusion was “not a barrier
to dismissal of’ the action. So the case was
dismissed, and Brown now appeals.
II.

5

We review de novo the district court’s ruling on
Eleventh Amendment immunity. Pellitteri v. Prine,
776 F.3d 777, 779 (11th Cir. 2015).
III.
A.
As to CPIC itself, Brown argues that it is not an
“arm of the state.” The district court found otherwise,
and Brown has given us no reason to find that its
decision was error. Because we agree with the
district court, we affirm.
“Eleventh Amendment immunity bars suits by
private individuals in federal court against a state
unless the state has consented to be sued or has
waived its immunity or Congress has abrogated the
states’ immunity.” Nichols v. Alabama State Bar, 815
F.3d 726, 731 (11th Cir. 2016). That immunity is
available “only to states and arms of the states.”
Walker v. Jefferson Cnty. Bd. of Educ., 771 F.3d 748,
751 (11th Cir. 2014) (internal quotation marks
omitted). Whether an entity is an arm of the state is
determined based on four factors: “(1) how the state
law defines the entity; (2) the degree of state control
over the entity; (3) where the entity derives its funds;
and (4) who is responsible for judgments against the
entity.” Nichols, 815 F.3d at 732.
The first two factors weigh heavily in favor of finding
that CPIC is an arm of the state. For the first factor,
as mentioned before, the Florida legislature defined
CPIC as “a government entity,” and specifically
noted that it was “not a private insurance company.”
Fla. Stat. § 627.351(6)(a)l. As for the second factor,
6

CPIC operates pursuant to a plan “approved by order
of the Financial Services Commission,” which is
“subject to continuous review.” Fla. Stat. §
627.351(6)(a)2. Further, the commission “may, by
order, withdraw approval of all or part of a plan if
the commission determines that conditions have
changed since approval was granted and that the
purposes of the plan require changes in the plan.” Id.
The Financial Services Commission, in turn, is
composed of “the Governor, the Attorney General,
the Chief Financial Officer, and the Commissioner of
Agriculture.” Fla. Stat. § 20.121(3). Brown does not
dispute these factors beyond conclusory statements
which seldom touch directly on the multi-factor
approach. And though he briefly mentions the other
factors in the analysis, he does not show that they
outweigh the first two. Cf. Lake v. Skelton, 840 F.3d
1334, 1344 (11th Cir. 2016) (“[A]n actual drain on the
state treasury is not required for immunity to apply.”
(internal quotation marks omitted)).
Brown also argues in the alternative that, even if
CPIC is an arm of the state, Florida has waived the
entity’s Eleventh Amendment immunity. Not so.
“The test to determine if a state has waived its
sovereign immunity is a stringent one.” Barnes v.
Zaccari, 669 F.3d 1295, 1308 (11th Cir. 2012)
(internal quotations omitted). A “waiver of Eleventh
Amendment immunity must specifically permit suits
in federal court.” Id. It is true that the Florida
Statutes explicitly state that the liability and cause
of action shield does not extend to every
circumstance; such exceptions include “willful tort”
and “breach of any contract or agreement pertaining
7

to insurance coverage.” Fla. Stat. § 627.351(6)(s)l.
But, without more, that just means Florida waived
immunity for certain suits in state courts. And
Brown raises nothing before us that would meet the
“stringent” test for finding that Florida waived
CPIC’s immunity from suits in federal court.
B.
Brown’s remaining arguments on appeal relate to the
“unknown employees” he attempted to sue. In
particular, he alleges that the district court erred in
(1) denying his motions to compel discovery, answer
interrogatories, and produce documents, and (2)
dismissing the claim against the unknown
employees. For the former, we review the district
court’s decision for abuse of discretion. Holloman v.
Mail-Well Corp., 443 F.3d 832, 837 (11th Cir. 2006).
For the latter, we review the dismissal de novo.
Richardson v. Johnson, 598 F.3d 734, 737 (11th Cir.
2010). And for both, we affirm.
Brown has failed to show that the district court
abused its discretion in denying his motions to
compel discovery. We have noted in the past that a
district court “may deny a motion to compel further
deposition questioning when the court determines
that the questions are irrelevant.” Com. Union Ins.
Co. v. Westrope, 730 F.2d 729, 732 (11th Cir. 1984).
So too here. Nothing for which Brown sought
discovery would have been relevant to the district
court’s finding of Eleventh Amendment immunity as
to CPIC—and that finding turns out to be
dispositive. And as for the unknown employees,
Brown only argued that his discovery motions would
8

have been helpful for bringing an Ex parte Young
action against them. But he fails to adequately allege
any violation of federal law, and Ex parte Young does
not apply to mere state law violations. See Puerto
Rico Aqueduct & Sewer Auth. v. Metcalf & Eddy,
Inc., 506 U.S. 139, 146 (1993).
Nor did the district court err in dismissing Brown’s
claims asserted against the unknown employees. “As
a general matter, fictitious-party pleading is not
permitted in federal court.” Richardson, 598 F.3d at
738. And though we have a “limited exception” to
that rule for when the plaintiff still provides some
specific description of the defendant, Brown does not
reach that standard. Id.
IV.
We have sympathy for Brown’s apparent
predicament. But because CPIC is an arm of the
state, Eleventh Amendment immunity bars him from
bringing his claims in federal court. We therefore
AFFIRM the district court’s judgment.

C. District Court Order Granting CPIC
Eleventh Amendment Immunity April 3, 2020
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION
ROGER BROWN,
Plaintiff,
v. Case No: 8:19-cv-1951-T-36SPF
9

CITIZENS PROPERTY INSURANCE
CORPORATION
and
UNKNOWN EMPLOYEES OF CITIZENS
PROPERTY
INSURANCE CORPORATION,
Defendants.
ORDER
This matter comes before the Court upon
Defendant’s Motion to Dismiss Plaintiffs
Amended Complaint and Memorandum of Law (Doc.
27), and Plaintiffs response thereto (Doc. 28). In the
motion, Defendant, Citizens Property Insurance
Corporation, argues that the Amended Complaint
must be dismissed because Defendant has immunity
under the Eleventh Amendment to the United States
Constitution that deprives this Court of subject
matter jurisdiction, and the Amended Complaint is a
shotgun pleading, contains claims that are timebarred, contains claims that are barred by the
independent tort doctrine, and contains
impermissible bad faith allegations. Doc. 27. Plaintiff
responds that Defendant does not benefit from
Eleventh Amendment Immunity and that the
Amended Complaint sufficiently alleges continuing
harm. Doc. 28. The Court, having considered the
motion and being fully advised in the premises, will
grant Defendant’s Motion to Dismiss.
I. BACKGROUND 1
In 2011, Plaintiff, Roger Brown, co-owned a
residential property in Clearwater, Florida
10

that was insured by Defendant, Citizens Property
Insurance Corporation (“Citizens”), and that was
located next to a designated sinkhole property. Doc.
20 'll 11. On January 11, 2011, Brown submitted a
claim to Citizens for damage resulting from sinkhole
activity. Id. Citizens denied the claim five months
later. Id. Citizens’ decision was not based on the
merits of the damage claim, but based on the desire
for economic profits. Id. Brown hired an attorney and
obtained proof that the damage was the result of
sinkhole activity, but Citizens continued to deny the
claim. Id. 1 13.
Brown filed a lawsuit against Citizens in April 2014.
Id. 1 14. Citizens settled the claimwith Brown for
$118,829.21. Id. 1 16. Also in 2014, the property was
foreclosed and the foreclosing entity assigned the
final judgment of foreclosure to FNMA. Id. 1 42.
In 2015, Citizens wrote a settlement check for
$59,066.14, which they made out jointly to Brown
and FNMA. Doc. 20 II 18, 45. Brown could not cash
this check because he had no prior dealings with
FNMA. Id. 1 45.
Brown waited two years, then contacted Citizens
demanding payment. Id. 1 19. Citizens again made
the check a joint check that Brown could not cash. Id.
1 20. This process repeated several times, with
Brown demanding payment and Citizens issuing a
joint check. Id. 121. Citizens did not explain why
they continued to write joint checks, Or why the
check was not for the full settlement amount. Id. 1
11

22. Brown filed the instant action seeking payment
of the settlement funds. Id. *1 23.
1 The following statement of facts is derived from the First
Amended Complaint (Doc. 20), the allegations of which the
Court must accept as true in ruling on the instant Motion to
Dismiss. Linder v. Portocarrero, 963 F.2d 332, 334 (11th Cir.
1992); Quality Foods de Centro Am., S.A. v. Latin Am.
Agribusiness Dev. Corp. S.A., 711 F.2d 989, 994 (11th Cir.
1983).

In the Amended Complaint, Brown alleges claims
against Citizens for breach of contract, the tort of
conversion, unjust enrichment, intentional breach of
fiduciary duty, and intentional infliction of severe
emotional distress. Id. at 23. Brown alleges that
Citizens breached the settlement agreement with
him by failing to remit the agreed settlement funds.
Id. 1 63. Additionally, Brown alleges that Citizens
converted the funds Brown was entitled to as
payment under his insurance policy, as well as the
settlement funds. Id. 'll I 65-70. With respect to the
claim of unjust enrichment, Brown alleges that he
conferred benefits on Citizens by paying premiums
for his insurance policy and waiving certain rights in
his settlement agreement with them, and that
it is inequitable for Citizens to retain these benefits
without paying the settlement amount. Id. M73-76.
Brown alleges that Citizens intentionally breached
its fiduciary duty by delaying payment on a valid
claim and failing to pay Brown the settlement funds.
Id.
87-90. Finally, Brownalleges that Citizens
intentionally caused him severe emotional distress
by intentionally engaging in this outrageous conduct
and scheme for years, causing Brown spikes in his
12

blood pressure andheart pains, as well as anxiety,
worry, anger, sadness, lack of sleep, and mental pain.
Id. ff 100-108.
II. LEGAL STANDARD
A motion to dismiss under Federal Rule of Civil
Procedure 12(b)(1) challenges the court’s subject
matter jurisdiction; Rule 12(b)(1) permits a facial or
factual attack. McElmurray v. Consol. Gov’t of
Augusta-Richmond Cty., 501 F.3d 1244, 1251 (11th
Cir. 2007). On a Rule 12(b)(1) facial attack, the court
evaluates whether the plaintiff “has sufficiently
alleged a basis of subject matter jurisdiction” in the
complaint and employs standards similar to those
governing Rule 12(b)(6) review. Houston v. Marod
Supermarkets, Inc., 733 F.3d 1323, 1335 (11th Cir.
2013). A Rule 12(b)(1) factual attack, however,
“challenge[s] the existence of subject matter
jurisdiction in fact, irrespective of the pleadings, and
matters outside the pleadings, such as testimony and
affidavits, are considered.” Lawrence v. Dunbar, 919
F.2d 1525, 1529 (11th Cir. 1990) (citation and
internal quotation marks omitted). When the attack
is factual, “the trial court is free to weigh the
evidence and satisfy itself as to the existence of its
power to hear the case.” Id. Therefore, “no
presumptive truthfulness attaches to [the] plaintiffs
allegations, and the existence of disputed material
facts will not preclude the trial court from evaluating
for itself the merits of jurisdictional claims.” Id.
III. DISCUSSION
A. Subject Matter Jurisdiction
13

Citizens was created by the Florida Legislature “to
ensure that there is an orderly market for property
insurance for residents and businesses of this state.”
§ 627.351(6)(a)l., Fla. Stat. The statute states that
Citizens is “a government entity that is an integral
part of the state, and that is not a private insurance
company.” Id. Consistent with this statement, courts
regularly recognize Citizens’ status as a state
government entity. See, e.g., Swanson v. State Farm
Mut. Auto. Ins. Co., 619CV4220RL31DCI, 2019 WL
1763244, at *2 (M.D. Fla. Apr. 22, 2019) (recognizing
that Citizens is a government entity that benefits
from immunity); Pulley v. Citizens Prop. Ins. Corp.,
12-60122-CIV, 2012 WL 13006233, at *1 (S.D. Fla.
Apr. 20, 2012) (“Citizens is unquestionably a
governmental entity.”).
The Eleventh Amendment provides that the
“[jludicial power of the United States shall not be
construed to extend to any suit in law or equity,
commenced or prosecuted against one of the United
States by Citizens of another State, or by Citizens or
Subjects of any Foreign state.” U.S.Const. amend. XI.
The Eleventh Amendment has also been interpreted
by the United StatesSupreme Court as barring suits
brought against a state by its own citizens. Edelman
v. Jordan, 415 U.S. 651, 662-63 (1974) (stating that
the “Court has consistently held that an
unconsenting State is immune from suits brought in
federal courts by her own citizens as well as by
citizens of another State.”). Eleventh Amendment
also protection “extends not only to the state itself,
but also to state officers and entities when they act
as an arm of the state.” Wendel v. Fla. Dept, of
14

Highway Safety & Motor Vehicles, 80 F. Supp. 3d
1297, 1303 (M.D. Fla. 2015) (citing U.S. ex
rel.Lesinski v. S. Fla. Water Mgmt. Dist., 739 F.3d
598, 601 (11th Cir.2014)). For this reason, federal
courts have repeatedly dismissed cases against
Citizens for lack of subject matter jurisdiction under
the Eleventh Amendment. Pulley, 2012 WL
13006233, at *1 (dismissing a case against Citizens
“because the Eleventh Amendment precludes this
Court from considering a claim against Citizens,
which is a governmental entity.”); see also Knap v.
Citizens Prop. Ins. Corp., 09-22370-CIV, 2009 WL
10699967, at *1 (S.D. Fla. Sept. 29, 2009) (“As a
government entity, Citizens is immune from claims
in federal court under the 11th Amendment to the
U.S. Constitution, which grants states immunity
from suit in federal court.”).
Immunity under the Eleventh Amendment may be
waived, but only if “explicitly authorized by the state
‘in its Constitution, statutes, and decisions.’ ” Tague
v. Fla. Fish & Wildlife Conservation Com’n, 390 F.
Supp. 2d 1195,1207 (M.D. Fla. 2005), affd, 154 Fed.
Appx. 129 (11th Cir. 2005) (quoting Silver v.
Baggiano, 804 F.2d 1211, 1214 (11th Cir. 1986)). With
respect to Citizens, the Florida Legislature waived
immunity by statute in specific instances. The
relevant statute states as follows:
There shall be no liability on the part of, and
no cause of action of any nature shall arise against,
any assessable insurer or its agents or employees,
the corporation or its agents or employees, members
of the board of governors or their respective
designees at a board meeting, corporation committee
15

members, or the office or its representatives, for any
action taken by them in the performance of their
duties or responsibilities under this subsection. Such
immunity does not apply to:
a. Any of the foregoing persons or entities for
any willful tort;
b. The corporation or its producing agents for
breach of any contract or agreement pertaining to
insurance coverage;
c. The corporation with respect to issuance or
payment of debt;
d. Any assessable insurer with respect to any
action to enforce an assessable insurer's obligations
to the corporation under this subsection; or
e. The corporation in any pending or future
action for breach of contract or for benefits under a
policy issued by the corporation; in any such action,
the corporation shall be liable to the policyholders
and beneficiaries for attorney's fees under s. 627.428.
§ 627.351(6)(s)l., Fla. Stat. Brown relies on these
waivers to contend that this Court has jurisdiction
over this suit and the Eleventh Amendment does not
apply. Doc. 28 at 8-9. However, none of these
exceptions to immunity relate to a waiver of Citizens’
immunity from suit in federal court provided by the
Eleventh Amendment.

16

Indeed, in its sovereign immunity statute, Florida
states that “[n]o provision ... of any . . . section of
the Florida Statutes . . . shall be construed to waive
the immunity of the state or any of its agencies from
suit in federal court. . . unless such waiver is
explicitly and definitely stated to be a waiver of the
immunity . . . from suit in federal court.” §
768.28(18), Fla. Stat. Likewise, the United States
Supreme Court has ruled that there can be no
implied waiver of Eleventh Amendment Immunity
and any such waiver must be express. Sossamon v.
Texas, 563 U.S. 277, 284 (2011) (“Waiver may not be
implied.”).
In response to Citizens’ Motion to Dismiss based on
Eleventh Amendment Immunity, Brown cites to
various provisions concerning what falls under
federal subject matter jurisdiction, including federal
question jurisdiction, which he claims exists in this
case. Doc. 28 at 5-6. These arguments do not address
the sovereign immunity created by the Eleventh
Amendment. Indeed,the Eleventh Circuit has held
that Eleventh Amendment immunity applies even
“when the subject of the suit is an area . . . that is
under the exclusive control of the Federal
Government.” Seminole Tribe of Fla. v. Florida, 517
U.S. 44, 72 (1996). The Court stated that “[e]ven
when the Constitution vests in Congress complete
law-making authority over a particular area, the
Eleventh Amendment prevents congressional
authorization of suits by private parties against
unconsenting States.” Id.

17

Brown also cites to the abrogation of Eleventh
Amendment Immunity by the Fourteenth
Amendment. Indeed, “[s]ection 5 of the Fourteenth
Amendment, however, does grant Congress the
authority to abrogate the States’ sovereign
immunity.” Kimel v. Fla. Bd. of Regents, 528 U.S. 62,
80 (2000). However, Brown has not shown that any
of his claims are among those for which Congress has
abrogated Florida’s sovereign immunity.
Additionally, Brown’s reliance on the Supreme
Court’s decision in Ex parte Young, 209 U.S. 123, 28
S. Ct. 441, 52 L. Ed. 714 (1908), is misplaced.
Pursuant to Ex parte Young, there is “a long and
well-recognized exception to [the state immunity]
rule for suits against state officers seeking
prospective equitable relief to end continuing
violations of federal law.” Summit Med. Assocs., P.C.
v. Pryor, 180 F.3d 1326, 1336 (11th Cir. 1999).
Brown’s suit is not against a state officer and,
therefore, the rule under Ex parte Young does not
apply.
Based on the above, and pursuant to the Eleventh
Amendment, this Court has no jurisdiction over this
action. Because of the lack of subject matter
jurisdiction, the Court will not address the remaining
arguments by Citizens.
B.
Unknown Employees
Brown also files this suit against “unknown
employees” of Citizens. “As a general matter,
fictitious-party pleading is not permitted in federal
court.” Nalls v. Coleman Low Fed. Inst., 5:09-CV18

384-OC-lOGRJ, 2010 WL 5262491, at *2 (M.D. Fla.
Dec. 17, 2010), affd, 440 Fed. Appx. 704 (11th Cir.
2011) (quoting Richardson v. Johnson, 598 F.3d 734,
738 (11th Cir.2010)). “There is a limited exception to
this prohibition where a plaintiff who fails to identify
a party by name has otherwise described the party
with sufficient detail.” Mitchell v. Headley, 2:18-CV769-ECM, 2019 WL 3323733, at *1 (M.D. Ala. July
24, 2019) (citing Dean v. Barber, 951 F.2d 1210,
1215-16 (11th Cir. 1992)).
The unknown employees have not been identified
and served while this litigation has been ongoing.
Doc. 51 at 12 (stating that the unknown employees
have yet to be identified). Accordingly, the inclusion
of unknown and unidentified parties is not a barrier
to dismissal of this action. McCarter v. McNeil &
Myers Asset Mgmt. Group, LLC,
118CV04895TCBAJB, 2019 WL 2323555, at *1 (N.D.
Ga. Feb. 11, 2019) (recognizing that a district court
may sua sponte dismiss claims against fictitious
parties). Accordingly, it is
ORDERED:
1. Defendant's Motion to Dismiss Plaintiffs
Amended Complaint and Memorandum
of Law (Doc. 27) is GRANTED.
2. This case is DISMISSED for lack of subject
matter jurisdiction.
3. The Clerk is directed to terminate all
pending deadlines and motions and CLOSE this
case.

19

DONE AND ORDERED in Tampa, Florida on April
3, 2020.
/S/ Charlene Edwards Honeywell
United States District Judge
Copies to:
Counsel of Record and Unrepresented Parties, if any
D. Appellant Brief for Petition for Rehearing
March 24, 2021
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
Case Number = 20-11607-BB
ROGER BROWN, PRO SE
PETITIONER/APPELLANT/PLAINTIFF
V.
UNKNOWN EMPLOYEES OF CITIZENS
PROPERTY INSURANCE CORPORATION [to be
discovered]
DEFENDANTS
and
CITIZENS PROPERTY INSURANCE
CORPORATION
APPELLEE/DEFENDANT
PETITION FOR REHEARING AND
SUGGESTION FOR REHEARING IN BANC
PETITIONER-APPELLANT-PLAINTIFF
20

ROGER BROWN, PRO SE
FROM THE FEBRUARY 4, 2021 PANEL
DECISION
USCA11 CASE: 20-11607
BEFORE HONORABLE WILSON,
ROSENBAUM, & GRANT
FROM THE APRIL 3, 2020 DISMISSAL
IN THE UNITED STATES DISTRICT
COURT,
MIDDLE DISTRICT OF FLORIDA, TAMPA
DIVISION,
CIVIL ACTION 8:19-cv-1951-T-36SPF.
THE HONORABLE CHARLENE
HONEYWELL PRESIDING.
A CIVIL PROCEEDING
ORAL ARGUMENTS
BROWN DOES NOT WANT ORAL
ARGUMENTS
RESPECTFULLY SUBMITTED:
BY:/S/
Roger Brown, Pro Se, rbl27.legal@gmail.com,
956-408-9167
c/o PO Box 566, Dunedin, Florida 34697-0566
CERTIFICATE OF INTERESTED PERSONS
APPEAL NO. 20-11607-BB
U.S. COURT OF APPEALS FOR THE
ELEVENTH CIRCUIT
21

CERTIFICATE OF INTERESTED PERSONS
AND CORPORATE DISCLOSURE
STATEMENT
Roger Brown vs. Citizens Property Insurance
Corporation, et al
11th Cir. R. 26.1 (enclosed) requires that a
Certificate of Interested Persons and Corporate
Disclosure Statement must be filed by the appellant
with this court within 14 days after the date the
appeal is docketed in this court, and must be
included within the principal brief filed by any party,
and included within any petition, answer, motion or
response filed by any party. You may use this form to
fulfill this requirement. In alphabetical order, with
one name per line, please list the trial judge( s), and
all attorneys, persons, associations of persons, firms,
partnerships, or corporations that have an interest in
the outcome of this case or appeal, including
subsidiaries, conglomerates, affiliates and parent
corporations, including any publicly held corporation
that owns 10% or more of the party's stock, and other
identifiable legal entities related to a party, (please
type or print legibly):
Brown, Roger, Pro Se Appellant/Plaintiff
Citizens Property Insurance Corporation,
Appellee/D efendant
Flynn, Sean Patrick, Magistrate Judge for the
Tampa Middle District of Florida.
Honeywell, Charlene Edwards, U. S. District Judge
for the Tampa Middle District of Florida.
22

Kreiser, Erin R., Attorney, The Rock Law Group,
P.A. For Appellees/Defendants.
Pearcy, Maureen, Attorney, Paul R. Pearcy, P.A. For
Appellees/Defendants
Rock, Andrew, Attorney, The Rock Law Group, P.A.
For Appellees/Defendants.
State of Florida
Unknown Employees of Citizens Property Insurance
Corporation Appellees/ Defendants
STATEMENT OF BELIEF [& QUESTIONS]
I express a belief, based on a reasoned and studied
non-professional judgment, that the Panel Decision
of February 4, 2021 is contrary to the following
decision(s) of the Supreme Court of the United States
or the precedents of this Circuit and that
consideration by the full court is necessary to secure
and maintain uniformity of decisions in this court if
the Panel does not want to reverse their original
decision:
SUPREME COURT SPLITS:
FDIC v. Meyer, 114 S. Ct. 996, 1003 (1994)
Hess v. Port Auth. Trans-Hudson Corp., 513 U.S. 30,
115 S.Ct. 394, (1994)
Regents of the Univ. of Cal. v. Doe, 519 U.S. 425,
429-30, 117 S.Ct. 900 (1997)
Thacker v TVA, 139 S.Ct. 1435 (2019)
23

INTRA-CIRCUIT SPLITS:
Abusaid v. Hillsborough County Board of
Commissioners, 405 F.3d 1298 [2005]
Manders v. Lee, 338 F.3d at 1328
Shands Teaching Hosp. & Clinics v. Beech St. Corp.,
208 F.3d 1308, (11th Cir. 2000)
INTER-CIRCUIT SPLITS:
Hess v. Port Auth. Trans-Hudson Corp., 513 U.S. 30,
115 S.Ct. 394, (1994)
Cash v. Granville County Bd. of Educ., 242 F.3d 219,
223-24 (4th Cir. 2001)
Duke v. Grady Mun. Schs., 127 F.3d 972, 975 (10th
Cir. 1997).
Fresenius Medical v. Puerto Rico, 322 F.3d 56 (1st
Cir. 2003)
Hadley v. N. Ark. Cmty. Tech. Coll., 76 F.3d 1437,
1439-42 (8th Cir. 1996))
Md. Stadium Auth. v. Ellerbe Becket, Inc., 407 F.3d
255, 261 (4th Cir. 2005)
Reference To [OB-24]:
ITSI TV Productions, Inc. v. Agric. Ass'ns, 3 F.3d
1289, 1291 (9th Cir. 1993)
United States ex rel. Oberg v. Pa. Higher Educ.
Assistance Agency, 745 F.3d 131, 147 (4th Cir. 2014)
Woods v. Rondout Valley Central School District
Board of Education, 466 F.3d 232, 237 (2d Cir. 2006)
I express a belief, based on a reasoned and studied
non-professional judgment, that this Petition
involves one or more questions of exceptional
importance. With no disrespect to the Panel, these
questions presented in this case arise out of legal
24

decisions in the District Court and the Court of
Appeals Panel’s interpretation of legal precedents in
a way that is contrary to the legal decisions which
have previously been settled by the Supreme Court.
Is another trip to the U.S. Supreme Court necessary?
This Court should not deprive Brown, and many
thousands of other policyholders, of due process of
law nor deny equal protection of the laws because of
splits. The questions herein are cert-worthy and may
be of general importance which is ripe for Supreme
Court review if not settled now within the 11th
Circuit.
1. Whether CPIC is a qualified "Arm of the State"
and is entitled to sovereign immunity in Federal
Court under the Eleventh Amendment when
conducting commercial activities?
2. Why were Splits with the U.S. Supreme Court,
Intra-Circuit Splits, and Splits with other Circuits
used to decide this case?
3. Did the 11th Circuit Panel correctly apply Federal
Decisions in this case?
4. Why did the 11th Circuit Panel ignore Thacker v
TVA?
5. How does CPIC's activity of borrowing money,
issuing bonds, handling policyholder claims, denying
claims, suing and being sued in its own name,
seeking insurance premiums, and entering into
Commercial Contracts reflect an activity by an "Armof-State"as a governmental function?
25

The Panel Decision directly conflicts with Federal
law and substantially affects the application of Due
Process and Equal Protection. The Panel Decision
Overlooks Material Points of Law Resulting in
Conflicts with the Supreme Court, other Decisions of
this Court, and Decisions of Other Circuits.
Therefore a Rehearing is necessary to secure
uniformity of this Court's Decisions. Nothing
suggests that a state entity, particularly a
government corporation, must be free from any form
of legal accountability for commercial decisions of the
sort complained of in this case. This Petition should
be granted, and the case should be reheard En Banc
if a new Panel Rehearing can not reverse the Panel’s
initial decision.
By:_/s/___________________________
Roger Brown, Pro Se, rbl27.legal@gmail.com,956408-9167
c/o PO Box 566, Dunedin, Florida 34697-0566
CERTIFICATE OF COMPLIANCE WITH TYPEVOLUME LIMIT
This Petition meets the page limit of 15 and complies
with type-volume limits of 3900 words, excluding the
parts of the document exempted by R. 35-1. This
Petition has been prepared in a proportionally
spaced typeface using Corel Word Perfect version X7.
It was used to type this Petition and used to count
words. This is to certify that this Petition uses Times
New Roman Typeface of 14 point or larger. The
number of words are counted as 3673. The Petition is
double spaced except for quotes. There are no
footnotes.
26

Dated: March 24,
BY:_/s/_
2021.
Roger Brown, Pro Se
rbl27.legal@gmail.com
c/o PO Box 566
Dunedin, Florida 34697-0566
956-408-9167

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true and correct copy of
this Petition has been electronically conveyed via the
Internet to the opposing attorneys of record in this
Case pursuant to a mutual agreement of June 15,
2020. Said documents transferred on this the 24th
day of March, 2021 to Maureen Pearcy and Andrew
Rock, attorneys of record for Citizens Property
Insurance Corporation at the following address:
service@pearcylawyer.com
maureen@pearcylawyer.com
Maureen G. Pearcy, Paul R. Pearcy, P.A..
7600 S. Red Road, Suite 200
South Miami, Florida 33143
Andrew P. Rock
1760 Fennell Street
Maitland, Florida 32751
arock@rocklawpa.com
By:_/s/
27

Roger Brown, Pro Se
Petitioner/Appellant/Plaint
iff
rbl27.legal@gmail.com,
956-408-9167
c/o PO Box 566
Dunedin, Florida 346970566

TABLE OF CONTENTS
COURT HEADING [Page i]
STATEMENT REGARDING ORAL ARGUMENT
[Page i]
SUBMISSION
SIGNATURE [Page i]
CERTIFICATE OF INTERESTED PERSONS [Page
ii]

STATEMENT OF BELIEF & QUESTIONS [Page iii
& iv]
CERTIFICATE OF
COMPLIANCE [Page v]
CERTIFICATE OF SERVICE [Page v]
TABLE OF CONTENTS
[Page vi]
TABLE OF CITATIONS
[Page vi]
A. CASES
[Page vi]
B. STATUTES
[Page viii]
C. CONSTITUTIONAL
[Page viii]
D. RULES
[Page viii]
E. MISCELLANEOUS
[Page viii]
GLOSSARY [Page ix]
ARGUMENT/CITATIONS OF AUTHORITIES [Page
1]
[BROWN'S COUNTER RESPONSES TO PANEL’S
DECISION]
28

I. SPLITS [STATEMENT OF ISSUES & FACTS]
[Pet. App. 33-35]
II ARGUMENTS [& FACTS OF THE ISSUES] [Pet.
App. 35-39]
III. 11th CIRCUIT'S FOUR FACTOR TEST [COURT
PROCEEDINGS] [Pet. App. 40-48]
IV. CONCLUSION [& DISPOSITION] [Pet. App.
48-49]
APPENDIX: PANEL DECISION USCA11 Case: 2011607 Date Filed: 02/04/2021

TABLE OF CITATIONS
For This Petition Brief
[Page numbers here in [ ] refers to pages
within the Petition Brief]
A. CASES
Abusaid v. Hillsborough County Board of
Commissioners, 405 F.3d 1298 [2005] US 11th
Circuit. [Page 15]
Auer v. Robbins, 519 U.S. 905, 908 n.l (1997). [Page
12]
Briscoe v. Bank of Ky., 36 U.S. at 323-24. [Page 9]
Duke v. Grady Mun. Schs., 127 F.3d 972, 975 (10th
Cir. 1997). [Page 4,7]
29

FDIC v. Meyer, 114 S. Ct. 996, 1003 (1994). [Page 10]
Fresenius Medical v. Puerto Rico, 322 F.3d 56 (1st
Cir. 2003) at 67-68. [Page 14]
Hess v. Port Auth. Trans-Hudson Corp., 513 U.S. 30,
48, 115 S.Ct. 394, 404, 130 L.Ed.2d 245 (1994) [Page
2,3,14,15]
Lake Country Estates, Inc. v. Tahoe Regional
Planning Agency, 440 U.S. 391,401 (1979) [Page 11]
Lincoln County v. Luning, 133 U.S. 529, 530 (1890).
[Page 9]
Loeffler v. Frank, 486 U.S. 549, 554-55 (1988). [Page
10]
Manders v Lee, 338 F.3d 1304 (11th Cir. 2003) [Page
2,4,14]
Mt. Healthy City Bd. of Educ. v. Doyle, 429 U.S. 274,
280 (1977) [Page 11]
Northern Insurance Co. v. Chatham County, 547
U.S. 189, 193 (2006) [Page 11]
Perdido Sun Condominium Ass'n v. Citizens
Property Insurance Corp., 129 So. 3d 1210 (Fla. 1st
DCA 2014) [Page 13]
Regents of the Univ. of Cal. v. Doe, 519 U.S. 425,
429-30,H7S:Ct.9007r37L.Ed:2d5511997r[Pap
2]
30

)

Shands Teaching Hosp. & Clinics v. Beech St. Corp,,
208 F.3d 1308, 1311 (11th Cir. 2000) [Page 2,8,12]
Thacker v TVA, 139 S.Ct. 1435 (2019) [OB-28,40]
[RB-6,8,9,10,11,27,28] [Page 1,3,4,5,6,7]
'

Waller v. Florida, 397 U.S. 387 (1970) [EA] [RB-8]
[Page 11]
Wendel v. Fla. Dept, of Highway Safety & Motor
Vehicles, 80 F. Supp. 3d 1297,1303 (M.D. Fla. 2015)
[Page 4]
REFERENCE TO [OB-24]: [Page 3] [See Also Page
iii]
ITSI TV Productions, Inc. v. Agric. Ass'ns, 3 F.3d
1289, 1291 (9th Cir. 1993)
United States ex rel. Oberg v. Pa. Higher Educ.
Assistance Agency, 745 F.3d 131, 147 (4th Cir. 2014)
Woods v. Rondout Valley Central School District
Board of Education, 466 F.3d 232, 237 (2d Cir. 2006)

B. STATUTES
Fla. Stat. 627.351 [Page 8]
Fla. Stat. 627.351(6)(a)2 [Page 12]
Fla. Stat. § 20.121(3). [Page 12]
C. CONSTITUTION
[None Directly Referred to]
D. RULES
[None Directly Referred to]
31

E. MISCELLANEOUS
CS/SB 1418, Advisory Legal Opinion, Number: AGO
2002-21, Date: March 6, 2002. [Page 10]

GLOSSARY
ITEM
DESCRIPTION
AC
Brown’s Amended Complaint
Brown
Petitioner Roger Brown [Pro Se
Plaintiff, Appellant]
CPIC
Citizens Property Insurance
Corporation [Appellee/Defendant]
Doc
Document
Doc
Brown’s District Court Filings
EA
Emphasis Added
Hess
Hess v. Port Auth. Trans-Hudson Corp.
OB
Brown’s Original Brief [Page #
refers to Brown’s Brief beginning with
STATEMENT OF THE ISSUES]
PD
11th Circuit Panel Decision of February
2, 2021
Pg
Page
RB
Brown’s Reply Brief
Thacker
Thacker v TVA
*D
Doc 27 [CPIC Motion To Dismiss]
*PAM Doc 20 [Brown Amended Complaint]
*PO
Doc 28 [Brown Opposition to Doc 27]
* Before Brown caught on how to properly reference documents
he used these references.

32

I. SPLITS: The 11th Circuit Splits again with the
Supreme Court, itself, and other Circuits! Within the
Eleventh Circuit splits have broad impacts and deny
all citizens seeking justice the rights of due process
and equal protection of the laws. To settle
divergences in “Arm-of-State” determinations, the
Supreme Court, in Thacker, and several cases
reaffirmed therein, set a firm precedent to follow.
Brown raised similar issues of widespread and
persistent constitutional violations via commercial
activities previously considered in this 11th Circuit
and which were over-turned and remanded by the
Supreme Court. See Thacker v TVA, 139 S.Ct. 1435
(2019) [OB-28,40] [RB-6,8,9,10,11,27,28]

,

1. 11th Circuit Splits with Supreme Court on
Eleventh Amendment immunity.
A. Splits on Commercial Activity. PD uses a 4 factor
entity-based test approach, whereas the Supreme
Court used a first step activity test of whether
activity is Commercial or Governmental. Brown
argued that Commercial activities are not protected
by 11th Amendment immunity. District Court and
PD have erred by not applying this Supreme Court
precedent.
See[Docl2,Pg21,#7C] [Doc20,Pg5,#9(l),Pgl3,#9(12)[D
oc28,Pg8-9, #17-18] [Doc30Pg20-22,#35-37] [AC5,12,13] [OB-11,14,17,20,24, 25,28,29,31,41,56]
B. Splits on Judgments. The State treasury is the
primary, if not dispositive, importance on question of
whether state treasury is at risk in evaluating
whether an entity is entitled to 11th Amendment
protection. 11th Circuit ignores weight of Judgment
factor. [OB-25]
33

"the vulnerability of the State's purse [i]s the
most salient factor in 11th Amendment
determinations." Hess v. Port Auth. Trans-Hudson
Corp., 513 U.S. 30, 48, 115 S.Ct. 394, 404,130
L.Ed.2d 245 (1994) [OB-25] (EA). [Never been over­
turned]
2. 11th Circuit Intra-Circuit Splits on Eleventh
Amendment immunity.
A. Split within its own Circuit on entity-based versus
activity-based Arm-of-State status. PD did not
consider CPIC’s role in Brown’s particular context.
[PD v Shands]
"The pertinent inquiry is not into the nature of
[an entity's] status in the abstract, but its function or
role in a particular context." Shands Teaching Hosp.
& Clinics v. Beech St. Corp., 208 F.3d 1308, 1311
(11th Cir. 2000). [EA]
B. PD did not consider CPIC’s function of activity.
[PD v Regents]
“Whether a defendant is an "arm of the State" must
be assessed in light of the particular function in
which the defendant was engaged when taking the
actions out of which liability is asserted to arise.”
Regents of the Univ. of Cal. v. Doe, 519 U.S. 425,
429-30, 117 S.Ct. 900, 137 L.Ed.2d 55 (1997). Also
quoted in Manders v. Lee 338 F.3d 1304 (11th Cir.
2003)[No. 01-13606].[EA]
C. PD did not consider CPIC’s activities in Brown’s
case. [PD v Manders]
“a Georgia sheriff was acting as an “Arm-ofState” when overseeing the jail, but declined to hold
34

that a sheriff was an “Arm-of-State” in every function
performedManders v. Lee, 338 F.3d at 1328(11th
Cir)[0B-31][EA]
3. 11th Circuit Splits with other Circuits on Eleventh
Amendment immunity.
A. Affirmative Defense: PD ignored this District
Court error, thus the 11th Circuit splits and does not
condone Eleventh Amendment immunity as an
affirmative defense. See [OB-24] for [PD v other
Circuit opinions].
B. Judgements: 11th Circuit Splits with other
Circuits on Judgments against the State treasury as
the primary, if not dispositive, importance on
question of whether state treasury is at risk in
evaluating whether an entity is entitled to 11th
Amendment protection. [OB-26,27]
"the vulnerability of the State's purse [i]s the
most salient factor in 11th Amendment
determinations." Hess v. Port Auth. Trans-Hudson
Corp.,ibid., [OB-25] (EA). [Hess has never been over­
turned] [Salient = notable significance]
C. Entity-Based: 11th Circuit Split with other
Circuits on entity-based versus activity-based Armof-State status. [OB-25] This “entity-based” approach
is the wrong approach the District Court and PD
took to decide CPIC’s status as an Arm-of-State. [OB25] Said approach was in error with other Circuits
and Thacker.
II. ARGUMENTS: CPIC operates commercially only
for a select few property owners who are citizens of
Florida and other states [Interstate Commerce], and
who are private owners. CPIC sells Contracts of
35

Insurance, contracts are not made by CPIC by virtue
of its powers of sovereignty, but in its capacity as a
commercial corporation. The supply of insurance
contracts is no more a duty of sovereignty than
electricity.
“Why should selling property insurance he a
governmental function?” [OB-20] “Whether CPIC
performs a “real” state function takes a lot of
stretching around corners to determine that CPIC is
an Arm-of-State, given all the reasons it is not” [OB31]
FEDERAL LAW: Federal Law determines if and how
an entity and not a State is entitled to immunity
under the Eleventh Amendment. Federal Courts are
not bound by state court decisions regarding Arm-ofState status. We must look to Federal Laws and
Decisions to determine if CPIC is deserving of a valid
Arm-of-State status.
“The issue of whether an entity is an "arm of
the State" for Eleventh Amendment purposes is
ultimately a question of federal law.” Manders v Lee,
ibid., [EA][See also Duke v. Grady Mun. Schs., 127
F.3d 972, 975 (10th Cir. 1997).]
District Court cited: “Eleventh Amendment
also protection ‘extends not only to the state itself, hut
also to state officers and entities when they’ act as an
arm of the state.” Wendel v. Fla. Dept, of Highway
Safety & Motor Vehicles, 80 F. Supp. 3d 1297,1303
(M.D. Fla. 2015) (citing us. ex rel. Lesinski v. S. Fla.
Water Mgmt. Dis!., 739 F.3d 598, 601 (11 th
Cir.2014)). [EA]
36

The operative word in that quote was “ACT”. An
entity can sometime act like an Arm-of-State and
sometimes not act like an Arm-of-State. It was this
difference that the Supreme Court, in Thacker,
decided by differentiating between governmental
versus commercial actions. This set the precedent
that over ruled the fixed entity [entity-based]
approach by introducing the fact that an Arm-ofState could be a hybrid entity [activity-based].
“TVA is something of a hybrid ...” Thacker v
TVA ibid., [EA]
CPIC operates a massive multiple billion dollar
property insurance company in the market place
with around 1250 employees and thousands and
thousands of policyholders in Florida and other
states. CPIC is so massive in the insurance business
it is hard to find one activity that is not commercial.
THACKER CHANGED EVERYTHING: With
Thacker, Arm-of-State activities are either
governmental or commercial. This limits immunity
to Arm-of-State status only when acting in a
governmental activity and eliminates immunity
protection when performing commercial non­
governmental activity.
“Justice Kagan’s unanimous opinion reversed
the 11th Circuit and stated TVA is subject to suits
challenging any of its commercial activities. The
decision places TVA in the same position as a private
corporation. If TVA can be stripped of immunity and
sued when it acts commercially like a business, then
CPIC should be treated likewise. Thacker should be
37

controlling and dispositive against CPIC.” [RB9,10] [EA]
PD using the 4 factor test splits with the Supreme
Court’s unanimous decision in Thacker which over­
turned the 11th Circuit’s four factor test in how to
first determine Arm-of-State status. The new
standard is to determine first if the action being
considered is commercial or governmental.
“'When the TVA or similar body operates in the
marketplace as private companies do, it is as liable as
they are for choices and judgments. The possibility of
immunity arises only when a suit challenges
governmental activities — the kinds of functions
private parties typically do not perform.” Thacker v
TVA. Ibid., [EA] [OB-28]
Note the plain meaning of the words or similar body,
the Supreme Court was setting a precedent that
their analysis can be applied to any Arm-of-State
determinations and not just to TVA; otherwise those
words would not have been necessary. Thacker
directed that Courts must first decide if an entity’s
activity is commercial or governmental. Both District
Court and PD ignored and split with Thacker.
“To determine if the TVA has immunity, the
court on remand must first decide whether the
conduct alleged to be negligent is governmental or
commercial in nature. If it is commercial, the TVA
cannot invoke sovereign immunity. If it is
governmental, the court might decide that an implied
limitation on the clause bars the suit, but only if it
finds that prohibiting the "type[ ] of suit [at issue] is
necessary to avoid grave interference" with that
38

function's performance. Burr, 309 U. S., at 245. Pp.
10-11” Thacker v TVA. Ibid., [EA]
Before any factor testing, the first step is to
determine if the activity complained of, which is the
subject of this case, is commercial activity or
governmental activity. If it is commercial activity,
then the determination is finalized there without
further steps, and immunity can not be invoked. If it
is governmental then maybe the Courts can proceed
further and apply their factor testing.
“If the TVA's activities are ‘commercial’....
TVA cannot invoke sovereign immunity." Thacker v
TVA. ibid., [EA]
“But even if the conduct is
governmental, it must be ‘clearly shown’ that
immunizing the TVA from suit is necessary to
prevent a "grave interference" with a governmental
function. This, the court cautioned, is a "high bar.”
Thacker v TVA. ibid., [EA]
PD did not consider CPIC’s activities as either
governmental nor commercial and PD did not clearly
show that granting immunity to CPIC would prevent
grave interferences with Florida’s governmental
functions. District Court and PD have run afoul of
Thacker, have applied the wrong legal test, and thus
reached the wrong result. Both Court’s analysis
departs from Thacker and from several component
errors in determining Arm-of-State status. District
Court and PD appears to have ignored Thacker.

39

III. HTh CIRCUIT’S FOUR FACTOR TEST: In the
alternative, IF this Court chooses to ignore Thacker,
Brown hereby demonstrates, without using the
precedent of Thacker, why PD wrongfully decided
that CPIC was an entity deserving of an Arm-ofState status in applying the four factor test.
1. HOW ENTITY DESCRIBED [ how state law
defines the entity] This should be more accurately
stated as “how the entity is referred to in its
documents of origin. State court decisions should not
be dispositive,
“We give some deference to the rationale of state
court decisions regarding the arm-of the-state status
of a particular entity, but do not regard them as
dispositive.” Duke v. Grady Mun. Schs., ibid., [EA]
PD did not do a thorough examination of the creation
of CPIC. With the exception of the Abstract, five
other related issues that would have turned this
factor against Arm-of-State status, were ignored by
PD. Consider these areas that PD overlooked with
the exception of the Abstract.
A. ABSTRACT: PD’s focus was too narrow. PD failed
to look at issues surrounding the origin of the entity.
PD only considered the abstract instead of looking at
all the factual information, documents, and issues
that were created around the entity’s formation. PD
stated that:
“For the first factor the Florida legislature
defined CPIC as “a government entity,” and
specifically noted that it was “not a private insurance
company.” Fla. Stat. § 627.351(6)(a)l.” [PD-4]

40

That alone weighed in favor of finding CPIC an Armof-State. This was an oversight and created an 11th
Circuit Intra-Circuit Split with a previous ruling in
Shands:
"The pertinent inquiry is not into the nature of
[an entity's] status in the abstract, but its function or
role in a particular context.". Shands Teaching Hosp.
& Clinics v. Beech St. Corp., ibid., [EA]
This factor depends not on the status in the abstract,
but by how the entity is referred to in all of the origin
issues and documents. Nature means how state
origin, related legal issues, and actual functions,
when taken together in total and not abstract,
actually describes the entity. CPIC was a
government created entity, but that alone did not
bestow upon CPIC an Arm-of-State. PD inquired only
into CPIC’s nature as a governmental entity but
failed to inquire further into other related origin
issues and documents.
B. CORPORATIONS: One important consideration
that courts have relied upon since the earliest cases,
and which PD ignored, is whether or not the entity in
question has its own corporate identity.
Incorporation generally implies the existence of a
separate, self determining entity.
“The rationale behind the Court's refusal to
allow the state to confer its immunity on proprietary
business corporations, however, was that a
corporation is a different "person" from those who are
its stockholders.” Briscoe v. Bank of Ky., 36 U.S. at
323-24;

41

r

“.......The Supreme Court, however, ruled that
because the County was a corporate entity, its
relationship to the state was too remote to afford
eleventh amendment protection.” Lincoln County v.
Luning, 133 U.S. 529, 530 (1890). [EA] [Doc30,Pgl6]
CPIC is not an executive agency but only a corporate
entity, separate and distinct from the Florida
Government. Florida intended that CPIC would have
much of the essential freedom and elasticity of a
private business corporation. The fact that the state
incorporated the entity indicates that it intended to
create a body separate from itself, therefore CPIC
can not be defined as an Arm-of-State.
C. DIGNITY: PD ignored that Suit in Federal court
is not an affront to the dignity of a Corporation
acting as a commercial enterprise, nor is the
integrity of the State compromised when the
corporate entity is sued.
“There is nothing dignified in claims of
immunity that seek to avoid accountability for
unlawful discrimination and violations of
constitutional rights. As peoples' representatives,
Courts have a responsibility to protect individuals’
rights and keep the government accountable. There is
ample dignity in adherence to the rule of law.” [Doc
35, Pg 5-7, #11(1-12)].” [OB-21] [EA]
D. SUE AND BE SUED: PD ignored the
corporation's power to sue and be sued in its own
name.
“that "sue and be sued clauses waive sovereign
immunity and should be liberally construed”. FDIC v.
Meyer, 114 S. Ct. 996, 1003 (1994). [EA]
42

agencies launched into commercial world
with power to "sue and be sued" are not entitled to
sovereign immunity.” Loeffler v. Frank, 486 U.S. 549,
554-55 (1988). [EA]
E. PRIVATE INSURANCE COMPANY: PD ignored
AGO’s 2002-21 Legal Opinion which was the official
Attorney General’s opinion of the legislation that
created CPIC. Stated simply, CPIC would operate as
a private insurance company, CPIC would not
perform a traditional governmental function, and
CPIC’s revenues were not State revenues. Nor did
PD look into CPIC’s function in the context of acting
as a private insurance company and did not consider
the facts that the Attorney General stated. See
CS/SB 1418, Advisory Legal Opinion, Number: AGO
2002-21, Date: March 6, 2002.[EA] [OB18,25,43] [RB-3]
F. POLITICAL SUBDIVISION: PD ignored that
CPIC is a political subdivision and not entitled to
Arm-of-State status.
"(t) For the purposes of s. 199.183(1), the
corporation shall be considered a political
subdivision ofthe state and shall be exempt from the
corporate income tax." 627.35l_The 2019 Florida
Statutes, CPIC Creation [EA] [Doc 01, Pg24,#82]
[Doc20,Pg26,#2] [Doc28,Pg7,#25,26;Pgl4#66;68] [RB8]

“Political subdivisions of States--counties,
cities, or whatever - never were and never have been
43

" Waller v.
considered as sovereign entities.
Florida, 397 U.S. 387 (1970) [EA] [RB-8]
“{local school district not an arm of the state
based on (1) its designation in state law as a political
subdivision,....”. Mt. Healthy City Bd. of Educ. v.
Doyle, 429 U.S. 274, 280 (1977) [EA]
"... towns, counties and other political
subdivisions of the state cannot invoke sovereign
immunity in federal...”. Northern Insurance Co. v.
Chatham County, 547 U.S. 189,193 (2006) [OB-20]
“[T)he Court has consistently refused to
construe the [Eleventh) Amendment to afford
protection to political subdivisions
”. Lake
Country Estates, Inc. v. Tahoe Regional Planning
Agency, 440 U.S. 391,401 (1979) [EA]
Supreme Court has long held that under the
Eleventh Amendment, the states and their political
subdivisions are separate entities. While suits
against a state may not be brought in Federal court
without the state's consent, no consent is necessary
for suits against counties, municipalities, and other
such "independent" political subdivisions.
2. CONTROL [what degree of control the State
maintains over the entity] This should be more
accurately stated as whether the state has a veto
power over the entity’s actions. PD did not consider
veto power because no one in Florida has veto power
over CPIC commercial activities. In this Second
Factor, PD cited Fla. Stat. § 627.351(6)(a)2 and Fla.
Stat. § 20.121(3). Florida has delegated CPIC
44

oversight obligations involving abstract planning to a
selected Board of Governors who are not State
employees. Appointments are not real control.
“the Court concluded that the St. Louis Board
of Police Commissioners is not the state for purposes
of the Eleventh Amendment, even though the governor
appoints a majority of its members”. Auer v. Robbins,
519 U.S. 905, 908 n.l (1997). [EA]
That alone might look like over-sight but that is in
the abstract. So a business plan is created. The FSC
approves it and can change it. FSC are comprised of
political figures with limited or no time for oversight
duties. [Political figures appointing political figures?]
That does not create real control of oversight, besides
Florida has no veto power over CPIC’s day to day
. commercial activities. PD over-looked that there are
few, if any, over sight of CPIC’s activities of the day
to day operations of a government entity operating a
private property insurance company. This was an
error by PD and created an 11th Circuit Intra-Circuit
Split with a previous ruling in Shands: [PD v
Shands]
“The'pertinent inquiry is not into the nature of
[an entity's] status in the abstract, but its function or
role in a particular context”. Shands Teaching ibid.,
[EA]
LITIGATION: Since its
inception CPIC has represented itself in litigation by
attorneys of its own choosing and no Court at any
level has ever questioned CPIC's right to do so. The
Courts have repeatedly recognized CPIC's
responsibility for its own litigation. CPIC conducted
45

litigation against the State of Florida and the Courts
found that CPIC had independent litigating
authority under the CPIC Act. CPIC has a
philosophy, mind-set, and even formal procedure
regarding the settlement of claims. CPIC will seldom
put forth a reasonable offer to settle the claim. CPIC
knows that most individuals unrepresented by
counsel will succumb to the "take it or leave it
approach”.
EMPLOYEES: CPIC has about 1250 employees
which the State of Florida has no direct control over.
The State does not control CPIC’s allocation of
resources and CPIC alone hires and fires their
employees. CPIC exercises sole discretion in
operating the day to day commercial activities
without State oversight and without any State veto
power.
SELF-POLICING: Everything that happens in an
insurance company is the result of a calculated move.
“Citizens claims that it is in essence "self­
policing".......However, the provisions cited by
Citizens, such as the Board of Governors, approval of
its plan of operations by DFS, and internal audits
have absolutely nothing to do with how it handles
individual claims.” Perdido Sun Condominium Ass’n
v. Citizens Property Insurance Corp., 129 So. 3d
1210 (Fla. 1st DCA 2014) [EA]
COMMERCIAL
ACTIVITIES: There is no real comprehensive
oversight nor veto power concerning the commercial
activities these types of 1250 employees perform. The
State of Florida has no way to control all of these
46

commercial activities. Here are some of the types of
employees within CPIC:
Litigation Management, Actuaries, Adjusters,
Appraisers, Auditors, Bookkeepers, Claims
Adjusters, Customer Service Managers, Insurance
Underwriters, Insurance Policy Processing Clerks,
Insurance Appraisers, Insurance Investigators, Loss
Control Specialists, Policy Maintenance, [Employees
to perform these functions] To name just a few!
3. FUNDING [where the entity derives its funds] The
State does not appropriate funds to CPIC and in no
way undertakes to cover their operating and capital
expenses. CPIC generates its own revenues by
insurance premiums, borrows money in its own
name, and receives no money from the State.
Pointing away from Eleventh Amendment immunity,
the State lacks financial responsibility for CPIC.
4. JUDGEMENTS [who is responsible for judgments
against the entity] This factor is the most important
and carries the most weight in deciding against Armof-State status. This created another Inter-Circuit
split with PD. [PD v Fresenius]
“The very impetus for 11th Amendment was
prevention of federal-court judgments that must be
paid out of a State's treasury. Hess still “binds [the
court] and has not been overruled”, and rejects the
7th Circuit's suggestion in Thiel and the 11th
Circuit’s in Manders that the state treasury risk
factor is sometimes not important” [OB-25-27] [EA]
See Fresenius Medical v. Puerto Rico, 322 F.3d 56
(1st Cir. 2003) at 67-68.

47

Debts and other obligations of CPIC are not
liabilities of the State. A judgment against CPIC
would not be enforceable against the State. The Full
Faith and Credit of the State of Florida is denied to
CPIC and is explicitly barred from pledging it or
from borrowing money in any name but its own. This
creates another Intra-Circuit split with PD. [PD v
Abusaid]
This Court concluded that "to the extent that
the state treasury will be spared here from paying any
adverse judgment, this factor weighs in favor of
denying immunity." Abusaid v. Hillsborough County
Board of Commissioners, 405 F.3d 1298 [2005] US
Court of Appeals 11th Circuit. [EA] [OB-31]
This creates another 11th Circuit split with the
Supreme Court. [PD v Hess]
The only factor singled out as "of considerable
importance" is whether the state is "obligated to bear
and pay [any potential legal] indebtedness of the
[entity]." Hess found that the entity was not “Arm-ofState”, based almost exclusively on the entity’s
“anticipated and actual financial independence” and
its “long history of paying its own way.” Hess v. Port
Auth. Trans-Hudson Corp., ibid., [EA] [OB21] [Doc30Pgl8] [EA]
The State bears no legal liability for CPIC’s debts
and they are not responsible for the payment of any
judgments against CPIC.
IV. CONCLUSION: Therefore a Rehearing is
necessary to secure uniformity of this Court's
Decisions. This Petition should be granted, and the
case should be reheard En Banc IF a new Panel
48

Rehearing can not reverse PD’s initial opinion.
E. Appellant Reply Brief to CPIC Appellee Brief
September 14, 2020
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
Case Number = 20-11607-BB
ROGER BROWN, PRO SE
APPELLANT/PLAINTIFF
V.
UNKNOWN EMPLOYEES OF CITIZENS
PROPERTY INSURANCE CORPORATION [to be
discovered]
DEFENDANTS
and
CITIZENS PROPERTY INSURANCE
CORPORATION
APPELLEE/DEFENDANT
REPLY BRIEF OF PLAINTIFF-APPELLANT,
ROGER BROWN
FROM THE APRIL 3, 2020 DISMISSAL
IN THE UNITED STATES DISTRICT
COURT,
MIDDLE DISTRICT OF FLORIDA, TAMPA
DIVISION,
49

CIVIL ACTION 8:19-cv-1951-T-36SPF.
THE HONORABLE CHARLENE
HONEYWELL PRESIDING.

A CIVIL PROCEEDING

ORAL ARGUMENTS
BROWN DOES NOT WANT ORAL
ARGUMENTS

RESPECTFULLY SUBMITTED:

BY:
Roger Brown, Pro Se
rbl27.legal@gmail.com
c/o PO Box 566
Dunedin, Florida 34697-0566
956-408-9167
CERTIFICATE OF INTERESTED PERSONS
APPEAL NO. 20-11607-BB
U.S. COURT OF APPEALS FOR THE
ELEVENTH CIRCUIT
CERTIFICATE OF INTERESTED PERSONS
AND CORPORATE DISCLOSURE
STATEMENT
Roger Brown vs. Citizens Property Insurance
Corporation, et al
11th Cir. R. 26.1 (enclosed) requires that a
Certificate of Interested Persons and Corporate
50

Disclosure Statement must be filed by the appellant
with this court within 14 days after the date the
appeal is docketed in this court, and must be
included within the principal brief filed by any party,
and included within any petition, answer, motion or
response filed by any party. You may use this form to
fulfill this requirement. In alphabetical order, with
one name per line, please list the trial judge( s), and
all attorneys, persons, associations of persons, firms,
partnerships, or corporations that have an interest in
the outcome of this case or appeal, including
subsidiaries, conglomerates, affiliates and parent
corporations, including any publicly held corporation
that owns 10% or more of the party's stock, and other
identifiable legal entities related to a party, (please
type or print legibly):
Brown, Roger, Pro Se Appellant/Plaintiff
Citizens Property Insurance Corporation,
Appellee/Defendant
Flynn, Sean Patrick, Magistrate Judge for the
Tampa Middle District of Florida.
Honeywell, Charlene Edwards, U. S. District Judge
for the Tampa Middle District of Florida.
Kreiser, Erin R., Attorney, The Rock Law Group,
P.A. For Appellees/Defendants.
Pearcy, Maureen, Attorney, Paul R. Pearcy, P.A. For
Appellees/Defendants
51

Rock, Andrew, Attorney, The Rock Law Group, P.A.
For Appellees/Defendants.
State of Florida
Unknown Employees of Citizens Property Insurance
Corporation Appellees/ Defendants
CERTIFICATE OF COMPLIANCE WITH
TYPE-VOLUME LIMIT
This Reply Brief exceeds the page limit but complies
with type-volume limits of 6500 words, excluding the
parts of the document exempted by Fed. R. App. R.
32(f). This Reply Brief has been prepared in a
proportionally spaced typeface using Corel Word
Perfect version X7. It was used to type this Reply
Brief and used to count words. This is to certify that
this Reply Brief uses Times New Roman Typeface of
14 point or larger. The number of words are counted
as 6468. The Brief is double spaced except for quotes.
There are no footnotes.
BY:
Dated:
Roger Brown, Appellant
rbl27.legal@gmail.com
c/o PO Box 566
Dunedin, Florida 34697-0566
956-408-9167

CERTIFICATE OF SERVICE

52

I HEREBY CERTIFY that a true and correct copy of
this Brief, along with an Appendix, has been
electronically conveyed via the Internet to the
opposing attorneys of record in this Appeal Case
pursuant to a mutual agreement of June 15, 2020.
Said documents transferred on this the__th day of
____, 2020 to Maureen Pearcy and Andrew Rock,
attorneys of record for Citizens Property Insurance
Corporation at the following address:
service@pearcyl awyer. com
maureen@pearcylawyer.com
Maureen G. Pearcy, Paul R. Pearcy, P.A.
7600 S. Red Road, Suite 200
South Miami, Florida 33143
Andrew P. Rock
1760 Fennell Street
Maitland, Florida 32751
arock@rockl awpa. com
By:
Roger Brown, Pro Se
Appellant/Plaintiff
rbl27.legal@gmail.com
c/o PO Box 566
Dunedin, Florida 346970566
956-408-9167
TABLE OF CONTENTS
[Page]
COURT HEADING [Page i]
STATEMENT REGARDING ORAL ARGUMENT
SUBMISSION
[Page i]
SIGNATURE
[Page i]
53

CERTIFICATE OF INTERESTED PERSONS [Page
ii]

CERTIFICATE OF COMPLIANCE [Page iii]
CERTIFICATE OF SERVICE [Page iii]
TABLE OF CONTENTS
[Page iv]
TABLE OF CITATIONS
[Page v]
A. CASES
[Page v]
B. STATUTES
[Page vi] '
C. CONSTITUTIONAL
[Page vi]
D. RULES
[Page vi]
E. MISCELLANEOUS
[Page vii]
GLOSSARY [Page vii]
ARGUMENT/CITATIONS OF AUTHORITIES
[BROWN'S COUNTER RESPONSES TO
DISTRICT COURT ISSUES RAISED BY
CPIC'S APPELLEE BRIEF]
I. CPIC'S ORAL ARGUMENT [Pet. App. 59-60]
II. 11th AMENDMENT IMMUNITY [Pet. App. 6070]

III. SUBJECT MATTER JURISDICTION [Pet. App.
70]

IV. SHOTGUN COMPLAINTS [Pet. App. 71-74]
V. FAILURE TO ATTACH THE COMPLETE
CONTRACT [Pet. App. 75]
VI. STATUTE OF LIMITATIONS [Pet. App. 75-76]
VII. INDEPENDENT TORT DOCTRINE [Pet. App.
76-77]
VIII. BAD FAITH [Pet. App. 77-80]
IX. MERITS OF THE CASE [Pet. App. 80-81]
X. PUNITIVE DAMAGES [Pet. App. 81-83]
XI. CPIC ACTS AS A PRIVATE PROPERTY
INSURANCE COMPANY [Pet. App. 83-84]
54

XII. SUMMARY [Pet. App. 84-87]

TABLE OF CITATIONS
For This Reply Brief
[Page numbers here in [ ] refers to pages
within the Reply Brief]
A. CASES
Alden v. Maine, 527 U.S. 706, 728 (1999) [Page 3]
AT&T v. BellSouth, 238 F.3d 636 (5th Cir. 2001)
[Page 26]
Bronson v. Kinzie, 42 U.S. 311 (1843) [Page 20]
Conley v. Gibson, 355 U.S. 41 (1957) [Page 16]
De Sterling v. Bank of America, N.A., 2009 WL
3756335 (S.D. Fla. Nov. 6, 2009)[Page 19]
Edwards v. Kearzey, 96 U.S. 595, 603 (1877) [Page
20]

Globe Newspaper Co. v. King, 658 So. 2d 518 (Fla.
1995) [Page 24]
Hearndon v. Graham, 767 So. 2d 1179, 1184-85 (Fla.
2000) [Page 19]

55

Jenkins v. McKeithen, 395 U.S. 411, 421 (1959)
[Page 13]
Lynch v. United States 292 US 571, 579 [Page 20]
Marbury v. Madison, 5 U.S. (1 Cranch) 137, 163
(1803) [Page 15, 17, 29]
Meruelo v. Mark Andrews of Palm Beach, Ltd., 12
So.3d 247, 251 (Fla. 4th DCA 2009) [Page 22]
Miller v. U.S., 230 F. 2d. 486, 490. [Page 16]
Moor v. County of Alameda, 411 U.S. 693 (1973)
[Page 3]
Mt. Healthy City Bd. of Educ. v. Doyle, 429 U.S. 274,
280 (1977) [Page 8]
Murray v. Charleston 96 U.S. 432, 448 (1877) [Page
20]

Northern Insurance Co. v. Chatham County, 547
U.S. 189, 193 (2006) [Page 3]
Norton v. Shelby County, 118 U.S. 425 p. 442 [Page
29]
Picking v. Pennsylvania Railway, 151 F.2d. 240,
Third Circuit Court of Appeals [Page 13]
Thacker v TVA, U.S. Supreme Court, No. 17-1201
(2019) [Page 6,8,9,10,11,27,28]
56

Tiara Condominium Association, Inc. v. Marsh &
McLennan Companies, Inc.,110 So. 3d 399 (Fla.
2013) [Page 19]
Vibe Micro, Inc. v. Shabanets, 2018 WL 268849 (11th
Cir. Jan. 3, 2018) [Page 15]
Waller v. Florida, 397 U.S. 387 (1970) [Page 8]
Yamaha Parts Distributors Inc. v. Ehrman, 316
So.2d 557 (Fla. 1975) [Page 20]
B. STATUTES
Fla §627.351 [Page 8]
Fla §627.351(6)(a)(l) [Page 21]
Fla §627.351 (6) (c) (21) (4) [Page 4]
Fla §768 [Page 24]
Fla§768.72 [Page 24]
C. CONSTITUTION
Florida’s Constitution Article I, Section 22 [Page 24,
25]
Florida Constitution, Article I Declaration Of Rights,
Section 10 [Page 22]
United States Constitution, Article I, Section 10,
Clause 1 [Page 22]
D. RULES
Rule 8 [Page 16]
Rule 12(b)(6) [Page 16]
E. MISCELLANEOUS
16 Am. Jur. 2d, Sec. 178. [Page 29]
57

Advisory Legal Opinion - AGO 2002-21 [Page 3]
Bondi, Pam, Florida Attorney General, Brief of The
State of Florida as Amicus Curiae in Support of
Petitioner, Citizens Prop. Ins. Corp. v. Perdido Sun
Condo. Ass'n CASE NO.: SC14-185 [Page 3,5]
Chief Justice John Marshall [Page 21]
CPIC Insurance 2012 Application acknowledgment,
CPIC is not supported by the full faith and credit of
the state of Florida. [Page 4]
Exhibit A, Page 19, #10 [Page 6]
Exhibit A, Pg 17, #9b [Page 22]
Exhibit A, Pg 21, #Paragraph 4 [Page 23]

GLOSSARY
Brown
CPIC
Doc
EA
Pg
#

Roger Brown
Citizens Property
Insurance Corporation
Document
Emphasis Added
Page
Item Number

*D

Doc 27 [CPIC Motion To

*PAM

Doc 20 [Brown Amended

*PO

Doc 28 [Brown Opposition

Dismiss]
Complaint]
to Doc 27]
58

* Before Brown caught on how to properly reference
documents he used these references.

BROWN’S COUNTER RESPONSES
TO DISTRICT COURT ISSUES RAISED
BY CPIC’S APPELLEE BRIEF
I. CPIC’S ORAL ARGUMENT
Brown previously stated that Oral Arguments were
not wanted. CPIC wants Oral arguments because
CPIC's attorneys are young law professionals. Brown
is a 72 year old with limited ability to hear,
remember, and think quickly in an oral environment.
Brown is already at a disadvantage as a Pro Se
litigant in a long 9.5 year battle with CPIC, and an
oral argument would be an even greater
disadvantage.
CPIC stated as an excuse for oral arguments:
“Citizens recognizes the significant and farreaching repercussions if this Court were to hold
otherwise. To the extent this Court has any doubt that
Citizens is entitled to Eleventh Amendment
immunity, Citizens submits oral argument is
warranted.”
With all the massive resources and extensive legal
expertise that CPIC has at its disposal, CPIC should
have considered and recognized sooner the
significant and far-reaching repercussions of this
Court’s ability to hold it finally accountable. CPIC
should have done the right thing years ago and paid
Brown or settled this 9.5 year battle prior to this
59

point. CPIC is just trying to get another bite at the
apple to try and confuse this Court.
II. 11th AMENDMENT IMMUNITY [CPIC,
Statement of Issues #1]
Brown contends that the District Court ignored
recent law, ignored Brown’s arguments, and
wrongfully concluded that CPIC was an Arm-ofState. Brown reemphasizes reasons cited previously
and reorganized here that the District Court was in
error. See Also: [Brown’s Page Numbering in Brief
at: Pgs 13, 15, 18, 20, 25, 26, 27, 30, 31, 34, 37, 38,
39, 40, 44, 51, 52, 53, 65, 66, 67, 69, 70] [Doc 20, Pg ,
#9(1)] [Doc 28, Pg 6-10, #11-20] [Doc 30, Pg 6-23, #1239]
CPIC filed a shotgun Motion To Dismiss [Doc 27]
claiming various defenses. If CPIC was an Arm-ofState, all they had to do was claim a sole defense of
the 11th Amendment. But they did not! Why did they
instead file a shotgun defense? Obviously, they were
not confident of their status as an Arm-of-State.
CPIC was created by the Florida Legislature as an
independent political subdivision Corporation. Brown
states that CPIC was never an Arm-of-State
corporation. The state does not become a conduit of
its immunity in suits against its agents or
instrumentalities merely because they do its work.
Nor does the creation of a government corporation
confer upon it legal immunity. A corporate entity’s
relationship to the state is too remote to afford
Eleventh Amendment protection.
60

“The Eleventh Amendment does not
automatically protect political subdivisions of the
state from liability”. Moor v. County of Alameda, 411
U.S. 693 (1973). [EA]
Eleventh Amendment immunity does not
extend to all "lesser entities" associated with the state;
rather it extends only to entities that the Court
considers to be "arms" or "instrumentalities" of the
state. Alden v. Maine, 527 U.S. 706, 728 (1999) [EA]
"... towns, counties and other political
subdivisions of the state cannot invoke sovereign
immunity in federal courts, even if they exercise a
"slice of state power.” Northern Insurance Co. v.
Chatham County, 547 U.S. 189, 193 (2006) [EA]
2002: CPIC was created by the Legislature but not as
an Arm-of-State:
"..... CS/SB 1418 ... Citizens Property
Insurance Corporation.... would not perform a
traditional governmental function. Its revenues would
not be subject to legislative appropriation and would
be held solely for the purpose of satisfying insurance
claims.......the corporation would operate like a
private insurance company.” [Florida] Advisory Legal
Opinion- AGO 2002-21 [EA] [Accessed 2019-07-22]
http ://www. myfloridalegal. com/ago. nsf/Opinion
s/9ADA2CD70F68DC5385256B740067BC9C
The legislature could not give CPIC immunity:
"... "the Legislature does not "grant" sovereign
immunity..." Pam Bondi, Florida Attorney General,
Brief of The State of Florida as Amicus Curiae in
61

Support of Petitioner, Citizens Prop. Ins. Corp. v.
Perdido Sun Condo CASE NO.: SC14-185 [EA][Doc
52, Pg 14, # 6(17-18)]
2006: In the alternative, assuming all of the above
does not disqualify CPIC as an Arm-of-State, CPIC
lost the status when CPIC sued the State of Florida
in its own name. CPIC acted of its own volition, for
its own benefit, and not as an Arm-of-State. Such
actions proves that CPIC was not closely connected
to the State and suggests a lack of state control, and
thus not an Arm-of-State.
CPIC operates with substantial autonomy and not as
an alter ego of the State. As an extreme example
consider that CPIC sued the State of Florida. That
suit should eliminate the idea about CPIC being the
alter ego of the State as it demonstrates CPIC’s
ability to make its own decisions, disrespect the
State and its dignity, to be independent of the state,
and govern itself.
2012: In the alternative, assuming it is normal for an
Arm-of-State to sue its own creator, then CPIC lost
its status when it was disclosed that the State of
Florida’s Full Faith and Credit was not applicable to
CPIC and CPIC put that warning on all insurance
applications starting in 2012.
“4.1 ALSO UNDERSTAND THAT CITIZENS
PROPERTY INSURANCE CORPORATION IS NOT
SUPPORTED BY THE FULL FAITH AND CREDIT
OF THE STATE OF FLORIDA.” The 2019 Florida
Statutes 627.351 (6) (c) (21) (4). [EA]
62

The State of Florida specifically denied all connection
to CPIC and refused to be obligated on any and all
debts, acts, records, and judicial Proceedings of
CPIC. This is a paramount disconnect in a
relationship.
2014: In the alternative, assuming that an Arm-ofState does not need the Full Faith and Credit
backing of the State, CPIC lost its status when
Attorney General of Florida, Pam Bondi stated that
the legislature could not have given CPIC 11th
Amendment immunity!
In the alternative, assuming that Pam Bondi lied
and CPIC did get 11th Amendment immunity, CPIC
waived its immunity by entering into Brown’s first
lawsuit in state court willingly. [April 9, 2014] [Case
#14-002748-CI]
In the alternative, assuming that CPIC did not waive
immunity by entering into Brown’s first lawsuit.
CPIC waived its immunity by preparing and
executing the “Settlement Agreement”, Brown’s
second commercial contract, a non-first-partycontract in which CPIC unequivocally agreed to
subject itself to litigation, without limitation, for
performance. [Doc 28, Pg 19, # 66]
“10. Enforcement. Nothing in this Agreement
shall be construed to waive the INSUREDS’,
CITIZENS’, or the LAW FIRMS’ right to bring an
action to enforce its terms.” [EA] Non-Insurance
Policy, 2nd Contract with CPIC of August 8, 2014.
[Doc 20-1, Exhibit A, Page 19, #10]
63

2019: In the alternative, assuming that none of the
above affects CPIC’s status as an Arm-of-State, then
remember that Brown sued CPIC twice over
commercial contracts [2014 & 2019]. Brown never
sued the State of Florida, nor did he sue CPIC over a
state governmental function. CPIC does not have
Arm-of-State status when performing non­
governmental functions. The non-governmental
commercial actions of CPIC do not invoke the
protection of an 11th Amendment immunity for an
Arm-of-State. Was CPIC performing a government
function when:
1. denied Brown's insurance claim, due to
their own financial difficulties
2. denied proof of the claim before litigation
3. agreed to settle with Brown via a
commercial contract, a non-first party contract
[Doc 28, Pg 18, #64]
4. refused to pay Brown
5. caused Brown emotional stress
6. refused to settle payment of the commercial
contract with Brown on multiple occasions
7. forced Brown to sue the second time in
federal court on a non-first party contract
None of these were governmental functions! [See
Thacker v TVA]
2020: Quoting from CPIC’s Brief at page 41:
“The Perdido Sun opinion makes clear that
any cause of action premised in Citizens' claims
handling or adjustment is a bad faith claim and is
prohibited. [Id. at 668]. Citizens is immune from a
bad faith cause of action.”
64

Brown’s Causes of Action were not solely premised
on claims handling or adjustment, but were also
premised upon the breach of a non-first-party
commercial contract and related tort causes. [Doc 28,
Pg 19, # 66]
More reasons CPIC is not an Arm-of-State: [Doc
Brown’s Brief, Pg 46-50] & [Doc 30, Pg 15-17,
#29] [Brown’s Page Numbering in Brief at: Pgs 15, 20,
21, 24, 26, 27, 31, 32, 33, 34, 35, 36, 37, 38, 39, 40, 42,
44, 45, 46, 50]

CPIC’s incorporation implies the existence of a
separate, self-determining entity, and indicates that
the State intended to create a body separate from
itself. Of particular importance is the corporation's
power to sue and be sued in its own name. CPIC was
created as an autonomous entity with rights against
the state and the power to pursue interests of its
own. A corporation is a different "person" from those
who are its stockholders. Because Eleventh
Amendment immunity inheres in states and not
their political subdivisions, a state agency that
wishes to claim state immunity must establish that
it is acting as an Arm-of-State, CPIC has not done so!
“(local school district not an arm of the state
based on (1) its designation in state law as a political
subdivision, (2) the degree of supervision by the state
board of education, (3) the level of funding received
from the state, and (4) the districts' empowerment to
generate their own revenue through the issuance of
bonds or levying taxes. ” Mt. Healthy City Bd. of
Educ. v. Doyle, 429 U.S. 274, 280 (1977) [EA]
65

Courts have consistently refused Eleventh
Amendment immunity to counties, cities, or towns,
even though such political subdivisions exercised a
"slice of state power." Even when such entities enjoy
immunity from suit under state law, they do not
have Eleventh Amendment immunity in federal
court and the states may not confer it.
"(t) For the purposes ofs. 199.183(1), the
corporation shall be considered a political
subdivision of the state and shall be exempt from the
corporate income tax." 627.351_The 2019 Florida
Statutes, CPIC Creation [EA]
“Political subdivisions of States-counties,
cities, or whatever-never were and never have been
considered as sovereign entities. Rather, they have
been traditionally regarded as subordinate
governmental instrumentalities created by the State
to assist in the carrying out of state governmental
functions." Waller v. Florida, 397 U.S. 387 (1970)
[EA]
“..... much of what the TVA does could be
done—no, is done routinely—by non-governmental
parties. Just as the TVA produces and sells electricity
in its region, privately owned power companies (e.g.,
Con Edison, Dominion Energy) do so in theirs. As to
those common place commercial functions, the
emphasis in the oft-used label “public corporation”
rests heavily on the latter word.” TVA v. Hill 437 U.
S., at 157.” Thacker v TVA, U.S. Supreme Court, No.
17-1201 (April 29, 2019) [EA]
66

CPIC has no sovereign powers of eminent domain,
police power, or taxing power. As a corporation, CPIC
has the independent power to managed its non­
governmental commercial insurance activities; all
without state approval and without the full faith and
credit backing of the state. If CPIC performs a
governmental function it is not apparent.
How can CPIC’s commercial activities of selling
insurance, paying commissions, issuing policies,
canceling policies, collecting premiums, paying
expenses, denying claims, adjusting claims, settling
claims, issuing bonds, borrowing money, entering
into commercial contracts, suing and being sued,
breaching contracts, settling contract breaches,
committing willful torts, settling willful torts, taking
and holding property in its own name, hiring
contractors, hiring outside attorneys, and hiring
employees be considered governmental functions?
They are not! CPIC is not an Arm-of-State in these
commercial functions.
In the alternative, IF CPIC is an Arm-of-State, all it
can be is a hybrid Arm-of-State which performs
mostly non-governmental activity. And that non­
governmental activity is not subject to an 11th
Amendment immunity defense as illustrated by the
2019 U.S. Supreme Court decision in Thacker v TVA.
Assuming this Court continues to think that CPIC is
still an Arm-of-State, despite all the reasons
previously stated by Brown that it is not, this Court
should re-consider Thacker v. TVA. Justice Kagan’s
unanimous opinion reversed the 11th Circuit, which
67

had sided with longstanding Sixth Circuit precedent
treating many TVA functions as immune from suit.
The Court stated TVA is subject to suits challenging
any of its commercial activities. The law thus places
the TVA in the same position as a private
corporation supplying electricity. If TVA can be
stripped of immunity and sued when it acts like a
business then CPIC should be treated likewise.
Thacker v. TVA should be controlling and dispositive
against CPIC.
Accordingly, actions by a so-called Arm-of-State are
divided into two functions:
1. Governmental
2. Commercial
CPIC has not listed any specific governmental
functions that it performs in its Brief or elsewhere.
CPIC does not possess any powers and
responsibilities reserved to sovereign actors. There
are few, if any, functions that CPIC performs that
are not also performed by the many privately-owned
companies that participate in the property insurance
market. Allowing contract suits against CPIC in
Federal Court does not create grave interference
with CPIC’s performance of its governmental
functions, if any.
The question, just as in Thacker v TVA, would be
where to draw a line between protecting CPIC’s
liability as an Arm-of-State, if it is such, when it is
engaged in quintessential government functions
versus holding CPIC accountable when it acts in a
manner similar to other commercial enterprises.
68

CPIC’s contract activities are commercial and are not
protected under the 11th Amendment. CPIC’s
activities surrounding commercial contracts have no
connection to any governmental functions. Therefore,
lawsuits against CPIC in Federal Court about
commercial contracts do not impose on any
governmental function and is thereby exempt from
11th Amendment immunity.
It is noteworthy that CPIC’s brief made no mention
of Thacker v TVA. However, as the Supreme Court
noted:
“the TVA is something of a hybrid, combining
traditionally governmental functions with typically
commercial ones.”
TVA does engage in some quintessential
governmental activity as exercising eminent domain
to expand property holdings and appointing
employees as law enforcement agents. If TVA’s
activities are:
“commercial—the kind of thing any power
company might do—the TVA can not invoke sovereign
immunity.”
But even if the conduct is governmental, it must be
“clearly shown” that immunizing TVA from suit is
necessary to prevent a “grave interference” with a
governmental function. This, the court cautioned, is
a “high bar.” This decision should affirm the breadth
of tort liability not only for the TVA, but also for
other government corporations and agencies that are
engaged in commercial activities.
69

The effect of Brown's case does not present a
substantial obstacle to CPIC’s governmental
functions, if any, nor does it impose an undue burden
on the operation of CPIC's property insurance
business. Nor is it a genuine threat to the dignity of
Florida in allowing Brown to pursue contract claims
against CPIC in federal court.
Finally, CPIC’s status as an Arm-of-State is
unconstitutional. The Eleventh Amendment was
never intended to protect commercial activities.
III. SUBJECT MATTER JURISDICTION [CPIC,
Statement of Issues #2]
The District Court made multiple errors in deciding
lack of subject matter jurisdiction. Subject Matter
Jurisdiction exits because of Federal law questions
and issues raised by Brown.[Docs 01,12,20,30] Armof-State question is a Federal law determination to
be determined by this Court. Properly ruling that
CPIC is not an Arm-of-State furthers jurisdiction and
allows Brown, based upon his alleged facts, to obtain
more evidence through discovery to support his
allegations. Brown could then bring additional
coercive actions arising under federal law. Article III
of the Constitution created the Supreme Court and
authorized the creation of the lower federal court
because of a belief that the enforcement of federal
law could not be left exclusively to the state. CPIC’s
Arm-of-State status decided by state judiciaries and
Federal District Courts that relied on them is not
dispositive. [Doc 28, Pg 5-6, #7-10]
70

IV. SHOTGUN COMPLAINTS [CPIC, Statement of
Issues #3a]
Brown does not understand what is a perfect non­
shotgun complaint, Brown is not a lawyer and has no
lawyer skills. Brown is not and never will be an
expert in Legal Writings. So why the technicality
against Brown and Pro Se litigants? The federal
rules seem to reject the approach that pleading is a
game of skill. [Doc 28, Pg 1-4, #2-6]
"Where a plaintiff pleads pro se in a suit for
protection of civil rights, the Court should endeavor to
construe Plaintiffs Pleadings without regard to
technicalities." Picking v. Pennsylvania Railway, 151
F.2d. 240, Third Circuit Court of Appeals
"Pro se pleadings are to be considered without
regard to technicality; pro se litigants' pleadings are
not to be held to the same high standards of
perfection as lawyers." Jenkins v. McKeithen, 395
U.S. 411, 421 (1959) [EA]
Eleventh Circuit courts have identified roughly four
categories of shotgun pleadings:
(1) a pleading with multiple counts where each
count adopts the allegations of all preceding counts;
Brown corrected his original complaint to remove
this issue. Brown initially used this format because it
appeared in a lot of sample complaints written by
lawyers.
(2) a pleading that relies on conclusory and
vague allegations not tied to any cause of action;
Brown, in good faith, wrote his Amended Complaint
in a way to tie more closely his allegations to specific
71

Causes of Action. Without discovery Brown was
denied the ability to form more concrete allegations.
(3) a pleading that fails to separate out its
various causes of action and claims for relief; Brown
did separate each claim for relief for each Cause of
Action.
(4) a pleading that asserts numerous claims
against multiple defendants without specifying
which defendants are responsible for which acts or
omissions. Brown tied his Causes of Action to CPIC
but was unable to tie them to specific hidden
individuals because discovery was refused by CPIC
and denied by the District Court.
In Vibe Micro, Inc. v. Shabanets, 2018 WL 268849
(11th Cir. Jan. 3, 2018) the district court sua sponte
provided specific guidance as to how to remedy the
deficiencies in the amended complaint. In that case
the Plaintiff was represented by an attorney. Brown
was given no help from the District Court as how to
correct any deficiencies. In one case the attorney is
assisted and in Brown’s case he is left clueless about
technical doctrines about legal procedure and
without any guidance.
In a trial by jury, the jury is the trier of fact and
applies those facts against the laws in question as
directed by the judge. Brown requested a trial by
Jury. The trier of facts should be the Jury and not
the District Court. In a normal court case, a
defendant can be held liable if he did something that
violated the law. The court's job is to figure out what
72

r

the defendant did, decide whether what he did was
unlawful, and, finally, what the consequences should
be.
“The government of the United States has been
emphatically termed a government of laws, and not of
men.” But as Chief Justice Marshall admonished, our
government “will certainly cease to de-serve this high
appellation, if the laws furnish no remedy for the
violation of a vested legal right.” Marbury v.
Madison, 5 U.S. (1 Cranch) 137, 163 (1803) [EA]
Through a series of technical “shotgun” doctrines and
decisions, this 11th Circuit could be closing the
federal courthouse door to Brown’s right to a Jury
Trial and to all others whose rights have been
violated. These rulings affect real people, with real
claims. To expect Pro Se litigants to meet standards
that even some legal professionals can not meet is a
punitive denial of due process and equal protection.
The U.S. Supreme Court stated the interplay
between Rule 8 (pleading) and Rule 12(b)(6) as
follows:
"[T]he accepted rule [is] that a complaint
should not be dismissed for failure to state a claim
unless it appears beyond doubt that the plaintiff can
prove no set of facts in support of his claim which
would entitle him to relief.” Conley v. Gibson, 355
U.S. 41 (1957). [EA]
If Brown’s Amended Complaint has elements of a
shotgun, it was unintentional, done in good faith,
and accomplished to the best of his non-law-school
ability. To dismiss Brown’s valid claims without
73

remedies is to penalize Brown for not being an
attorney or having the resources to hire an attorney.
Such a technicality denies Access to Justice to people
whose constitutional rights have been violated and
who have suffered great injuries.
“There can be no sanction or penalty imposed
upon one, because of his exercise of constitutional
rights.” Miller v. U.S., 230 F. 2d. 486, 490; 42
To dismiss Brown’s Complaint as a “shotgun” is to
leave Brown with rights under the Constitution with
no remedy because the federal courts will not enforce
them due to a created technicality. This is an obvious
injustice. The judiciary is the only institution
obligated to hear the complaints of a single person.
To dismiss Brown’s Pro Se case over a “shotgun”
Complaint is to deny the purpose of the judiciary.
Those of us without political power and with meager
resources have nowhere to turn except to the jury
and the judiciary for the protection of our
constitutional rights. The Constitution’s purpose of
protecting the minority from the tyranny of the
majority is best fulfilled by an institution obligated to
listen to the minority.
“The very essence of civil liberty certainly
consists in the right of every individual to claim the
protection of the laws, whenever he receives an
injury.”
Marbury v. Madison [EA]
The above quote does not say that to claim the
protection of the laws one must know how to file a
technical non-shotgun complaint!
74

V. FAILURE TO ATTACH THE COMPLETE
CONTRACT [CPIC, Statement of Issues #3b]
CPIC claims Brown did not provide a complete
contract yet CPIC points to the Exhibit of the FULL
contract in its Brief:
“The exhibit shows that Citizens has the right
to include the mortgagee on the settlement check when
there is a foreclosure^CPIC Brief P17] [EA]
The whole or full contract is located at the Court’s
Document 20-1 and labeled by Brown as Exhibit A.
Brown also attached Exhibit A with his original
Complaint which was physically mailed via USPS to
CPIC. Plus CPIC had a copy of the original contract
and got another with Brown’s Amended Complaint.
[Doc 28, Pg 17, #53]
This is a false technicality. If Brown failed to provide
the full contract in some way, it was still in the
record and CPIC could have requested another copy
from Brown or pulled it from the Court records.
If the issue is Brown did not submit the full contract
to this Court, then that too is a mistake. The full
contract was listed in this Court’s Appendix as A.
The District Court listed it as Doc 20-1. Brown may
have made a labeling mistake.
VI. STATUTE OF LIMITATIONS [[CPIC, Statement
of Issues #3c]
Florida statute of limitations for contract lawsuits is
five years. A statute of limitations “runs from the
time “when the last element constituting the cause of
action occurs”. The cited actions and inactions
75

against the actors behind CPIC were ongoing and
continuos and are still ongoing. Causes of Action last
elements accrued on September 7 of 2018 or July 26
of 2019 or later, depending on the interpretation of
the law. [Doc 20, Pg 1, #2] All dates are well within
all Florida Statute of Limitations. [Doc 28, Pg 15,
#31]
A statute of limitations “runs from the time the
cause of action accrues” which, in turn, is generally
determined by the date “when the last element
constituting the cause of action occurs." Hearndon v.
Graham, 767 So. 2d 1179, 1184-85 (Fla. 2000) [EA]
[Doc 01, Pg 82-83, #144]
VII. INDEPENDENT TORT DOCTRINE [[CPIC,
Statement of Issues #3d]
The Tiara case did away with the Economic Loss
Doctrine and the Independent Tort Doctrine. [Doc 28,
Pg 14, #29]
"In Florida, the contractual privity economic
loss doctrine and the independent tort doctrines were
often considered synonymous." De Sterling v. Bank of
America, N.A., 2009 WL 3756335 (S.D. Fla. Nov. 6,
2009) [EA]
In 2013, the Florida Supreme Court issued its
landmark decision in Tiara Condominium
Association, Inc. v. Marsh & McLennan Companies,
Inc.,[110 So. 3d 399 (Fla. 2013)] reducing the
applicability of the economic loss doctrine and
holding that it is “only applicable in the context of
products liability cases”. Even dissenting Judge
Canady knew that both the Economic Loss Doctrine
and the Independent Tort Doctrine were both dead
76

outside of product liability cases. [Doc 28, Pg 14, #2829] Justice Canady, who, in his dissenting opinion,
opined that:
"[w]ith today's decision, we face the prospect of
every breach of contract claim being accompanied by
a tort claim." Id at 411. [EA]
VIII. BAD FAITH [[CPIC, Statement of Issues #3e]
CPIC claims “This issue was squarely addressed by
the Florida Supreme Court in Citizens Prop. Ins.
Corp.”. Further CPIC states that “The Perdido Sun
opinion makes clear that any cause of action
premised in Citizens' claims handling or adjustment
is a bad faith claim and is prohibited.” [EA]
That decision is unconstitutional according to
Florida’s Constitution and the U.S. Constitution
because it impairs contracts, violates due process, ex
post facto laws, and violates equal protection. [Doc
30, Pg 29-32, #48-53]
“Contracts between individuals or corporations
are impaired within the meaning of the Constitution
(article 1, 10, cl. 1) whenever the right to enforce them
by legal process is taken away or materially lessened”.
Lynch v. United States 292 US 571, 579. [EA] [Doc
30, Pg 22, #37]
“... the well-accepted principle that virtually no
degree of contract impairment is tolerable in this
state.” Yamaha Parts Distributors Inc. v. Ehrman,
316 So.2d 557 (Fla. 1975). [EA]
“There is no more important provision in the
Federal Constitution than the one which prohibits
77

States from passing laws impairing the obligation of
contracts, and it is one of the highest duties of this
court to take care the prohibition shall neither be
evaded nor frittered away.” Murray v. Charleston 96
U.S. 432, 448 (1877). [EA]
"No community can have any higher public
interest than in the faithful performance of contracts
and the honest administration ofjustice." Edwards v.
Kearzey, 96 U.S. 595, 603 (1877).
“It was undoubtedly adopted as a part of the
Constitution for a great and useful purpose. It was to
maintain the integrity of contracts, and to secure their
faithful execution throughout this Union, by placing
them under the protection of the Constitution of the
United States.” Bronson v. Kinzie, 42 U.S. 311 (1843)
"The convention appears to have intended to
establish a great principle, that contracts should be
inviolate." Chief Justice John Marshall
That decision also violates 627.351(6)(a)(l) which
requires that CPIC’s “service to policyholders to be
no less than the quality provided” in the
marketplace.
CPIC uses the “bad faith exemption” as a sword to
defraud policyholders by acting in bad faith at will,
without any accountability, nor any responsibility all
because of an unconstitutional law that impairs
contracts only for CPIC and no other property
insurance company. [Doc 28, Pg 10-13, #21-26]
78

CPIC’s “bad faith” activities are not governmental
functions. The Florida law exempting CPIC from bad
faith should be stricken by this Court as
unconstitutional. When a policyholder buys property
insurance from CPIC by entering into a commercial
insurance contract there is no warning that CPIC
can act in bad faith against the policyholder. The
policyholder believes CPIC’s commercial property
insurance contracts are like similar insurance
contracts. But they are not because CPIC’s contracts
have been impaired such that CPIC does not have to
conduct fair dealings nor do they have to act in good
faith despite all contracts in Florida containing an
implied covenant of “good faith”.
“There is an implied covenant of good faith
and fair dealing in every contract.” Meruelo v. Mark
Andrews of Palm Beach, Ltd., 12 So.3d 247, 251 (Fla.
4th DCA 2009).
To exempt CPIC from “good faith” in its contracts
violates both the U.S. Constitution and the Florida
Constitution. If not for the federal courts, what is to
stop the Florida Legislature from enacting more laws
that are unconstitutional but politically expedient?
The primary reason for having federal courts is to
enforce the Constitution against the will of the
majority.
Prohibited laws.—No bill of attainder, ex post
facto law or law impairing the obligation of contracts
shall be passed. Florida Constitution, Article I
Declaration Of Rights, Section 10. [EA] [Accessed
2019-07-22]
[http://www.flsenate.gOv/Laws/Constitution#A
1S09]
79

“No State shall
pass any
ex post facto
Law, or Law impairing the Obligation of Contracts
......” United States Constitution, Article I, Section
10, Clause 1. [EA]
IX. MERITS OF THE CASE [CPIC Statement of
Facts, Pg 16-17]
Why is CPIC arguing the merits of the case in the
Statement of Facts? CPIC spent two paragraphs
talking about what Brown alleged which has little
bearing upon the issues before this Court.
Further, CPIC’s statement is in error. Brown was
never obligated on a mortgage. [Doc 20-1, or Doc A,
Pg 17, #9b] Settlement Agreement [Commercial
Contract #2]
“9. Other Provisions, b. The INSUREDS
represent and warrant that no other individual or
entity, including the INSUREDS' attorneys, public
adjusters and their successors or assigns, have an
interest in, or claim for the proceeds for the above
ground or below ground damage payments described
in this Agreement.”
Brown represented and warranted that no other
individual or entity, including the INSUREDS'
attorneys, public adjusters and their successors or
assigns, had an interest in, or claim for the proceeds
for damage. The statement was true because Brown
was not obligated on the mortgage and note with
GTE nor did Brown owe any money to anyone.

80

In the EXHIBIT A to that Settlement Agreement,
DENIED SINKHOLE CLAIMS, INSURED'S
ACKNOWLEDGMENT [Doc A or Doc 201-1, Pg 21,
#Paragraph 4]
Brown marked through this statement because it did
not apply to Brown:
I/We hereby certify that the property listed
above is not subject to a foreclosure proceeding. [EA]
With that language marked through, so indicating
that it was not applicable to Brown, Brown initialed
the deleted phrase. CPIC could have refused the
documents signed by Brown because of that change,
but they did not. CPIC accepted Brown’s exclusion.
There was no legal cloud upon Brown. To involve a
party Brown neither knew or had any dealing with
was an intentional act and a violation of the
Contract.
X. PUNITIVE DAMAGES [CPIC Statement of Facts,
Pg #17]
CPIC brought this issue up so it is now another issue
this Court needs to address.
Punitive caps [Fla §768] on jury punitive damages
along with a non-jury mini-trial [§768.72] created by
the Florida Legislature and the Florida Supreme
Court [Globe Newspaper Co. v. King, 658 So. 2d 518
(Fla. 1995)], both violate the right to a jury trial
which is protected in Florida’s Constitution Article I,
Section 22 and the U.S. Constitution’s 7th
Amendment. [Doc30, Pg 37-47, #63-73]

81

This is a violation of the inviolate clause of the
Florida Constitution. In Florida punitive damages
are capped in certain situations. In Jury decisions
this is a violation of Florida’s Constitution. A mini­
trial by a Judge and a limit on punitive damages are
illegal in a Jury Trial. A jury is empaneled and
deliberates, with the expectation that its complete
verdict will have efficacy, an issue of fact singularly
within its authority. Because the jury verdict is being
arbitrarily capped, the Plaintiff is not receiving his
constitutional benefit of a jury trial as it has
heretofore been that right. [Doc 30, Pg 41, #73]
Florida Legislature by creating caps to punitive
damages [FS § 768.73] and punitive damage mini­
trials [Fla. Stat. § 768.72(1)] before presentation to
the jury both violates Florida’s Constitution Article I,
Section 22 and the U.S. Constitution: [Doc 30, Pg 41,
#70-71]
“The right of trial by jury shall be secure to all
and remain inviolate ...”. Florida Constitution [EA]
"... the right of trial by jury shall be preserved,
and no fact tried by a jury, shall be otherwise re­
examined.” U.S. Constitution’s 7th Amendment [EA]
The unconstitutionality of limitations on punitive
damages given by a jury was previously decided in
these states with similar constitutional trial by jury
guarantees as does Florida: [Doc 30, Pg 39-41, #69]
Alabama:“Limitation ofpunitive damages ...
violates state constitution’s guarantee of trial by jury.
... It is improper for legislature to substitute itself for
82

jury and to fix arbitrary limit.” Henderson by &
Through Hartsfield v Alabama Power Co. (1993, Ala)
627 So 2d 878. [EA]
Missouri: The Missouri Supreme Court agreed
... that the punitive damages cap on common law
claims “divests the jury of its function in determining
damages and, thereby, deprives her of a right to a
trial by jury guaranteed by article I, section 22(a) of
the Missouri constitution......"Looking to due process
rights as they existed at the time the Missouri
Constitution was adopted, the Court felt that the
damages cap “necessarily changes and impairs the
right of a trial by jury as heretofore enjoyed.” [EA]
6th Federal Circuit [Tennessee] “.... punitive
damages awards were part of the right to trial by jury
at the time the Tennessee Constitution was adopted.
Based on this review - including a line of cases
addressing the measure ofpunitive damages as a
"finding of fact" within the exclusive province of the
jury - the majority concluded that the caps provision
set forth in Tennessee Code Annotated Section 29-39104 violates the right to trial by jury under Article I,
Section 6 of the Tennessee Constitution.” [EA]
This Florida law should be stricken by this Court as
unconstitutional. Brown’s goal is to head to a Jury
trial and requests this Court to decide this issue now.
XI. CPIC ACTS AS A PRIVATE PROPERTY
INSURANCE COMPANY
CPIC states it is not a private insurance company.
CPIC operates like a private mutual property
83

insurance company and competes with other
insurance companies. CPIC sells policies to Florida
citizens, residents, non-citizens, and non-residents of
Florida in interstate commerce.
“[A] state voluntarily waives its Eleventh
Amendment immunity by engaging in activity subject
to congressional regulation.” AT&T v. BellSouth, 238
F.3d 636 (5th Cir. 2001)at 644 [EA]
The difference between CPIC and other property
insurance companies is the stockholders are
different. A corporation is a different "person" from
those who are its stockholders. Whatever their
ownership structures, property insurance companies
do basically the same things.
XII. SUMMARY
Affirmation is not proper. A ruling that CPIC is not
an Arm-of-State makes CPIC’s issues and the
District Court’s Order moot.
Insurance companies have an obligation to provide
policyholders with the pay-outs that their premiums
entitle them to receive without elongated legal
battles. CPIC has strategically chosen a business
model pattern of various intentional delays and long
litigation battles with its own policyholders to avoid
honoring valid commercial contracts. Policyholders
do not have the resources to pay attorneys to defeat
CPIC’s intentional delays and long litigation battles.
Because of Brown’s age, CPIC has extended its model
in hopes Brown goes away or just dies. [Doc 28, Pg 17,
#48]
84

Brown is challenging CPIC’s claim to Arm-of-State
status. If this Appeals Court does not agree with
Brown’s reasons cited above that CPIC is not an
Arm-of-State, then for no other reason than Thacker
v TVA, this Court should rule that CPIC is not an
Arm-of-State. The decision about CPIC’s status
should not be a political decision.
After Thacker v TVA, an Arm-of-State can not claim
immunity when performing commercial activities.
Assuming that CPIC is an Arm-of-State, which
Brown denies for all the reasons previously stated,
CPIC’s activities of breaching a commercial contract
along with the associated tort Causes of Action are
no longer subject to an 11th Immunity defense. The
cited cases discussed in the District Court’s Order
and those in CPIC’s Brief are not good law. Therefore
this Court must review CPIC’s status in light of
Thacker v TVA.
Brown is also challenging the State of Florida’s
unconstitutional laws, which shields CPIC and
hinders Brown’s right to his constitutional rights to
justice. First is the impairment of contract law which
unconstitutionally exempts CPIC from “bad faith”
acts. Secondly is the unconstitutional laws violating
jury trials by capping punitive damages that a jury
can order. This Appeals Court should have an
obligation to remove CPIC’s Arm-of-State status and
strike the unconstitutional laws cited above.
When a government action is challenged as
unconstitutional, the courts have a duty to determine
whether that action exceeds constitutional limits.
85

r
The Constitution does not run on automatic pilot. It
is not a passive guarantee of freedom. The
Constitution must be enforced. [Doc 30, Pg 4,#7] The
District Court failed to properly enforce the
Constitution as illustrated herein.
“It is the duty of this Court to ascertain and
declare the intent of the framers of the Constitution
and to reject any act in conflict therewith.” Maready
v. City of Winston-Salem, 342 N.C. 708, 716, 467
S.E.2d 615, 620 (1996)
The irony is that government lawbreaking is done
mostly under the guise and misnomer of the rule of
law. Laws and Actions on behalf of any government
that prevents an individual from exercising
constitutionally protected individual and contract
rights are unconstitutional.
The power to declare a legislative act
unconstitutional is a delicate one; however, it is the
responsibility of this Court to do exactly that.
Judicial review is the power of courts to determine
the constitutional validity of legislation or of actions
taken by judicial, legislative, executive or
governmental agencies. [Doc 28, Pg 17, #50] [Doc 30,
Pg 5, #8]
“An unconstitutional act is not law; it confers
no rights; it imposes no duties; affords no protection;
it creates no office; it is in legal contemplation, as
inoperative as though it had never been passed.”
Norton v. Shelby County, 118 U.S. 425 p. 442
“The general rule is that an unconstitutional
statute, though having the form and the name of law,
86

is in reality no law, but is wholly void and ineffective
for any purpose since unconstitutionality dates from
the time of its enactment and not merely from the
date of the decision so branding it; an
unconstitutional law, in legal contemplation, is as
inoperative as if it had never been passed ... An
unconstitutional law is void.” 16 Am. Jur. 2d, Sec.
178.
“that a law repugnant to the constitution is
void, and that courts, as well as other departments,
are bound by that instrument.” Marbury v. Madison,
February 24, 1803, U.S. Supreme Court.
"An unconstitutional act is not law; it confers
no rights; it imposes no duties; affords no protection;
it creates no office; it is in legal contemplation, as
inoperative as though it had never been passed."
Norton v. Shelby County, 118 U.S. 425 p. 442
Justice for Brown is overdue. The best justice is to
make sure that no other policyholder of CPIC has to
suffer through 9.5 years of intentional torture,
waiting and long litigations. Only the threat of
prosecution, forcing CPIC to act in good faith, and
full jury punitive damages will keep CPIC honest.
F. Appellant Brief June 24, 2020
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
Case Number = 20-11607-BB

87

ROGER BROWN, PRO SE
APPELLANT/PLAINTIFF
V.
UNKNOWN EMPLOYEES OF CITIZENS
PROPERTY INSURANCE CORPORATION [to be
discovered]
DEFENDANTS
and
CITIZENS PROPERTY INSURANCE
CORPORATION
APPELLEE/DEFENDANT
ORIGINAL BRIEF OF PLAINTIFFAPPELLANT, ROGER BROWN
FROM THE APRIL 3, 2020 DISMISSAL
IN THE UNITED STATES DISTRICT
COURT,
MIDDLE DISTRICT OF FLORIDA, TAMPA
DIVISION,
CIVIL ACTION 8:19-cv-1951-T-36SPF.
THE HONORABLE CHARLENE
HONEYWELL PRESIDING.
A CIVIL PROCEEDING
ORAL ARGUMENTS
BROWN DOES NOT WANT ORAL
ARGUMENTS
88

RESPECTFULLY SUBMITTED:
BY:_/s/________________________
Roger Brown, Pro Se
rbl27.legal@gmail.com
c/o PO Box 566
Dunedin, Florida 34697-0566
956-408-9167
CERTIFICATE OF INTERESTED PERSONS
APPEAL NO. 20-11607-BB
U.S. COURT OF APPEALS FOR THE
ELEVENTH CIRCUIT
CERTIFICATE OF INTERESTED PERSONS
AND CORPORATE DISCLOSURE
STATEMENT
Roger Brown vs. Citizens Property Insurance
Corporation, et al
11th Cir. R. 26.1 (enclosed) requires that a
Certificate of Interested Persons and Corporate
Disclosure Statement must be filed by the appellant
with this court within 14 days after the date the
appeal is docketed in this court, and must be
included within the principal brief filed by any party,
and included within any petition, answer, motion or
response filed by any party. You may use this form to
fulfill this requirement. In alphabetical order, with
one name per line, please list the trial judge( s), and
all attorneys, persons, associations of persons, firms,
partnerships, or corporations that have an interest in
the outcome of this case or appeal, including
subsidiaries, conglomerates, affiliates and parent
corporations, including any publicly held corporation
that owns 10% or more of the party's stock, and other
89

identifiable legal entities related to a party, (please
type or print legibly):
Brown, Roger, Pro Se Appellant/Plaintiff
Citizens Property Insurance Corporation,
Appellee/Defendant
Flynn, Sean Patrick, Magistrate Judge for the
Tampa Middle District of Florida.
Honeywell, Charlene Edwards, U. S. District Judge
for the Tampa Middle District of Florida.
Kreiser, Erin R., Attorney, The Rock Law Group,
P.A. For Appellees/Defendants.
Pearcy, Maureen, Attorney, Paul R. Pearcy, P.A. For
Appellees/Defendants
Rock, Andrew, Attorney, The Rock Law Group, P.A.
For Appellees/Defendants.
State of Florida
Unknown Employees of Citizens Property Insurance
Corporation Appellees/ Defendants
CERTIFICATE OF COMPLIANCE WITH TYPEVOLUME LIMIT
This Brief exceeds the 30 page limit but complies
with type-volume limits of 13,000 words or 1300
lines, excluding the parts of the document exempted
90

by Fed. R. App. R. 32(f). This Brief has been
prepared in a proportionally spaced typeface using
Corel Word Perfect version X7. It was used to type
this Brief and used to count words. This is to certify
that this Brief uses Times New Roman Typeface of
14 point or larger. The number of words are counted
as 12,917. The Brief is double spaced except for
quotes. There are no footnotes.
BY:_/s/_____________________
Dated:__________________
Roger Brown, Appellant
rbl27.legal@gmail.com
do PO Box 566
Dunedin, Florida 34697-0566
956-408-9167

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true and correct copy of
this Brief, along with an Appendix, has been
electronically conveyed via the Internet to the
opposing attorney of record in this Appeal Case
pursuant to a mutual agreement of June 15, 2020.
Said documents transferred on this the__th day of
____, 2020 to Maureen Pearcy, sole attorney of record
for Citizens Property Insurance Corporation at the
following address:
service@pearcylawyer.com
maureen@pearcylawyer.com
Maureen G. Pearcy, Paul R. Pearcy, P.A.
7600 S. Red Road, Suite 200
South Miami, Florida 33143
91

By:__ /s/
Roger Brown, Pro Se
Appellant/Plaintiff
rbl27.legal@gmail.com
c/o PO Box 566
Dunedin, Florida 346970566

956-408-9167
TABLE OF CONTENTS
[Page]
COURT HEADING
i
STATEMENT REGARDING ORAL ARGUMENT i
SUBMISSION SIGNATURE
i
CERTIFICATE OF INTERESTED PERSONS ii
CERTIFICATE OF COMPLIANCE
in
CERTIFICATE OF SERVICE
in
TABLE OF CONTENTS
IV
TABLE OF CITATIONS
v
v
A. CASES
IX
B. STATUTES
C. CONSTITUTIONAL
x
D. RULES x
E. MISCELLANEOUS x
GLOSSARY
xi
STATEMENT OF JURISDICTION
Xll
STATEMENT OF ISSUES
1
STATEMENT OF THE CASE
1
SUMMARY OF ARGUMENT 5
ARGUMENT/CITATIONS OF AUTHORITIES
INTRODUCTION
9
MAIN ISSUE I: SUBJECT MATTER
JURISDICTION [Pet. App. 120-122]

9

92

MAIN ISSUES II-IV: 11th AMENDMENT ARM OF
STATE
17
II. CPIC was never entitled to 11th Amendment
[Pet. App. 123-124]
immunity!
III. IF CPIC had any immunity it was extinguished
in 2012 when State took away its Full Faith and
Credit backing! [Pet. App. 124-125]
IV. In alternative, CPIC does not act like or qualify
as an arm of state. [Pet. App. 125-144]
A. Generally CPIC does not qualify as
an Arm of State.
21
B. Specifically CPIC does not qualify as
an Arm of State.
23
C. News Reports Show CPIC does not
Act Like an Arm of State. 32
MAIN ISSUE V: WAIVERS OF IMMUNITY [Pet.
App. 144-151]
A. In alternative, CPIC waived
Immunity in 2014 State Lawsuit! 37
B. In alternative, CPIC's Motion to
Dismiss was defective!
37
C. CPIC's Shotgun Motion To Dismiss
Waived Immunity!
38
D. CPIC Participating in Pretrial
Proceedings Waived Immunity! 39
E. CPIC’s Sue and Be Sued Waived
Immunity!
39
F. Florida Statutes Waived any
Immunity CPIC had!
40
G. CPIC Entering into Contracts in
Commerce Waived Immunity! 41
H. Participating in Federal Programs
Waived CPIC's Immunity! 43
93

I. CPIC's Participating in Interstate
Commerce Waived Immunity! 43
RELATED ISSUES VI-X
44
VI. Shotgun Complaint
[Pet. App. 151-155]
VII. Discovery
[Pet. App. 155-158]
A. CPIC violate Fed. R. Civ. P. 26(g)(1)
48
B. No CPIC Discovery Allowed
49
C. No Unknown Employees of CPIC
Discovery Allowed
49
VIII. Ex Parte Young allegations [Pet. App. 158160]
IX. 14th Amendment Due Process [Pet. App. 160162]
X. Declaratory Judgments [Pet. App. 162]
CONCLUSION
[Pet. App. 162-163]

TABLE OF CITATIONS
A. CASES [Page numbers here in [ ] refers to pages
within the Brief]
Abusaid v. Hillsborough County Board of
Commissioners, 405 F.3d 1298 [2005] US Court of
Appeals 11th Circuit. [Pg 31]
Alden v. Maine, 527 U.S. 706, 728 (1999) [Pg 20]
Alkire v. Irving, 330 F.3d 802, 811 (6th Cir. 2003) [Pg
27]

94

Atchison, Topeka & Santa Fe Ry. v. Buell, 480 U.S.
557,568 n.15 (1987) [Pg 46]
Barron v. Deloitte & Touche, 381 F.3d 438, 440-42
(5th Cir. 2004) [Pg 13, 37]
Beentjes v. Placer County Air Pollution Control 397
F.3d at 778 [Pg 27]
Bennett v. Spear, 117 S. Ct. 1154, 1165 (1997) [Pg
47]
Benny, 29 B.R. 754,762" (N.D. Cal. 1983) [Pgll]
Bradley in Boyd v. United States, 116 US. 616, 29
L.Ed. 746, 6 Sup.Ct.Rep. 524. [Pg 12]
Cash v. Granville County Bd. of Educ., 242 F.3d 219,
223-24 (4th Cir. 2001) [Pg 26]
Clinton v. Jones, 117 S. Ct. 1636, 1650 n.40 (1997)
[Pg 57]
Conley v. Gibson, 355 U.S. 41 at 48 (1957) [Pg 46]
Cooke v. United States, 91 U.S. 389, 398 (1875) [Pg
42]
Cooper v. O'Conner, 99 F.2d 133 [Pg 53]
Cozzo v. Tangipahoa Parish Council-President Gov't,
279 F.3d 273, 281 (5th Cir.2002) [Pg 27]

95

CPIC v. Pulloquinga, CPIC, Appellant/Cross
Appellee, v. Dolores Pulloquinga, Appellee/Cross
Appellant. No. 3D14-1248. Decided: December 30,
2015 [Pg 34]
CPIC v. Perdido Sun Condominium, May 14, 2015.
Florida Supreme Court, case # SC14-185. [Pg 18, 35]
Delahoussaye, 937 F.2d at 147-48 [Pg 27]
Dennis v. Sparks, 449 U.S. 24 (U.S., 1980.) [Pg xiii]
Doe v. Lawrence Livermore Nat'l Lab., 131 F.3d 836,
839 (9th Cir. 1997) [Pg 27]
Eason v. Clark County Sch. Dist., 303 F.3d 1137,
1141 (9th Cir. 2002) [Pg 27]
Elam Constr. v. Reg'l Transp. Dist., 129 F.3d 1343,
1345 (10th Cir. 1997) [Pg 27]
Elmore v. McCammon (1986) 640 F. Supp. 905. [Pg
46]
Epos Tech., 636 F. Supp.2d 57, 63 (D.D.C. 2009) [Pg
46]
Ernst v. Rising, 427 F.3d 351, 364 (6th Cir. 2005) [Pg
27]
Ernst v. Roberts, 379 F.3d 373, 382 (6th Cir. 2004)
[Pg 27]
FDIC v. Meyer, 114 S. Ct. 996, 1003 (1994) [Pg 40]
96

FHA v. Burr, 309 U.S. 242 (1940) at 245 [Pg 29]
First English, 482 U.S. 304, 321 (1987) [Pg 48]
Fitzpatrick v. Bitzer, 427 U.S. 445 (1976). [Pg xii]
Fresenius Medical v. Puerto Rico, 322 F.3d 56 (1st
Cir. 2003) at 67-68. [Pg 26]
Grable & Sons Metal. V. Dargue Engineering (04603) 545 U.S. 308 (2005) 377 F.3d 592, affirmed [Pg
15]
Hadley v. N. Ark. Cmty. Tech. Coll., 76 F.3d 1437,
1439-42 (8th Cir. 1996)) [Pg 26]
Hastings v. Wilson, 516 F.3d 1055, 1058 (8th Cir.
2008) [Pg 17]
Hess v. Port Auth. Trans-Hudson Corp., 513 U.S. 30,
48, 115 S.Ct. 394, 404, 130 L.Ed.2d 245 (1994) [Pg
13, 21, 25]
Holt v. United States, 46 F.3d 1000, 1002 (10th Cir.
1995) [Pg 17]
Hudson, 174 F.3d at 682 [Pg 27]
ITSI TV Productions, Inc. v. Agric. Ass'ns, 3 F.3d
1289, 1291 (9th Cir. 1993) [Pg 24]
Jenkins v. McKeithen, 395 U.S. 411, 421 (1959) [Pg
45]
97

Keko v. Hingle, 318 F.3d 639 C.A.5 (La.) 2003 [Pg
xiii]
Loeffler v. Frank, 486 U.S. 549, 554-55 (1988) [Pg 40]
Manders v. Lee, 338 F.3d at 1328 [Pg 31]
Marbury v Madison, 5 U.S. (1 Cranch) 137 (1803) [Pg
18, 56]
Maty v. Grasselli Chemical Co., 303 U.S. 197 (1938)
[Pg 46]
McCulloch v. Maryland, 17 U.S. (4 Wheat) 316, 426
(1819) [Pg 16]
McDonald v. Board of Miss. Levee Comm'rs, 832 F.2d
901, 907 (5th Cir.1987) [Pg 27]
Md. Stadium Auth. v. Ellerbe Becket, Inc., 407 F.3d
255, 261 (4th Cir. 2005) [Pg 26]
Melton v. Abston, 841 F.3d 1207, 1234 (11th Cir.
2016) [Pg 23]
Miller-Davis Co. v. Illinois State Toll Highway
Auth., 567 F.2d 323, 330 (7th Cir.1977) [Pg 14]
Mt. Healthy City Sch. Dist. Bd. of Educ. v. Doyle, 429
U.S. 274, 280, 97 S.Ct. 568, 50 L.Ed.2d 471 (1977)
[Pg 30]

98

Murray v. City of Charleston, 96 U.S. 432 (1877) [Pg
42]
Northern Insurance Co. v. Chatham County, 547
U.S. 189, 193 (2006) [Pg 20]
Ohio Nat'l Life Ins. Co. v. United States, 922 F.2d
320, 325 (6th Cir. 1990)) [Pg 17]
Osborn v. Bank of the United States, 9 Wheat. (22
U.S.) 738 (1824) [Pg 14]
Osborn v. United States, 918 F.2d 724, 729 n.6 (8th
Cir. 1990) [Pg 16]
Picking v. Pennsylvania R. Co., 151 Fed 2nd 240
Third Circuit Court of Appeals [Pg 45]
Planned Parenthood of Southeastern Pa., 505 U.S. at
848 [Pg 47]
Pucket v. Cox, 456 2nd 233 [Pg 45]
Rumber v. Dist Of Columbia US Ct Appl DDC 2007
[Pg 47]
Scheuer v. Rhodes, 416 US., at 237, 94 S.Ct., at 1687.
[Pg 52, 53]
Seminole Tribe, 517 U. S., at 59. [Pg xii]
Soldal v. Cook County, 506 U.S. 56 [Pg 47]

99

Sun Valley Gasoline, Inc. v. Ernst Enters., 711 F.2d
138, 139-40 (9th Cir.1983) [Pg 15]
Swierkiewicz v. Sorema N.A., 534 U.S. 506, 512
(2002) [Pg 46]
Thacker v. TVA US Sup Ct., CERTIORARI To The
U.S. Ct, of Appeals for 11th Circuit, No. 17—1201.
April 29, 2019 [Pg 28, 40]
Towers Tenant Ass'n v. Towers Ltd. P'ship, 563 F.
Supp. 566, 569 (D.D.C. 1983) [Pg 47]
Truck Ins. Exchange v. Prairie Framing, LLC, 162
S.W.3d 64 (Mo. Ct. App. W.D. 2005) [Pg 50]
Umpleby v. State, 347 N.W.2d 156, 161 (N.D. 1984).
[Pg 11]
United States ex rel. Oberg v. Pa. Higher Educ.
Assistance Agency, 745 F.3d 131, 147 (4th Cir. 2014)
[Pg 24]
United States v. Williams, 115 S. Ct. 1611,1618
(1995) [Pg 47]
Warnock v. Pecos County, Texas., 88 F3d 341 (5th
Cir. 1996) [Pg 53]
Whitney v. New Mexico, 113 F.3d 1170, 1173 (10th
Cir. 1997). [Pg 45]

100

Woods v. Rondout Valley Central School District
Board of Education, 466 F.3d 232, 237 (2d Cir. 2006)
[Pg 24]
B. STATUTES
28 U.S.C. § 1331 [Pgxiii, 15]
28 U.S.C. § 1332 [Pgxiii]
28 U.S.C. §1367(a). [Pg xiii]
28 U.S.C. 1391(b) [Pgxiii]
28 U.S.C. § 1654 [Pgxiii]
29 U.S.C. § 1291 [Pgxiv]
42 U.S.C.A. §1983 [Pgxiii]
Fla. Stat. § 624.155 [Pg40]
Fla. Stat. § 627.351(6)(s )1 [Pg 40]
C. CONSTITUTION
5th Amendment [Pg 1,6,9,14]
11th Amendment [Pg
1,4,6,11,12,16,17,20,23,24,25,26,30,37,38,39,51,55,56
]

14th Amendment [Pg xii, xiii, xiv, 1,6,8,9,14,54,55]
Fla. Const Art. IV, #4 [Pg 38]
US Const, Art III, Sec 2 [Pg 14]
U.S. Constitution Article VI [Pg 15]
D. RULES
Fed. R. Civ. Rule 12(b)(1) [Pg 16]
Rule 12(b)(6) [Pg 16]
Fed. R. Civ. P. 26(g)(1) [Pg 8,48]
Rule 57 [Pg 55]
E. MISCELLANEOUS
Advisory Legal Opinion - AGO 2002-21 [Pg 18,25,43]
101

ALI, Study of the Division of Jurisdiction Between
State and Federal Courts 164 (1968) [Pg 15]
Bondi, Pam, Florida Attorney General, Brief of The
State of Florida as Amicus Curiae in Support of
Petitioner, Citizens Prop. Ins. Corp. v. Perdido Sun
Condo. Ass'n CASE NO.: SC14-185 [Pg 18]
CPIC Insurance 2012 Application acknowledgment,
CPIC is not supported by the full faith and credit of
the state of Florida. [Pg 19]
Davis, Phillip, [accessed 2019-07-13]
[https://www.npr.org/templates/story/story.php
?storyId=4966593] [Pg 35]
Florida State Court Case, Brown v CPIC Case #14002748-CI, 2014 [Pg 4, 9, 37, 54]
Kern, Brian H., Article "Fla. Nixes Citizens' Plan;
Bans Hiring of Lawyers for Rate Appeals" by,
September 19,2006. [Accessed 2019-07-13]
[https ://www.insurancej ournal. com/news/southeast/2
006/09/19/72539.htm] [Pg 36]
Klas, Mary Ellen, Published September 21 2013 [EA]
[http://www.tampabay.com/news/business/banking/ci
tizens-racks-up-millions-in-atutorneys-fees-as-itdenies-claims/2143165] [Accessed 2019-07-13] [Pg
33]
Lopez, Anthony M., Miami Attorney [Pg 32]

102

Olorunnipa, Toluse, Times/Herald Tallahassee
Bureau, Published February 28 2013 [accessed 201907-13]
[https ://www. tampabay. com/news/politics/citizensproperty-insurance-releases-list-of-internalcomplaints/1276852] [Pg 35]
Scalia, Antonin, Historical Anomalies in
Administrative Law, in 1985 YEARBOOK 103, 104
(Supreme Court Historical Society) [Pg 11,18]
Schall, Dave, Extracted from [Accessed 2019-07-13]
[https://usinsuranceagents.com/reviews/citizens/] [Pg
34]
The Florida Council of 100, Into the Storm: Framing
Florida's Looming Property Insurance Crisis, 2010
[Pg 3]
Williams, K.C. on September 30, 2013 [Extracted
from Citizens Denying Claims While Paying Its
Lawyers Million$$ of Dollars [Accessed 2019-07-13]
[https://www.insuranceclaimlawyerblog.com/citizensdenies-claims-while-paying-its-lawyers-million-ofdollars/] [Pg 33]

GLOSSARY
Brown
CPIC
Doc
EA
Pg

Roger Brown
Citizens Property
Insurance Corporation
Document
Emphasis Added
Page
103

*D

Item Number
Doc 27 [CPIC Motion To

*PAM

Doc 20 [Brown Amended

*PO

Doc 28 [Brown Opposition

#

Dismiss]
Complaint]
to Doc 27]
* Before Brown caught on how to properly reference
documents he used these references.

STATEMENT OF JURISDICTION
A. District Court’s Jurisdiction
This Suit was timely because according to the
Florida Statutes, the statute of limitations for
contract lawsuits is five years. The Causes of Action
first accrued on May 29 of 2015 or January 20, 2011,
depending on the interpretation of the law. The
actions cited herein are ongoing and continuos. A
statute of limitations "runs from the time the cause
of action accrues" which, in turn, is generally
determined by the date "when the last element
constituting the cause of action occurs." The Causes
of Action last accrued on September 7 of 2018 or July
26 of 2019, depending on the interpretation of the
law. This lawsuit was timely filed on August 7, 2019.
“In adopting the 14TH Amendment, the people
required the States to surrender a portion of the
sovereignty that had been preserved to them by the
original Constitution, so that Congress may authorize
private suits against non-consenting States pursuant
to its § 5 enforcement power”. Fitzpatrick v. Bitzer,
427 U.S. 445 (1976).
104

By imposing explicit limits on the powers of the
States and granting Congress the power to enforce
them, the 14TH Amendment "fundamentally altered
the balance of state and federal power struck by the
Constitution." Seminole Tribe, 517 U. S., at 59.
The District Court had subject matter jurisdiction
over this matter pursuant to 28 U.S.C. § 1331, which
grants the district courts “original jurisdiction of all
civil actions arising under the . . . laws . . . of the
United States.” United States law requires that those
who deprive any person of rights and privileges
protected by the Constitution of the United States
shall be liable in action at law, suit in equity, or
other appropriate measure.
“A private party may be liable under 42
U.S.C.A. § 1983 for conspiring with state actors to
deprive a citizen of their civil rights”. Keko v. Hingle,
318 F.3d 639 C.A.5 (La.) 2003; Dennis v. Sparks, 449
U.S. 24 (U.S., 1980.)
Federal jurisdiction over pendant state claims is
governed by 28 U.S.C. §1367, which states:
“[I]n any civil action in which the district
courts have original jurisdiction, the district courts
shall have supplemental jurisdiction over all claims
that are so related to claims in the action ... that they
form part of the same case or controversy under
Article III of the United States Constitution.” 28
U.S.C. §1367(a).
Jurisdiction is based on the 14TH Amendment,
diversity of citizenship [Doc 20, Pg 3, #5] [Doc 28,
105

Pgl6, #44], 28 U.S.C. #1332, and the amount in
controversy exceeds $75,000.00 exclusive of interest
and costs. This court has subject matter jurisdiction
over this matter pursuant to 28 U.S.C. 1331, which
provides district courts with jurisdiction over civil
actions arising under the United States Constitution
or laws of the United States. This court has personal
jurisdiction over the Defendants who live in Florida
and the corporation CPIC because the corporation’s
creation and principal place of business is located in
Florida. Venue is proper pursuant to 28 U.S.C.
1391(b) because the events giving rise to the
allegations in this complaint occurred in this district.
[Doc 01, Pg 2, #3] [Doc 20, Pg 2, #3] The right to
appear pro se in a civil case in Federal Court is
contained in a statute, 28 U.S.C. § 1654.
Federal courts will consider state-law-based claims
when a case involves claims using both state and
federal law. Brown raised wide spread and ongoing
persistent constitutional violations. Brown contends
that there are unconstitutional laws being used
under color of law by CPIC and there are
unconstitutional laws being utilized in Florida
because it appears that no one ever dared to
questioned them. These issues will create sweeping
legal changes for the public in combating the current
unconstitutional laws and acts by CPIC and related
others. Claims based on federal laws permits the
federal court to take jurisdiction over the whole case,
including any state issues raised. In these cases, the
federal court is said to exercise “pendent or
supplemental jurisdiction” over the state claims.
106

Knowing that there would be no thorough judicial
review by the District Court just emboldened CPIC,
state government, and state government officials to
ignore the U.S. Constitution. Subject Matter
Jurisdiction hangs on questions generally whether
there is jurisdiction through 14th Amendment,
Federal Constitution, Federal law issues, and
whether the 11th Amendment immunity ever existed
or was waived.
Subject Matter Jurisdiction does exit in this case for
the above reasons and because CPIC, was never an
“Arm of State”, ended, or is not now an “Arm of
State” or, in the alternative, CPIC waived its
immunity in one way or another.
B. Court of Appeal’s Jurisdiction
This Court has jurisdiction over this appeal pursuant
to 29 U.S.C. § 1291 because the Order To Dismiss
was a final order of the United States District Court.
C. Timeliness of Appeal
The District Court’s Final Order was entered on
April 3, 2020. A Notice of Appeal was entered on
April 28, 2020 by Brown.
D. Final Judgment
This appeal is from a Final and Appealable Order
that disposed of all parties’ claims.

STATEMENT OF THE ISSUES
I. Subject Matter Jurisdiction Does Exist?
107

II. CPIC Was Never entitled to 11th Amendment
Immunity as "Arm-of-State"?
III. CPIC lost "Arm-of-State" status in 2012?
IV. CPIC Does Not act like nor qualify as “Arm-ofState”?
V. CPIC waived 11th Amendment immunity?
VI. Brown’s Complaints Were Not “Shotgun
Complaints?
VII. Brown Should have been allowed Discovery?
VIII. Brown Was denied ability to bring Ex Parte
Young allegations?
IX. District Court Denied Brown His Constitutional
Right To Sue CPIC For 14th Amendment Violations
of Due Process and 5th Amendment Taking?
X. Court Should Have Answered Brown's Motions for
Declaratory Judgments?

STATEMENT OF CASE
It is prayed that this Court will understand that
Brown has no legal training, does not have any
resources of a lawyer, may not act or respond like a
trained, learned, legal professional, and can access
court cases only through free Internet without
subscriptions, thus Court's tolerance is requested.
Brown’s dispute with CPIC has been ongoing for 9.5
years. CPIC has been delaying payment as a war of
attrition against Brown, in hopes he goes away or
just dies. If CPIC honored its commercial contracts
quickly and fairly, Brown would not be here.
Brown had a 2nd mortgage [2006] on a house in
Clearwater, Florida. Owner of house had to refinance
due to real estate crisis of 2008. GTE Credit Union
108

required Brown to give up his 2nd mortgage and
move to co-ownership position in order to do a
refinancing for Owner. Brown only acknowledged the
new GTE mortgage but did not become obligated by
it nor did Brown sign the promissory note with GTE.
Brown had a valid and fully paid up insurance policy
[first contract] with CPIC. Problems began in
January 2011 when Brown filed a sinkhole claim for
damages with CPIC. CPIC did geological testing on
property in June 2011. Owner asked CPIC in
writing, an expert in sinkhole situations, whether
property was safe to live in, but CPIC refused to give
Owner an answer. There were numerous News
videos of sinkhole activity which frighten most
homeowners. Out of fear from sinking into sinkhole,
Owner moved out of property and assigned all
interests into CPIC insurance policy over to Brown.
Brown offered to buy the mortgage and note from
GTE but they refused.
Motivated by CPIC’s dire financial situation [Doc 01,
Pg 41, #78] [Doc 20, Pg 13, #10] CPIC abandoned
their fiduciary duty to Brown and a valid claim was
wrongfully denied. This was when CPIC was
experiencing tremendous losses from sinkhole
claims. In 2010 CPIC earned $32 million in sinkhole
premiums and expected to pay out $245 million in
loss expenses. That was a net loss of $213 million in
2010 and $64.4 million in 2009, for a total of
$277,400,000 in sinkhole losses immediately prior to
year 2011. Florida Council of 100 published a
position paper, among problems identified was that
CPIC was undercapitalized and charged "rates not
109

actuarially sound". The study also found that lowrisk property owners were subsidizing high risk
policies. [Brown thinks Political favors?]
"Citizens Property Insurance Corporation
(CPIC) has become Florida's largest residential
property insurer, an insurer that is more than $9
billion undercapitalized and which charges its 1
million policyholders rates that are not actuarially
sound." Florida Council of 100, Into the Storm:
Framing Florida's Looming Property Insurance
Crisis, 2010.
CPIC wrongfully denied claim despite an adjacent
property which had already been designated as a
sinkhole property. Brown finally obtained an
attorney to take his sinkhole case. Afterwards,
property went into foreclosure and Owner later filed
bankruptcy. From new geological testing done by
attorneys, proof of a sinkhole was established and
presented to CPIC on January 13, ,2014. CPIC
refused to accept proof. Brown’s attorney informs
him, to his surprise, that CPIC was a state
government entity and could not be sued for bad
faith! [Doc 30, Pg 27-32, #48-53]
“Contracts between individuals or corporations
are impaired within the meaning of the Constitution
(article 1, 10, cl. 1) whenever the right to enforce them
by legal process is taken away or materially lessened”.
Lynch v. United States 292 US 571, 579. [EA]
Brown’s attorney sued CPIC [on first contract] in a
State of Florida Court [First Lawsuit] [Case #14002748-CI] for breach of contract on April 9,2014 to
force payment of damages. CPIC waived their 11th
110

Amendment status, if any, by entering lawsuit
willingly. In July 2014 CPIC offers to settle a large
amount of outstanding sinkhole lawsuits, Brown's
lawsuit was one of about 300. After admitting
liability for Brown’s claim in that State lawsuit,
CPIC entered into Settlement Agreement [second
contract] wherein Brown was to get paid a
settlement. Brown was a novice in this matter, CPIC
were experts.
After CPIC’s delays of 3 years, 6 months, 19 days
[1296 days] from Brown's filing of a claim, Brown,
who knew nothing about the legal maze in which he
found himself, executed a Commercial Contract
[second contract] labeled as a "Settlement
Agreement" with CPIC on August 8, 2014. Brown
thought the matter was finally settled. Brown’s
lawyers had conflicts of interest against Brown,
immediately abandoning their fiduciary duty to him
and favoring CPIC because of the massive settlement
they had arranged with CPIC. They refused to force
CPIC to pay Brown. For several years Brown
personally tries, on numerous occasions, to get CPIC
to pay him bankable funds due from the Commercial
Contract [second contract] without success.
Brown, a senior citizen from Texas, filed a Federal
Lawsuit [Second Lawsuit] on August 7, 2019 against
Unknown Employees of CPIC and CPIC in Federal
District Court in Tampa [Doc 20, Pg 3, #4] [Doc 57, Pg
2-3, # 2]. This was 8 years, 6 months, and 18 days
[3121 days] after initially filing claim against CPIC.
Brown could not find an attorney to take case on
contingency basis because of CPIC's reputation of
111

avoiding payment of claims, even when justified.
Brown having no funds for an attorney, acted in Pro
Se. District Court wrongfully dismissed case [Doc 59]
on April 3, 2020 and Brown timely filed a Notice of
Appeal on April 28, 2020.

SUMMARY OF ARGUMENT
MAIN ISSUE I: SUBJECT MATTER
JURISDICTION
I. Brown is not suing the State of Florida! Brown
sued GPIC under diversity of citizenship and 14th
Amendment for ongoing violations of his
constitutional rights, which included issues of Due
Process and 5th Amendment Taking. Other issues
were raised about ongoing widespread and persistent
Federal Law and Constitutional violations, as well as
state unconstitutional acts, and various Caustes-ofAction, all of which gave jurisdiction to this court.
[Doc 01, Pg 2, # 3] [Doc 20, Pg 2, # 3]
District Court did not correctly incorporate these and
all of the below issues when wrongfully deciding lack
of subject matter jurisdiction in this case! CPIC is
subject to Federal law, regardless of whether CPIC
ever had 11th Amendment Immunity as an “Arm-ofState”, lost its “Arm-of-State” status in 2012, waived
its immunity in 2014, or waived it in some other way.
These are some of the questions presented herein.
MAIN ISSUES II-IV: 11th AMENDMENT “ARMOF-STATE”
District Court refused to consider any of these!
112

II. CPIC was never entitled to 11th Amendment
immunity!
III. IF CPIC had any immunity it was extinguished
in 2012 when State took away its Full Faith and
Credit backing!
IV. In alternative, CPIC does not act like nor qualify
as an “Arm-of-State”. District Court wrongly
assumed that CPIC was an “Arm-of-State”!
A. Generally CPIC does not qualify as an
“Arm-of-State”.
B. Specifically CPIC does not qualify as an
“Arm-of-State”.
C. News Reports Show CPIC does not Act Like
an “Arm-of-State”.
MAIN ISSUE V: WAIVERS OF IMMUNITY
V. In alternative, assuming CPIC had some
immunity, it was waived in one way or another.
District Court refused to consider all of these!
A. CPIC waived Immunity in 2014 State
Lawsuit!
B. CPIC’s Motion to Dismiss was defective!
C. CPIC’s Shotgun Motion To Dismiss Waived
Immunity!
D. CPIC Unequivocally Participating in
Pretrial Proceedings Waived Immunity!
E. CPIC’s “Sue and Be Sued” Waived
Immunity!
F. Florida Statutes Waived any Immunity
CPIC had!
G. CPIC Entering into Contracts in Commerce
Waived Immunity!
H. Participating in Federal Programs by the
State Waived CPIC’s Immunity!
113

I. CPIC’s Participating in Interstate
Commerce Waived Immunity!
RELATED ISSUES VI-X
VI. Shotgun Complaint: Brown’s Complaints [Doc 01
& 20] were not “shotguns” but instead listed multiple
valid Causes-of-Action. Brown even filed a Motion to
add additional Causes-of-Action [Doc 51] after
studying laws. Brown’s Amended Complaint was
accepted by Court without complaint. [Doc 22]
District Court refused to act on Motion To Add
Additional Causes-of-Action! [Doc 51]
VII. Discovery: All Discovery requests by Brown were
denied by District Court! [Docs 36, 43, 52, 55, 56, &
57]
A. CPIC violated Fed. R. Civ. P. 26(g)(1)
B. No CPIC Discovery Allowed
C. No Unknown Employees of CPIC Discovery
Allowed
VIII. Ex Parte Young allegations: Brown wanted
partial discovery to discover from CPIC the
Unknown Employees who were violating his contract
and constitutional rights, but District Court refused.
There was no way to amend his complaint and add
additional defendants because District Court’s denial
of discovery hide the actors. Brown was prevented
from filing Ex Parte Young allegations against actors
to prevent their future unconstitutional acts against
Brown and others!
IX. 14th Amendment Due Process: Brown was denied
by District Court his Federal and State
114

Constitutional due process rights along with Taking
[Doc 20, Pg 27-29, #65-70]. Takings Clause of 5th
Amendment was made applicable to states through
14th Amendment. Brown was also denied
Constitutional Due Process Rights to sue CPIC for
Bad Faith. [Brown was also denied his Due Process
right from suing CPIC in State Court Case because
of an unconstitutional state law impairing
contracts] [Doc 20, Pg 19, #38; Pg 20, #44] [Doc 28, Pg
11-12, #25]
X. Declaratory Judgments: Brown raised multiple
Federal and State Constitutional issues in both his
Original [Doc 01] and his Amended Complaint [Doc
20] plus in two Motions for Declaratory Judgments
[Doc 12 & 30]. Brown raised issues in Immunity, Due
Process, Impairment of Contract, Taking, Ex Post
Facto Prohibition, Limits to Punitive Damages, Pro
Se Fees, and Civil Conspiracy. District Court never
addressed these issues!

ARGUMENT/CITATIONS OF AUTHORITIES
INTRODUCTION
District Courts are heavily loaded with cases and
resources are tight. To reduce load on District Judge,
Brown and CPIC’s lawyer Kreiser, orally agreed to
use Magistrate Judge. CPIC’s attorney agreed, in
writing, to use Magistrate Judge. [Doc 29, Pg 2] But
later CPIC’s lawyers reneged on their oral agreement
and written agreement. [Doc 31] [Doc 34, Pg All]
which pushed case to District Judge. District Court
refused to act upon Brown’s two Motions for
Declaratory Judgments [Doc 12 & 30]. With no
115

disrespect to District Court in this case, for some
reason(s) [Examples at Doc 55, Pg 1-4, # 1-5], the
District Court prejudicially failed to consider Brown’s
underlying constitutional issues, facts, cited cases,
motions and arguments of case, and prejudicially
applied wrong laws or wrong interpretations of laws
without thorough analysis.
Brown has no political clout nor does he have any
significant importance in scheme of things in Florida
as an outsider. If District Court had allowed Brown
Discovery or had properly ruled on his motions,
Brown could have identified the Unknown
Employees of CPIC, and the case could still be
ongoing with the other defendants.
If District Court had thoroughly analyzed laws, facts,
and arguments of CPIC’s false claim of an “Arm-ofState” status, outcome would have been different.
Brown believes that laws means what they say and
laws should not be interpreted to force a desired
political or "social justice" outcome for CPIC. District
Court cited other cases that cited other cases but did
not consider new evidence and arguments to
contrary. Just because other Courts have habitually
ruled in error does not preclude District Court from
correcting those errors.
“An unlawful or unauthorized exercise ofpower
does not become legitimated or authorized by reason
of habitude” Benny, 29 B.R. 754,762" (N.D. Cal.
1983); See also Umpleby v. State, 347 N.W.2d 156,
161 (N.D. 1984). [EA]

116

"Judges who "interpret" statutory and
constitutional texts on the basis of what they think the
law ought to be, rather than on what it actually is,
are usurping the law and undermining both our
constitutional form of government and the famous
American ideal that ours is "famous government of
laws, not of men". Antonin Scalia.
Brown now brings his Appeal to this Court for a
thorough judicial review, which centers around
corporation CPIC and whether CPIC has State of
Florida immunity under 11th Amendment. Around
this main issue are other related issues that are
raised and some were discussed within District
Court’s Final Order of April 3, 2020, which
completely dismissed case.
Florida Legislature created CPIC, it did not make it
a new executive department, but it said it can sue
and be sued in its own name. They cast it aside and
said it can fend for itself. And to just say, well, it
performs some functions, it is governmental, but
when you start making that distinction this is the
exact error that the District Court made.
Immunity is not a benefit that a sovereign may
confer on a third party merely by stating its intent to
do so. Immunity is a legal protection the law
recognizes for the sovereign itself, serving to protect
sovereign's state treasury and its right to direct its
governmental affairs. A valid “Arm-of-State” test
must ensure that a state's immunity extends to an
entity only where that entity is so closely aligned
with sovereign that a suit against the entity is in
117

practical effect a suit against the state itself. States
manipulate their immunity in systematic fashions
with fancy wording to avoid federal Causes-of-Action.
It is important to realize that application of 11th
Amendment is an issue of federal law and not state
law and this Court should not consider any state
court’s decisions in making a determination.
“It may be that it is the obnoxious thing in its
mildest and least repulsive form; but illegitimate and
unconstitutional practices get their first footing in
that way; namely, by silent approaches and slight
deviations from legal modes ofprocedure. This can
only be obviated by adhering to the rule that
constitutional provisions for the security of person
and property should be liberally construed. A close
and literal construction deprives them of half their
efficacy, and leads to gradual depreciation of the
right, as if it consisted more in sound that in
substance. It is the duty of courts to be watchful for
the constitutional rights of the citizens, and against
any stealthy encroachments thereon. Their motto
should be obsta principiis.” quoting Justice Bradley
in Boyd v. United States, 116 US. 616, 29 L.Ed. 746,
6 Sup.Ct.Rep. 524. [EA]
Nor should this Court rely upon citations of District
Court Cases that just accept that CPIC was an “Armof-State” without a new and thorough analysis. 5th
Circuit Court of Appeals, ruled that:
“an entity was not an arm of the state despite
other district courts ruling the same entity was an
arm of the state”. & “We conclude that NHIC is not an
arm of the State of Texas and is therefore not shielded
by Eleventh Amendment immunity. We observe,
118

however, that several district courts have held NHIC
to he an arm of the State of Texas.” United States ex
rel. Barron v. Deloitte & Touche, 381 F.3d 438, 44042 (5th Cir. 2004)[EA]
Whether state statutes and case law view CPIC as
an “Arm-of-State” is not dispositive. Hess declined to
adopt state court's characterization of the agency:
“holding that the Port Authority does not enjoy
Eleventh Amendment immunity despite the fact that
"[sjtate courts . . . repeatedly have typed the Port
Authority an agency of the States rather than a
municipal unit or local district". Hess v. Port
Authority Trans-Hudson Corporation, 513 U.S. 30 at
45 [EA]
State Legislators are notorious about enacting laws
that exempt themselves and allows their offspring to
break real laws with impunity. It makes sense to
scrutinize Legislature action more closely when State
stands to benefit. Evils sought to be eliminated here
are legislature's propensity to enact laws that are not
constitutional and are not of interest to the state as a
whole. Federal courts are often more skeptical of
state court decisions involving issues of sovereign
immunity, as otherwise:
"[a] state would have too much self-interest in
extending sovereign immunity to as many of its
agencies and corporate creations as possible." MillerDavis Co. v. Illinois State Toll Highway Auth., 567
F.2d 323, 330 (7th Cir. 1977). [EA]
MAIN ISSUE I
SUBJECT MATTER JURISDICTION
119

I. Subject Matter Jurisdiction
Brown sued under 14th Amendment for ongoing
violations of his constitutional rights. Brown's
Complaints raised 14th Amendment issues of Due
Process and 5th Amendment Taking, ongoing,
widespread, and persistent Federal Constitutional
violations, Federal Law violations, as well as state
unconstitutional acts which gave jurisdiction to this
court. Brown never sued the State of Florida, nor did
he sue over a state governmental function. Brown
sued CPIC twice over commercial contracts.
District Court did not correctly incorporate these and
all below issues when wrongly deciding lack of
subject matter jurisdiction in this case!
“Under Article III of the Constitution, federal
courts can hear "all cases, in law and equity, arising
under this Constitution, [and] the laws of the United
States..." US Const, Art III, Sec 2. The Supreme
Court has interpreted this clause broadly, finding
that it allows federal courts to hear any case in which
there is a federal ingredient.” Osborn v. Bank of the
United States, 9 Wheat. (22 U.S.) 738 (1824). [EA]
“The doctrine captures the commonsense notion
that a federal court ought to be able to hear claims
recognized under state law that nonetheless turn on
substantial questions of federal law, and thus justify
resort to the experience, solicitude, and hope of
uniformity that a federal forum offers on federal
issues.” Grable & Sons Metal. V. Dargue Engineering
(04-603) 545 U.S. 308 (2005) 377 F.3d 592,
affirmed. [EA]
120

"The district courts shall have original
jurisdiction of all civil actions arising under the
constitution, laws, or treaties of the United States." 28
U.S.C. § 1331 (1982). [EA]
“a Federal question provides the basis for both
the subject matter jurisdiction of the federal court and
the plaintiffs substantive claim for relief” quoting
Sun Valley Gasoline, Inc. v. Ernst Enters., 711 F.2d
138, 139-40 (9th Cir.1983). [EA]
In its landmark study in 1969, American Law
Institute endorsed federal question jurisdiction:
"to protect litigants relying on federal law from
the danger that state courts will not properly apply
that law, either through misunderstanding or lack of
sympathy." American Law Institute, ALI Study of
The Division of Jurisdiction Between State and
Federal Courts 4 (1969). [EA]
U.S. Constitution makes Federal law “supreme,”
giving Federal courts the power to strike down state
statutes deemed unconstitutional.
“the Authority of the United States, shall be the
supreme Law of the Land; and the Judges in every
State shall be bound thereby, any Thing in the
Constitution or Laws of any State to the Contrary
notwithstanding.” U.S. Constitution, Article VI [EA]
"This great principle is, that the constitution
and the laws made in pursuance thereof are supreme;
that they control the constitution and laws of the
respective states, and cannot be controlled by them."
121

McCulloch v. Maryland, 17 U.S. (4 Wheat) 316, 426
(1819)[EA]
Factual v Facial [Doc 55, Pg 4 , #6 & 7] On a motion
to dismiss under Rule 12(b)(1) for lack of subject
matter jurisdiction, the court must:
“distinguish between a facial attack and a
factual attack.” Osborn v. United States, 918 F.2d
724, 729 n.6 (8th Cir. 1990).
CPIC raised a facial challenge to subject matter
jurisdiction. CPIC filed 20 page shotgun Motion To
Dismiss. Discussing merits of the case instead of just
claiming 11th Amendment immunity, CPIC proved
they were facially attacking Brown’s Amended
Complaint.
District Court even viewed CPIC’s attack as facial
and not factual:
“.... the Court questions whether Citizen’s
argument is more in the nature of a “facial attack.”
[Doc 53, Pg 3, Footnote 1] [EA]
CPIC should have been limited to the pleadings and
Brown should have received protections as if
defending against a motion brought under Rule
12(b)(6). District Court should have accepted all
factual allegations in pleadings as true and viewed
them in light most favorable to Brown. Hastings v.
Wilson, 516 F.3d 1055, 1058 (8th Cir. 2008) Holt v.
United States, 46 F.3d 1000, 1002 (10th Cir. 1995)
(citing Ohio Nat’l Life Ins. Co. v. United States, 922
F.2d 320, 325 (6th Cir. 1990)).
122

MAIN ISSUES II-IV
11th AMENDMENT “ARM-OF-STATE”
II. CPIC was never entitled to 11th
Amendment immunity!
District Court wrongfully ignored this issue! [Doc 28,
Pg 9, #19] [Doc 30, Pg 8, # 16] [Doc 55, Pg 1-4, # 1-5;
Pg 6-15, #11-17]. States do not have plenary power to
regulate every facet of national life, nor to regulate
every aspect of commercial life. CPIC never had
“Arm-of-State” status. The Legislature used fancy
wording but regardless, CPIC was to be the same as
the “JUA”, just packaged differently. As proof:
“.... CS/SB 1418 renames the JUA as the
Citizens Property Insurance Corporation. While the
legislation removes language which states that this
entity is not a state agency and restructures the
association as a corporation with its governing board
appointed by the Treasurer,[6] much of the purpose
and function of the corporation is the same as that of
the JUA. Under the proposed legislation, the
corporation would not perform a traditional
governmental function. Its revenues would not be
subject to legislative appropriation and would be held
solely for the purpose of satisfying insurance claims.
Though created by the Legislature, in practical effect
the corporation would operate like a private
insurance company.” [Florida] Advisory Legal
Opinion- AGO 2002-21 [EA]
Sovereign immunity was a common law doctrine, and
there was no common law granting corporate entities
immunity, and corporations did not exist when
Florida was formed, thus CPIC did not have “Arm-ofState” immunity. Antonin Scalia expressed the view
123

that sovereign immunity is not based upon historical
understanding:
"at the time ofMarhury v Madison there was
no doctrine of domestic sovereign immunity, as there
never had been in English law". Antonin Scalia,
Historical Anomalies in Administrative Law, in 1985
YEARBOOK 103, 104 (Supreme Court Historical
Society) [EA]
Florida Legislature could not confer immunity upon
CPIC, a mere corporation, on its creation because
they did not have that power. As more proof, consider
what Attorney General of Florida stated: [Doc 55, Pg
11-12, #12(17 & 18)]
"...sovereign immunity is a common law
doctrine
" & ... "the Legislature does not "grant"
sovereign immunity..." Pam Bondi, Florida Attorney
General, Brief of The State of Florida as Amicus
Curiae in Support of Petitioner, Citizens Prop. Ins.
Corp. v. Perdido Sun Condo CASE NO.: SC14-185
[EAHDoc 52, Pg 14, # 6(17-18)]
III. CPIC Lost All Immunity Status In 2012!
District Court wrongly ignored this issue! [Doc 30, Pg
18, # 32] [Doc 35, Pg 5, # 10E] [Doc 55, Pg 3-4, #
5(1&2)], Assuming CPIC had “Arm-of-State”
immunity on its creation, CPIC lost its Immunity
when State of Florida took away its full faith and
credit backing in 2012. New Applications effective
January 1, 2012, with all CPIC's polices had this
disclaimer.
"7 also understand that Citizens Property
Insurance Corporation is not supported by the full
124

faith and credit of the state of Florida." CPIC New
Applications 2012 [EA]
This was a surprise to both new and old
policyholders because few even knew there was a
connection between CPIC and State. So why was this
added? In 2010 and 2011, CPIC faced huge operating
losses, State of Florida decided to cut off CPIC as an
“Arm-of-State”. [Doc 01, Pg 41, # 78] [Doc 20, Pg 13,
# 10; Pg 17, # 25; Pg 27-28, # 67] [Doc 35, Pg 5, #
10(E)]
CPIC is not “Arm-of-State”nor does the State of
Florida have any legal liability for CPIC. CPIC lost
its Immunity when State of Florida took away its full
faith and credit backing on 2012. This addition to
CPIC’s insurance policies clearly denies any legal
liability by State of Florida. Thus CPIC ceased being
an “Arm-of-State”.
IV. CPIC Does Not Act Like Nor Qualify As An
“Arm-of-State”!
District Court wrongfully concluded that CPIC was
an “Arm-of-State”! This suit did not seek to recover
assets of state, but only CPIC in its capacity as a
receiver of premium assets of others which pays
claims, contracts, and judgments. Why should selling
property insurance be a governmental function?
CPIC is not a vital public service. States are
operating many enterprises which in private hands
would be subject to federal regulation. While
engaging in such operations, states should be
deemed to accept both hazards as well as benefits.
125

“Arm-of-State” is a legal inquiry, not a factual one,
and it must be answered by looking at actions of
CPIC. 11th Amendment did not permit Legislature of
Florida to grant immunity to CPIC. CPIC does not
have “inherent authority” to make law or any rulemaking authority. A lesser entity operating
ministerially and independently of state funds as a
Mutual Property Insurance Corporation is not
deserving of any immunity. 11th Amendment does
not extend to Corporations formed by state
governments, nor does it have immunity from
lawsuits under universal rule of state immunity from
suit without states' consent.
“Eleventh Amendment immunity does not
extend to all "lesser entities" associated with the state;
rather it extends only to entities that the Court
considers to be "arms" or "instrumentalities" of the
state.” Alden v. Maine, 527 U.S. 706, 728 (1999). [EA]
"... towns, counties and other political
subdivisions of the state cannot invoke sovereign
immunity in federal courts, even if they exercise a
"slice of state power” Northern Insurance Co. v.
Chatham County, 547 U.S. 189, 193 (2006) [EA]
Hess found that the entity was not “Arm-of-State”,
based almost exclusively on entity’s “anticipated and
actual financial independence” and its “long history
of paying its own way.”
The only factor singled out as "of considerable
importance" is whether the state is "obligated to bear
and pay [any potential legal] indebtedness of the
[entity] "Hess v. Port Auth. Trans-Hudson Corp., 513
U.S. 30, 51 (1994)[EA]
126

<!

A. Generally CPIC Does Not Qualify as an
“Arm-of-State”.
Suits against CPIC would not jeopardize State's
treasury, integrity or dignity as few people even
know of a connection between CPIC and State of
Florida. Some Courts have embarked on a path of
sacrificing legal rights of individuals in favor of what
it calls "dignity" of states. There is nothing dignified
in claims of immunity that seek to avoid
accountability for unlawful discrimination and
violations of constitutional rights. As peoples'
representatives, Courts have a responsibility to
protect individuals’ rights and keep the government
accountable. There is ample dignity in adherence to
the rule of law. See [Doc 35, Pg 5-7, #11(1-12)]
CPIC was created by Florida Legislature as a
separate and apart Corporation.
Under law, a Corporation is a person of state where
created.
CPIC is structured as a “person” and not as an “Armof-State”.
CPIC and State are not indistinguishable. People do
not know there is a connection.
CPIC acts as a Mutual Property Insurance
Corporation only for a select few.
CPIC’s purpose is to “to sell” property insurance,
with discrimination.
CPIC sells policies to non-citizens of Florida, which is
interstate commerce.
CPIC’s contracts with policyholders are commercial
insurance contracts.
127

CPIC enters into contracts with litigants that are
commercial contracts.
No elaborate state controls over CPIC’s handling of
claims, contracts or lawsuits.
CPIC is not supported by Full Faith and Credit of
State of Florida.
CPIC issues its own bonds.
CPIC generates no revenues for State.
CPIC’s functions reinforce idea that is not an arm-ofstate.
CPIC is not a public employer.
CPIC's employees are not paid with taxpayer money.
Florida provides no funds to satisfy judgments or
settlements for CPIC.
CPIC possesses a level of independence appropriate
to an entity designed “to enter private sector and
compete as a commercial entity.
CPIC does not occupy a constitutional office.
CPIC is autonomous from state.
CPIC has sole authority to appoint and discharge its
employees
B. Specifically CPIC Does Not Qualify as an
“Arm-of-State”.
Eleventh Circuit rejected claim of immunity solely
because:
“[t]he Alabama Supreme Court has previously
declined to extend sovereign immunity” to the entity.
Melton v. Abston, 841 F.3d 1207, 1234 (11th Cir.
2016).
Just because a state court decides one way or the
other has no bearing upon the “Arm-of-State”
determination. A state court determination of
128

sovereign immunity does not substitute for an
independent analysis under federal standards.
Federal Courts are not persuaded by political
pressure. Local entities are challenges for “Arm-ofState” analysis and present distinct situations where
State’s own assessment of sovereign status should
carry no weight. A rule of absolute immunity is in
danger of becoming an instrument of injustice.
State of Florida itself is not a party nor has it sought
to express its views in this litigation as a party or
amicus. [This may provoke a response] CPIC is the
party of record and is attempting to cloak itself in
State's 11th Amendment immunity.
District Court should have concluded that “even
assuming that immunity is a question of subject
matter jurisdiction, that does not necessarily put
burden on Brown. Such placement would effectively
assume truth of CPIC’s assertion that they should be
immune from suit in same way as State itself is.
“Arm-of-State” cases requires courts to decide first,
whether CPIC can claim sovereign immunity.
District Court erred on this issue. CPIC bears burden
of showing it is an “Arm-of-State”. Second Circuit
joined its sister courts in holding that:
“governmental entity invoking 11th
Amendment bears burden of demonstrating that it
qualifies as an arm of the state entitled to share its
immunity." Woods v. Rondout Valley Central School
District Board of Education, 466 F.3d 232, 237 (2d
Cir. 2006)

129

"[T]he circuits that have considered similar
assertions of arm-of-state status have uniformly
concluded that it is an affirmative defense to be
raised and established by the entity claiming to be an
arm of the state." United States ex rel. Oberg v. Pa.
Higher Educ. Assistance Agency, 745 F.3d 131, 147
(4th Cir. 2014)
“Eleventh Amendment immunity "should be
treated as an affirmative defense" and "must be
proved by the party that asserts it". ITSI TV
Productions, Inc. v. Agric. Ass'ns, 3 F.3d 1289, 1291
(9th Cir. 1993)
CPIC is not analogous to a governmental agency.
CPIC is more like a commercial business enterprise,
instituted solely for purpose of selling insurance and
generating premiums.
“..... CS/SB 1418 ... Citizens Property
Insurance Corporation.....would not perform a
traditional governmental function. Its revenues would
not be subject to legislative appropriation and would
be held solely for the purpose of satisfying insurance
claims.......the corporation would operate like a
private insurance company.” [Florida] Advisory Legal
Opinion- AGO 2002-21 [EA]
Some circuits assume that an entity either is or is
not an “Arm-of-State” (“entity-based”), and that
status applies regardless of activity at issue. This
“entity-based” approach seems to be the wrong
approach that District Court took to decide CPIC’s
status as an “Arm-of-State”. Other circuits consider
activity at issue and strength of state’s relationship
130

with entity in regard to that activity (“activitybased”). Notably, the latter approach allows an
entity’s arm-of-state status to vary depending on
nature of entity’s challenged activity.
Supreme Court told us that:
"the vulnerability of the State's purse [i]s the
most salient factor ini 1th Amendment
determinations." Hess v. Port Auth. Trans-Hudson
Corp., 513 U.S. 30, 48, 115 S.Ct. 394, 404,130
L.Ed.2d 245 (1994) (EA).
The very impetus for 11th Amendment was
prevention of federal-court judgments that must be
paid out of a State's treasury. Hess still “binds [the
court] and has not been overruled”, and rejects the
7th Circuit's suggestion in Thiel and the 11th
Circuit’s in Manders that the state treasury risk
factor is sometimes not important. See Fresenius
Medical v. Puerto Rico, 322 F.3d 56 (1st Cir. 2003) at
67-68.
11th Amendment's core concern is not implicated in
this case. The state does not have a "legal obligation"
to pay, out of the state's treasury, any funds for
CPIC’s general debts, contracts, obligations or
judgments. Suit against CPIC does not expose the
state treasury to any risk. The fact that debts or a
judgement against CPIC would not be paid out of
state treasury is, in itself, a clear marker that CPIC
is not an “Arm-of-State”.
First, Second, Fourth, Fifth, Sixth and Eighth
Circuits all place primary, if not dispositive,
131

importance on question of whether state treasury is
at risk in evaluating whether an entity is entitled to
11th Amendment protection.
"[bjecause the State treasury factor is the 'most
salient factor in Eleventh Amendment
determinations,' a finding that the State treasury will
not be affected by a judgment against the
governmental entity weighs against finding that
entity immune." Cash v. Granville County Bd. of
Educ., 242 F.3d 219, 223-24 (4th Cir. 2001); see also
Md. Stadium Auth. v. Ellerbe Becket, Inc., 407 F.3d
255, 261 (4th Cir. 2005) (placing most importance on
risk to state treasury factor in arm of state cases).
Likewise in an 8th Circuit Case the court treated risk
to treasury as most important factor. Hadley v. N.
Ark. Cmty. Tech. Coll., 76 F.3d 1437, 1439-42 (8th
Cir. 1996)) [EA]
"[Bjecause an important goal of the Eleventh
Amendment is the protection of state treasuries, the
most significant factor in assessing an entity's status
is whether a judgment against it will be paid with
state funds." McDonald v. Board of Miss. Levee
Comm'rs, 832 F.2d 901, 907 (5th Cir.1987); Barron,
381 F.3d at 440 (calling source of funds factor
"weightiest" factor because Eleventh Amendment
"exists mainly to protect state treasuries")’, Cozzo v.
Tangipahoa Parish Council-President Gov't, 279 F.3d
273, 281 (5th Cir.2002) (citing Delahoussaye, 937
F.2d at 147-48) ("Indeed, the second factor is most
important because a fundamental goal of the
Eleventh Amendment is to protect state treasuries.")’,
Hudson, 174 F.3d at 682 (explaining that it is "well
established"that source of funds factor is "most
132

important" because of purposes behind Eleventh
Amendment and, in contrast, court typically "dealfsj
with the last two factors in a fairly brief fashion")',
Ernst v. Rising, 427 F.3d 351, 364 (6th Cir. 2005)
("[Tjhere can be little doubt that the state-treasury
inquiry will generally be the most important one .. ");
Ernst v. Roberts, 379 F.3d 373, 382 (6th Cir. 2004),
rev'd en banc, Ernst v. Rising, 427 F.3d 351 (6th Cir.
2005) {"Our cases uniformly make clear that, even if
the other factors can be considered, still, the most
significant factor is potential liability of the state
treasury")', Alkire v. Irving, 330 F.3d 802, 811 (6th
Cir. 2003) ("We now recognize that the question of
who pays a damage judgment against an entity as the
most important factor in arm-of-the-state analysis,
though it is unclear whether it is the only factor or
merely the principal one.")', Elam Constr. v. Reg'l
Transp. Dist., 129 F.3d 1343, 1345 (10th Cir. 1997)
{"Historically, the most important consideration is
whether a judgment against the entity would be paid
from the state treasury."). [EA]
Ninth Circuit considers the first factor, whether a
money judgment would be paid out of state funds the
most important:
"most important" factor is not simply on the
state's financial liability, but also on its "legal
liability." See Beentjes v. Placer County Air Pollution
Control 397 F.3d at 778 {explaining that "ftjhe first
prong of the... test-whether a money judgment would
be satisfied out of state funds-is the predominant
factor")', Eason v. Clark County Sch. Dist., 303 F.3d
1137, 1141 (9th Cir. 2002) {restating five-factor test
and explaining that "whether a money judgment will
133

be satisfied out of state funds .. .is the most important
[factor]")-, Doe v. Lawrence Livermore Nat'l Lab., 131
F.3d 836, 839 (9th Cir. 1997) (noting that "the
element of state liability is the single most important
factor in determining whether an entity is an arm of
state . .
[EA]
CPIC launched into the commercial world and
authorized to engage in business transactions with a
select group should have the same amenability to
judicial process as a private enterprise under like
circumstances. CPIC should not be able to escape the
liability a private enterprise would face in similar
circumstances. Suits based on a public corporation's
commercial activity should proceed as they would
against a private company. This Appeals Court
should examine the activity of CPIC in the analysis
of whether CPIC acts as an “Arm-of-State”, just as
the U.S. Supreme Court set forth in their unanimous
decision in the TVA case. This case over-rules
previous 11th Circuit opinions.
“TVA is subject to suits challenging any of its
commercial activities. The law thus places the TVA in
the same position as a private corporation supplying
electricity. But the TVA might have immunity from
suits contesting one of its governmental activities, of a
kind not typically carried out by private parties...... a
suit challenging a commercial act will not
"gravelly]"or, indeed, at all—interfere with the
"governmental functions" ” US Sup Ct. Thacker v.
TVA, CERTIORARI To The U.S. Ct, of Appeals for
11th Circuit, No. 17-1201. Decided April 29, 2019.
[EA]
134

“When the TVA or similar body operates in the
marketplace as private companies do, it is as liable as
they are for choices and judgments. The possibility of
immunity arises only when a suit challenges
governmental activities—the kinds of functions
private parties typically do not perform. And even
then, an entity with a sue-and-be-sued clause may
receive immunity only if it is "clearly shown" that
prohibiting the "type[] of suit [at issue] is necessary to
avoid grave interference" with a governmental
function's performance.” FHA v. Burr, 309 U.S. 242
(1940) at 245. [EA]
A proprietary function is one that a private entity
can perform, and is not uniquely for benefit of the
general public. A governmental function applies to
discretionary governmental functions, but not for
proprietary (or ministerial) functions, whether the
activity constitutes one that only a governmental
entity could undertake. Property Insurance, which
generates insurance premiums is not the activity
that is traditionally undertaken by governments.
Proprietary functions have been defined in part as
activities not traditionally undertaken by
government agencies. They tend to be activities
which are also performed by private sectors, which
benefit a definable category of individuals rather
than the general public. Even if, CPIC’s proprietary
action does touch upon a governmental function, that
does not render the proprietary action governmental.
CPIC’s property insurance activities are not essential
to the state government’s operation. Therefore, CPIC
could not be considered an essential government
function.
135

CPIC’s activity of borrowing money, issuing bonds,
handling policyholder claims, denying claims, suing
and being sued in its own name, seeking insurance
premiums, and entering into Commercial Contracts
does not establish an effect upon the state treasury
and does not reflect an activity by an “Arm-of-State”.
CPIC is a corporation intentionally formed
separately from an agency of the State Government.
The formation was a political creation. CPIC does not
occupy a constitutional office. CPIC hires private
attorneys which further implicates that CPIC is not
an “Arm-of-State” of Florida. The State gave CPIC an
existence quite independent from the State and
exercises the most minimal control over it, if any.
CPIC is similar in status to a county or municipal
corporation. Regardless of the confusion, controlling
law makes it abundantly clear that CPIC enjoys no
11th Amendment immunity.
"... it is by now well established that "[t]he bar
of the Eleventh Amendment to suit in federal courts
extends to States and state officials in appropriate
circumstances, but does not extend to counties and
similar municipal corporations." Mt. Healthy City
Sch. Dist. Bd. of Educ. v. Doyle, 429 U.S. 274, 280, 97
S.Ct. 568, 50 L.Ed.2d 471 (1977) [EA]
The test for determining immunity must be able to
draw a meaningful distinction between separate
entities that are genuinely “Arms-of-State” and those
that are not. Immunity law is not applicable against
entities that are for all practical purposes private
commercial ventures, operating without meaningful
136

state oversight or control and generating primarily
revenues for itself, and their employees.
Eleventh Circuit, in Manders v. Lee, 338 F.3d at
1328, held that a Georgia sheriff was acting as an
“Arm-of-State” when overseeing the jail, but declined
to hold that a sheriff was an “Arm-of-State” in every
function performed.
This Court concluded that "to the extent that
the state treasury will be spared here from paying any
adverse judgment, this factor weighs in favor of
denying immunity." Abusaid v. Hillsborough County
Board of Commissioners, 405 F.3d 1298 [2005] US
Court of Appeals 11th Circuit. [EA]
Is CPIC acting as an “Arm-of-State” when it denies
paying Brown monies owed from a Commercial
Contract? Based upon their activity, CPIC was never
an “Arm-of-State”. Florida does not oversee CPIC’s
activities of borrowing of money, paying debts,
issuing bonds, handling policyholder claims, denying
claims, suing and being sued in its own name,
seeking premiums, and entering into Commercial
Contracts. There would be no effect on that activity
because there are no actions mandated by state
policies that would affect these CPIC’s activities.
Whether CPIC performs a “real” state function is in
dispute and takes a lot of stretching around corners
to determine that CPIC is an “Arm-of-State”, given
all the reasons it is not.
C. News Reports Show CPIC Does Not Act as
an “Arm-of-State”.
137

Do any of these below reports indicate that CPIC is
acting like an “Arm-of-State”? Certainly not, CPIC is
a political honey pot for outside lawyers, politicians,
and an elite executive team. [Doc 01, Pg 20-22, #
61] [Doc 51, Pg 7-9 # 11] CPIC has a history of bad
behaviors and acts as a privileged class claiming to
be free from liability for wrongs and injuries
inflicted. CPIC is a huge 1200+ employee sized
mutual property insurance organization creating a
potential cesspool for political favors. With an
average employee salary of $86,005, they are paid
handsomely to act intentionally. Insurance
companies employ actuaries to assess risks and costs.
Everything that happens in an insurance company is
result of a calculated move, including egregious
behaviors. In 2017, CPIC’s cost of battling their own
policyholders on all types of claims was $72,800,000
dollars. Legal fees are a major reason for rate
increases. [Doc 01, Pg 35-37, # 72G] What kind of
freebies do the lawyers and other cronies kick back to
the elite executives?
“Citizens is the only insurer protected by state
law from lawsuits claiming adjusters operated in
"bad faith, the immunity allows Citizens to adjust
claims any way they see fit, whether it's appropriate
or not.” Anthony M. Lopez, a Miami attorney who
sued Citizens more than 1,380 times since 2010. [EA]
[Doc 01, Pg 38, #74] [Unconstitutional State law]
“Citizens racks up millions in attorneys' fees as
it denies claims: The insurance giant is aggressive in
fighting claims, often paying legal fees rather than
settling.” By Mary Ellen Klas, Published September
21 2013 [EA]
138

[http://www.tampabay.com/news/business/ban
king/citizens-racks-up-millions-in-atutorneys-fees-asit-denies-claims/2143165] [Accessed 2019-07-13] [Doc
51, Pg 7-9, #11]
“Citizens Property Insurance Corporation has
been earning a reputation for systematically denying
almost every insurance claim asserted by its
policyholders. Instead of honoring valid claims,
Citizens spends millions of dollars each month
“defending” claims - the same type of claims that
other insurance companies would routinely pay
without question......Now, on the chance you might
believe that Citizens’ policy of denying claims and
raising merit less defenses is just urban legend, I offer
the following examples of Citizens’ behavior from our
recent experience: Example - Our client presented
Citizens with a sinkhole damage claim, which
Citizens summarily denied. We provided Citizens
with testing evidence which undeniably reflected
sinkhole activity on our client’s property and also
provided reports from neighbors on all three adjacent
sides (left, right and behind) which had been
confirmed for sinkhole activity. Citizens’ response?
They offered $500. They also promised that, once the
policy holder ultimately won at trial (which they
conceded would happen), Citizens would appeal the
outcome (regardless of merit) in order to further drag
out the process. “Sadly, there is no one guarding the
hen house at Citizens. Outside vendors - mostly
insurance defense law firms with the most to gain
from Citizens’ stance on fighting claims - have
convinced Citizens that the best way to handle claims
is to fight tooth and nail on every issue, even when
139

there is absolutely no chance of winning. Obviously,
the harder you fight payment on a given claim, the
more money the insurance defense law firm can make
billing Citizens for delaying /defending /denying the
claim.” By K.C. Williams on September 30, 2013
[Extracted from Citizens Denying Claims While
Paying Its Lawyers Million$$ of Dollars [Accessed
2019-07-13] [EA]
[https://www.insuranceclaimlawyerblog.com/ci
tizens-denies-claims-while-paying-its-lawyersmillion-of-dollars/] [Doc 01, Pg 35-37, #72G][Doc 51,
Pg 7, #11]
“ I have first hand experience with the corrupt,
egregious, and unethical behavior of CPIC. After
filing a valid claim with Citizens for covered
hurricane damage in 2004,1 was denied payment
and subjected to an Examination Under Oath (EUO).
The Citizens’ contract lawyer boldly stated that he
and Citizens were exempt from “Bad Faith”
processing of covered claims, and, as such, he was
denying my claim regardless of its validity! Appeals
to Citizens, Florida state insurance regulators,
Division of Financial Services, and State and Federal
legislators via certified letters went unanswered. No
legal firm would take my case to sue Citizens because
of its being immune from “Bad Faith” processing of
claims and the firms knew they couldn’t win a civil
suit. Just because you have an insurance policy with
Citizens, it does not mean you will collect when you
file a legitimate claim, and no one will be there to
help you. Citizens is an abomination and must be
abolished!” Dave Schall Extracted from
140

[https://usinsuranceagents.com/reviews/citizens/]
[Accessed 2019-07-13] [EA] [Doc 01, Pg 38-40, #75]
“This action was filed in March 2012 and the
ensuing litigation was highly contentious. Citizens
accused Pulloquinga of arson, threatened Section
57.105 sanctions and claimed there was no coverage
for the loss. Approximately 27 depositions were taken
from Jacksonville to Key West and multiple hearings
were held, including four summary judgment motion
hearings. The case was also scheduled for trial twice.
Summary judgment was eventually entered in
Pulloquinga's favor on all of Citizens' defenses. On
the eve of the rescheduled trial in May 2013 Citizens
capitulated and agreed to pay the full policy limits as
well as Pulloquinga's attorney's fees and costs. After
some stalling on Citizen's part, the policy limits were
eventually paid. Pulloquinga then sought
determination of the amount of fees and costs from
the trial court, which required yet additional
hearings on her entitlement because Citizens took the
unsupportable position that she had assigned her
right to entitlement. The trial court properly rejected
that argument.’’Extracted from CPIC v. Pulloquinga,
CPIC, Appellant/Cross Appellee, v. Dolores
Pulloquinga, Appellee/Cross Appellant. No. 3D141248. Decided: December 30, 2015. [EA] [Doc 01, Pg
40, #75]
According to PerdidoCitizens purposely
engaged in a pattern of obstruction, delay and
avoidance in order to avoid its obligation to pay".
CPIC v. Perdido Sun Condominium, May 14, 2015.
141

Florida Supreme Court, case # SC 14-185. [EA] [Doc
01, Pg 45-46, #82]
“Executives at Florida's second biggest
insurance company, Citizens Property Insurance
Corporation, are facing accusations of bribes,
kickbacks and insider dealing. Hundreds of
disgruntled customers have sued the company for
claims from last year's hurricanes.” Phillip Davis,
[EA] [Doc 01, Pg 20-22, #61]
[https ://www. npr.org/templates/story/story.php
?story!d=4966593] [accessed 2019-07-13]
“The release of the complaint information is the
latest dustup for Citizens, which is still reeling from
revelations about lavish corporate spending, large
raises for executives and various allegations of
impropriety.... The release comes as Citizens is
looking to reform itself after a series of scandals. Over
the past year, the Times / Herald documented evidence
of luxurious business trips, drunken exploits on
company retreats, large raises for executives and the
abrupt firing of four internal investigators.” By
Toluse Olorunnipa, Times/Herald Tallahassee
Bureau, Published February 28 2013 [accessed 201907-13] [EA] [Doc 01, Pg 21, #61]
[https://www.tampabay.com/news/politics/citiz
ens-property-insurance-releases-list-of-internalcomplaints/1276852]
“Citizens Property Insurance Corporation used
homeowners’ money to hire attorneys so they could
sue the government, in order to force policyholders to
pay even more, ” said Crist. “The taxpayers were
142

paying to sue themselves, so that some of them could
pay even more. This is totally unacceptable.” ....
“Citizens Property Insurance Corporation seems to
have forgotten that it was created to serve people
during their time ofgreat need. It seems to have
forgotten that the people of Florida are the boss, and
the corporation is there to serve them, not the other
way around, ” said Crist. “It’s time we remind Citizens
Property Insurance of its statutory and moral duty to
the people of Florida.” Attorney General Charlie
Crist quoted. Article “Fla. Nixes Citizens’ Plan; Bans
Hiring of Lawyers for Rate Appeals” by Brian H.
Kern , September 19,2006. [EA] [Accessed 2019-0713] [Doc 01, Pg 21, #61]
[https ://www.insurancej ournal. com/news/south
east/2006/09/19/72539.htm]
It was reported in February 2012 that a class action
lawsuit had been filed against CPIC. Homeowners
that were involved in the suit claimed CPIC was
systematically overvaluing properties in order to
raise premiums by using a software system called
360Value to inflate replacement costs of their homes,
causing their premiums to skyrocket by more than
100 percent. It appeared that CPIC was testing a
new tool to add to their Intentional Tort Business
Scheme. [Doc 01, Pg 22, #62]
After you have read these News Reports, you should
ask, Why is this allowed? Answer, Moral Hazard
which breeds corruption! CPIC is not for its
policyholders, it is not for a select group of
homeowners, it is for the elite bureaucratic
executives and their cronies. They have no respect
143

for the law. It is a political honey pot which masks as
an “Arm-of-State”. I am cynical, but after 9.5 years
reading about and battling CPIC, I know a few
things because I have seen a few things! What other
secrets are hidden behind those closed doors?
MAIN ISSUE V
WAIVERS OF IMMUNITY
V. CPIC Waived Its 11th Amendment
Immunity
In alternative, assuming CPIC had some immunity,
it was waived in one way or another. District Court
refused to consider any of these!
A. CPIC waived Immunity in 2014 State
Lawsuit!
CPIC falsely stated in Document 25 that there was
no related case. [Doc 25, Pg 1] CPIC waived
immunity in state court in two distinct ways. [Doc 28,
Pg 8, #15] First, CPIC by entering suit and not
claiming immunity [First Lawsuit], it effectively
waived immunity. Second, CPIC waived immunity by
entering into a settlement agreement [second
contract] in which it unequivocally agreed to subject
itself to litigation for performance. [Doc 28, Pg 19, #
66]
10. Enforcement. Nothing in this Agreement
shall be construed to waive the INSUREDS’,
CITIZENS’, or the LAW FIRMS’ right to bring an
action to enforce its terms. [EA] Non-Insurance
Policy, 2nd Contract with CPIC of August 8, 2014.
[Doc 20, Exhibit A, Page 19, #10]
B. CPIC’s Motion to Dismiss was Defective!
144

The Motion was never properly signed. [Doc 27, Pg
20-21] If you take the Certification of Service as a
signature, then a non-state official, Erin Kreiser, an
attorney [Doc 18, Pg 1], asserted the 11th
Amendment defense. Erin R. Kreiser and/or Andrew
P. Rock did not have standing to raise the 11th
Amendment defense. Andrew Rock never, as far as I
know, submitted a Notice of Appearance but falsely
entered Document 40.
The State of Florida intentionally did not assert the
11th Amendment Defense! There was no Florida
officer in appearance during the complete term of the
District Court Case. Assuming CPIC is entitled to
some immunity, under Florida law, attorneys for
CPIC nor CPIC had the necessary authority to
invoke sovereign immunity defense. CPIC's counsel's
actions can not invoke sovereign immunity in
absence of state law authorization, and attorneys
have no such authorization. No authority has been
granted to CPIC or their attorneys to invoke
sovereign immunity in Federal Court. Presumably
only Attorney General of Florida [Art. IV, #4, Fla.
Const.] has that authority, and the Attorney General
has not shown any interest in doing so. Thus, even if,
CPIC has some kind of so-called immunity, it has not
been invoked and thus has been waived.
C. CPIC’s Shotgun Motion To Dismiss Waived
Immunity!
CPIC’s Motion To Dismiss used a shotgun approach
by dealing directly with merits of this case. If CPIC
was entitled to use 11th Amendment as a defense all
they had to do was claim it. By going further they
145

waived any claim to 11th Amendment as a defense.
[Doc 55, Pg 9-10, # 12] CPIC gave every possible
reason a complaint could be denied. [Doc 27 Pg 1-2, #
2; Pg 7-20, #17-55] CPIC made an intentional tactical
decision to argue merits of case thus waiving
immunity. [Doc 33, Pg All]
D. CPIC Participating in Pretrial Proceedings
Waived Immunity!
[Doc 32, 38, 40] [Doc 35, Pg 2, #3; Pg 5, #9] [Doc 38,
Pg 2, #3; Pg 3, #5] [Doc 41, Pg 1-3. #2-4; Pg 4-5,
#Relief 2] [Doc 43, Pg 2, #6] [Doc 52, Pg 14, #6(13)]
Brown raised legal issues that CPIC, even if it had
any so-called immunity, it has been waived by
unequivocally participating in pretrial proceedings.
Such actions should bind CPIC to this Court's
Jurisdiction. CPIC made a clear declaration, through
conduct, in a way to cause anyone to reasonably
believe that it intended to submit to federal
jurisdiction. If a so-called state agency elects to
defend on merits in federal court, it should be held to
that choice the same as any other litigant. CPIC
made an intentional tactical decision to argue merits
of the case thus waiving immunity. [Doc 27, Pg 8-20,
# 20-55] [Doc 33, Pg All] CPIC participated in
Pretrial activities, which thereby waived any 11th
Amendment defense. [Doc 55, Pg 9-10, #12(12 All)]
E. CPIC’s Sue and Be Sued Waived Immunity!
If CPIC ever had immunity, “can sue and be sued” in
its own name proves it is not entitled to sovereign
immunity. Courts have held that "sue and be sued"
statutes waive sovereign immunity. See US Sup Ct.
Thacker v. TVA, CERTIORARI To The U.S. Ct, of
146

Appeals for 11th Circuit, No. 17-1201. Decided April
29, 2019.
“sue and be sued clauses waive sovereign
immunity and should be liberally construed.” FDIC
v. Meyer, 114 S. Ct. 996, 1003 (1994).
“federal agencies launched into commercial
world with power to "sue and be sued" are not
entitled to sovereign immunity.” Loeffler v. Frank,
486 U.S. 549, 554-55 (1988).
F. Florida Statutes Waived any Immunity
CPIC had!
Section §624.155 & §627.351(6), F. of Florida
Statutes Waives any Immunity CPIC had, if it ever
had any! [Doc 01, Pg 13-14, #46] [Doc 28, Pg 8. #16;
Pg 19, # 66 & 68] [Doc 30, Pg 14-15, # 26-28] CPIC’s
willful and malicious actions and inactions rises to
an Intentional Tortious Cause-of-Action with
available Punitive Damages. Section 624.155 of
Florida Statutes imposes a legal duty upon insurers
to act in good faith towards their insured, and willful
breach of that duty is a tort. Bad faith conduct, such
as actions and inactions committed by CPIC, are
excepted from CPIC’s limited grant of statutory
immunity or immunity is waived entirely. [Doc 28,
Pg 16, #41] CPIC’s lawyer labeled Fla. Stat. §
627.351(6)(s)lwith this prefix” “CITIZENS' enabling
statute enumerates five instances in which the
Florida legislature has waived CITIZENS immunity
from suit in state court:” there is no such prefix that
exists in the statute and it explicitly does not say
“waived CITIZENS immunity from suit in state
court”. And not one of those exceptions states that it
147

is limited to the sole jurisdiction of Florida State
Courts.
G. CPIC Entering into Contracts in Commerce
Waived Immunity!
[Doc 12, Pg 21, # 7C] [Doc 20, Pg 13, # 9(12)] [Doc 28,
Pg 8-9, #17-18] [Doc 30, Pg 20-22, #35-37] CPIC
waived immunity in two ways.
First, by entering into a valid commercial contract,
CPIC waived any governmental immunity as to
Causes-of-Action under contract. CPIC agreed to be
sued for a breach of its contractual obligations.
“8. Release:... this release is not intended to,
nor does it apply to, any obligations to perform under
this Agreement.” [EA] Non-Insurance Policy, 2nd
Contract with CPIC of August 8, 2014. [Doc 20,
Exhibit A, Page 16, #8]
“10. Enforcement. Nothing in this Agreement
shall be construed to waive the INSUREDS’,
CITIZENS’, or the LAW FIRMS’ right to bring an
action to enforce its terms.” [EA] Non-Insurance
Policy, 2nd Contract with CPIC of August 8, 2014.
[Doc 20, Exhibit A, Page 19, #10]
CPIC is not immune from breach of contract lawsuits
related to their proprietary, non-governmental acts.
Simply by alleging that CPIC had entered into a
valid contract, Brown’s Complaint effectively
asserted that CPIC waived immunity as to actions
surrounding the commercial contract.

148

Second, CPIC by entering the law of commerce and
entering into a Contract, ironically titled “Settlement
Agreement”, CPIC impliedly waived any right to
claim sovereign immunity against suit.
“The United States, when they contract with
their citizens, are controlled by the same laws that
govern the citizen in that behalf');(explaining that
when the United States "comes down from its position
of sovereignty, and enters the domain of commerce, it
submits itself to the same laws that govern
individuals there")”. Cooke v. United States, 91 U.S.
389, 398 (1875) [EA]
"States and cities, when they borrow money
and contract to repay it with interest, are not acting
as sovereignties. They come down to the level of
ordinary individuals. Their contracts have the same
meaning as that of similar contracts between private
persons." Murray v. City of Charleston, 96 U.S. 432
(1877) [EA]
CPIC entered the commercial arena when, instead of
settling a claim, were sued in Court and entered into
a Commercial Contract with Brown, thereby
forfeiting any Sovereign Immunity it might have
had. Brown did not sue CPIC on a claim of
Insurance, Brown sued CPIC on a Commercial
Contract outside of the Insurance Claim. The
Settlement Agreement refers to a settlement of a
Lawsuit, not a settlement of an insurance claim,
there is a big difference.
H. Participating in Federal Programs by the
State Waived CPIC’s Immunity!
149

Participating in Federal Programs subjects Florida
and CPIC to Federal Jurisdiction thus abrogating
any state immunity for suits. Participation in a
federal program is even a stronger indication of a
state's consent to be sued in federal courts. [Doc 55,
Pg 10, #12(13) ] Examples:
“Florida got $615 million in federal relief for
property damage from Hurricane Irma & etc. But the
funds could disappear quickly once the state
Department of Economic Opportunity starts to
distribute them.” Advisory-Legal-Opinion- AGO2002-21 [EA]
“The corporation [CPIC] was structured to
meet the requirements of the Federal Internal
Revenue Service so that its income would be exempt
from federal income taxation and its bonds would be
tax-free. ’’Advisory-Legal- Opinion-AGO-2002-21 [EA]
Spending Clause "abrogation" is more accurately
described as a state's voluntary waiver of its
sovereign immunity in exchange for some federal
financial incentive. Receiving federal relief on
property damage is a gift. Likewise, receiving an
ongoing gift of being exempted from Federal
Taxation on its bonds is a gift to CPIC.
I. CPIC’s Participating in Interstate
Commerce Waives Immunity!
CPIC’s operation of a Mutual Property Insurance
business is "proprietary" and competitive in nature
and not governmental in character. Florida, being a
haven for second homes, has temporary residents,
part-time residents and visitors from other states
150

that own property in Florida. It is common
knowledge that CPIC sells property insurance to
non-citizens and non-residents of Florida. This
activity is interstate commerce. Selling to citizens of
other states is interstate commerce because
Insurance Contracts are owned by the non-citizens of
Florida. CPIC conducts Interstate Commerce. [Doc
28, Pg 10, #20] [Doc 30, Pg 18, #31] Regulation of
channels of interstate commerce is at the heart of
Congress's power under the Commerce Clause, and
operating a property insurance company is a
sufficiently risky business that entities that are
immune from suit should not be allowed to engage in
it. So prohibiting state operation of interstate
insurance should be within Congress's commerce
power. CPIC voluntarily subordinated its
sovereignty, if it ever had any, in this matter by
issuing policies to citizens of other states, and
thereby agreed to comply with the conditions
imposed by the Federal Government on Interstate
Commerce.
RELATED ISSUES VI-X
VI. Brown’s Amended Complaints Were Not
“Shotguns”!
The District Court wrongfully labeled Brown’s
Complaint as a shotgun. Brown’s Complaints [Doc 01
& 20] were listings of multiple valid Causes-ofAction. Brown filed a Motion to add additional
Causes-of-Action [Doc 51] after studying laws.
Brown’s Amended Complaint was accepted by the
Court without objection. [Doc 22] District Court
refused to act on Motion To Add Additional Causesof-Action! [Doc 01, 14, 20, 22] [Doc 17, Pg 3-5, # C(l151

3)[Doc 28. Pg 1-4, #2-6] [Doc 51, Pg all] A shotgun
complaint is a technicality, Pro Se litigants are not
experts in legal writings.
Because Brown is a pro se litigant:
“courts must construe his pleadings liberally
and apply a less stringent standard than that which
is applicable to attorneys”. Whitney v. New Mexico,
113 F.3d 1170, 1173 ('10th Cir. 1997).
“Pro se pleadings are to be considered without
regard to technicality; pro se litigants' pleadings are
not to be held to the same high standards of
perfection as lawyers.” Jenkins v. McKeithen, 395
U.S. 411, 421 (1959); Pucket v. Cox, 456 2nd 233
[EA]
"Where a plaintiff pleads pro se in a suit for
protection of civil rights, the Court should endeavor to
construe Plaintiffs Pleadings without regard to
technicalities." Picking v. Pennsylvania Railway, 151
F.2d. 240, Third Circuit Court of Appeals [EA]
"Pleadings are intended to serve as a means of
arriving at fair and just settlements of controversies
between litigants. They should not raise barriers
which prevent the achievement of that end. Proper
pleading is important, but its importance consists in
its effectiveness as a means to accomplish the end of a
just judgment." Maty v. Grasselli Chemical Co., 303
U.S. 197 (1938) [EA]
“Following the simple guide of rule 8(f) that all
pleadings shall be so construed as to do substantial
justice”... “The federal rules reject the approach that
152

pleading is a game of skill in which one misstep by
counsel may be decisive to the outcome and accept the
principle that the purpose of pleading is to facilitate a
proper decision on the merits.” The court also cited
Rule 8(f) FRCP, which holds that all pleadings shall
be construed to do substantial justice. Conley v.
Gibson, 355 U.S. 41 at 48 (1957) [EA]
"... the right to file a lawsuit pro se is one of the
most important rights under the constitution and
laws.” Elmore v. McCammon (1986) 640 F. Supp.
905.
The Supreme Court explained that a
complaint need only “give defendant fair notice of
what Case the plaintiffs claim is and the grounds
upon which it rests.” Swierkiewicz v. Sorema N.A.,
534 U.S. 506, 512 (2002); accord Atchison, Topeka &
Santa Fe Ry. v. Buell, 480 U.S. 557, 568 n.15 (1987)
{under Federal Rule 8, claimant has “no duty to set
out all of the relevant facts in his complaint”). [EA]
“Specific facts are not necessary in a
Complaint; instead, the statement need only ‘give the
defendant fair notice of what the . . . claim is and the
grounds upon which it rests.” Epos Tech., 636 F.
Supp.2d 57, 63 (D.D.C. 2009) (quoting Bell Atlantic
v. Twombly, 550 U.S. 544, 555 (2007)). Thus, the
Federal Rules embody “notice pleading” and require
only a concise statement of the claim, rather than
evidentiary facts. Accordingly, Defendants’ Motion
would be considered properly filed only “where a
plaintiffs complaint is ‘unintelligabfle] (sic),’ not
153

where a complaint suffers for ‘lack of detail.” Epos
Tech., 636 F. Supp. 2d at 63. [EA]
“Indeed, courts have found that if the
information sought by the motion is obtainable
through discovery, the motion should be denied.”
Towers Tenant Ass'n v. Towers Ltd. P'ship, 563 F.
Supp. 566, 569 (D.D.C. 1983) (denying motion for a
more definite statement because details such as
“dates, times, names and places” are “the central
object of discovery, and need not be pleaded”). [EA]
“The Supreme Court has a "preference for
common sense inquiries over formalism * * *.” United
States v. Williams, 115 S. Ct. 1611, 1618 (1995). [EA]
“At the pleading stage, plaintiffs' burden "of
alleging that their injury is 'fairly traceable'" to the
defendant's conduct is "relatively modest.” Bennett v.
Spear, 117 S. Ct. 1154, 1165 (1997).
Brown should not be limited to a certain number of
Causes-of-Action. [Doc 28, Pg 13-15, #27-30] [Doc 51,
Pg 2-4, #4-6; Pg 9-10, #12]
“Certain wrongs affect more than a single
right, and, accordingly, can implicate more than one
of the Constitution's commands.” Soldal v. Cook
County, 506 U.S. 56. [EA]
“the Supreme Court has time and again
considered multiple constitutional claims based on
the same facts. ” & “Put simply, that Presley may also
have a claim under the Fifth Amendment's Takings
Clause does not bar her from bringing a Fourth
154

Amendment seizure claim.” Rumber v. Dist Of
Columbia US Ct Appl DDC 2007. [EA]
“the due process clause cannot be limited by
other constitutional rights.” Planned Parenthood of
Southeastern Pa., 505 U.S. at 848. [EA]
“Although First English held that states must
provide a compensatory remedy for regulatory takings
that have occurred, it did not hold that plaintiffs are
barred from seeking other forms of relief.” First
English, 482 U.S. 304, 321 (1987). [EA]
VII. All Discovery Requests Were Denied By
District Court!
[Doc 36, 52,55, 56, 57] CPIC refused to participate
with Brown in supplying requested discovery. [Doc
23, Pg 3-4, #4] The District Court denied all Brown’s
attempts for discovery. [Doc 57, Pg 3-4, #3] Brown
requested Discovery in the following: [Doc 01, Pg 2627, #71; Pg 96, #Relief l][Doc 20, Pg 49, #Relief 2
(Liberal Discovery)] [Doc 23, Pg 2-5 , #1,3,4,6, Relief
1] [Doc 28, Pg 2-4, #4,5, 6; Pg 7-8, #14; Pg 13-14, #27;
Pg 18, #54; Pg 19, #68] [Doc 30, Pg 10-13, #23; Pg 54,
#87] [Doc 36, Pg all] [Doc 41, Pg 2-3, #4; Pg 3-4, #5; Pg
5, #Relief 3] [Doc 43, Pg 3, #9; Pg 4, #Relief 3] [Doc
51, Pg 3-4, #6; Pg 11-13, #Relief 2-7] [Doc 52, Pg all;
Pg 16, #Relief 1-4] [Doc 54, Pg all] [Doc 55, Pg all; Pg
16, #Relief 3] [Doc 57, Pg All]
A. CPIC Violate Fed. R. Civ. P. 26(g)(1)
District Court allowed CPIC to violate Fed. R. Civ. P.
26(g)(1). [Doc 57, Pg 8, #12]
155

Failure by CPIC to particularize their objections to
Brown’s discovery requests suggested a violation of
Fed. R. Civ. P. 26(g)(1) failure to conduct a
“reasonable inquiry” before objecting to an
interrogatory or document request.
B. Discovery About CPIC
Discovery Request Documents were personally
handed to and accepted by CPIC's attorney on
October 30, 2019. [Doc 35, Pg 2, #3(4)]CPIC refused
to provide any information pursuant to
Interrogatories and Request for Documents [Doc 40].
All Court Discovery requests made by Brown to
compel answers to Interrogatories and Request for
Documents were denied by District Court!
“Accordingly, Plaintiff Roger Brown’s Motion
to Compel Defendant CPIC to Answer Interrogatories
and Produce Documents (Doc. 36), and Motion to
Compel Discovery (Doc. 52) are denied without
prejudice. ORDERED in Tampa, Florida, on
February 20, 2020.” [Doc 53] [EA]
C. Discovery About Unknown Employees of
CPIC
CPIC refused to provide any information about the
Unknown Employees. All Court Discovery requests
to compel CPIC about Unknown Employees were
denied by District Court [Doc 26]! How could Brown
meet deadlines established by the Court to identify
the Unknown Employees [other Defendants] when
the Court itself denied Brown the ability to discover
them? Dismissal was appropriate only if Brown did
not want to name the other Defendants, but Brown
was denied access by the District Court via discovery
156

in which to identify the other Defendants. No
discovery, no way to identify the other
defendants. [Doc 21, 26, 53] [Doc 35, Pg 5, #9D]
[Doc 52, Pg 15, #7] [Doc 54, Pg 8, #3] EVEN IF CPIC
had some kind of immunity, active actors behind
CPIC have acted wrongfully and unconstitutionally
and caused harm to Brown and others are not
immune. EVEN IF CPIC was dismissed, active
actors should not have been, thus CPIC should had
to provide Discovery to disclose the identity and
actions of those actors they were hiding. All present
and future Causes-of-Action are still applicable
against yet unidentified active actors labeled thus far
as Unknown Employees of Citizens Property
Insurance Corporation. Discovery was important
regardless of CPIC’s issues.
In Discovery, all employees who violated fiduciary
duties to Brown and acted in conspiracy of delaying
and denying Brown's claim and Contract #2
payments could be determined.
“Bad faith by an insurer is a state of mind
indicated by acts and circumstances and is provable
by circumstantial as well as direct evidence.” Truck
Ins. Exchange v. Prairie Framing, LLC, 162 S.W.3d
64 (Mo. Ct. App. W.D. 2005) [EA]
Motion for Partial Discovery of just the Unknown
Employees of CPIC was made [Doc 54 Pg all].
District Court never granted the Motion. District
Court ordered Brown to operate under a deadline of
December 25, 2019 in which to identify additional
Unknown Defendants. Brown did not meet deadline
157

because CPIC refused to comply with Discovery. [Doc
52 Pgl2-13, #5] [Doc 21 & 26] Brown was denied by
District Court Order, and CPIC, his due process right
to discover the identity of the persons to be included
as Defendants within this lawsuit. CPIC's claim of
immunity should not bar Brown from obtaining
discovery from the witness named Citizens Property
Insurance Corporation. [Doc 57, Pg 4-5, #4]
Assuming CPIC had 11th Amendment immunity, did
immunity extend to prevent answering questions as
a witness?
VIII. Brown’s Ex Parte Young Allegations
Were Obstructed.
Brown wanted partial discovery from CPIC to
discover the Unknown Employees who were violating
his contract and constitutional rights, but District
Court refused. Brown could not amend his complaint
and add additional defendants because the District
Court’s denial of discovery hide the actors. Brown
was prevented from filing Ex Parte Young
allegations against the actors. [Doc 28, Pg 7-8, #14]
Brown could not identify any of the Defendants
because they were hidden by CPIC, but they could
have been revealed if the District Court had allowed
discovery. [Docs 21, 26, 53] After discovery Brown
could have identified which defendants were
responsible for which acts. [Doc 54 Pg all] EVEN IF
CPIC had some kind of immunity, the active actors
behind CPIC who have acted wrongfully and
unconstitutionally and caused harm to Brown and
others are not immune. Thus Discovery was
important regardless of CPIC’s issues.
158

[Doc 56] “ENDORSED ORDER denying [54]
Motion to Compel for the reasons stated in [53]
Order. Signed by Magistrate Judge Sean P. Flynn on
3/2/2020. (Flynn, Sean)”. [EA]
When an individual deals with an insurance
company they never see a person, instead they only
see paperwork. Even when a claim is filed there may
be only a select few actual persons that a claimant
may see. Everything is hidden behind secret doors.
The actual responsible persons that commit the
wrongful behaviors are insulated from sight by
paperwork, lawyers, and lesser employees. And that
is the reason CPIC did not want to provide discovery.
They did not want to reveal the real people
responsible for the egregious behaviors.
Ex Parte Young authorizes injunctions against
CPIC's employees for ongoing violations.
“Since Ex parte Young, 209 US. 123 [28 S.Ct.
441,52 L.Ed. 714] (1908), we said, it has been settled
that the Eleventh Amendment provides no shield for a
state official confronted by a claim that he had
deprived another of a federal right under the color of
state law.” Scheuer, 416 US., at 237, 94 S.Ct., at
1687.
The U.S. Supreme Court stated that"when a
state officer acts under a state law in a manner
violative of the Federal Constitution, he comes into
conflict with the superior authority of that
Constitution, and he is in that case stripped of his
official or representative character and is subjected in
his person to the consequences of his individual
159

conduct. The State has no power to impart to him any
immunity from responsibility to the supreme
authority of the United States." Scheuer v. Rhodes,
416 U.S. 232, 94 S. Ct. 1683, 1687 (1974) [EA]
“Eleventh Amendment does not protect state
officials from claims for prospective relief when it is
alleged that state officials acted in violation of federal
law.” Warnock v. Pecos County, Texas., 88 F3d 341
(5th Cir. 1996)
“There is a general rule that a ministerial
officer who acts wrongfully, although in good faith, is
nevertheless liable in a civil action and cannot claim
the immunity of the sovereign.” Cooper v. O'Conner,
99 F.2d 133 [EA]
Brown, after discovery, could have amended the
Amended Complaint to include the individuals
responsible and would have sought Injunctive Relief
via Ex Parte Young against the identified state
officials for ongoing acts under color of law who were
applying and enforcing unconstitutional laws. [Doc
30, Pg 10-13, #23]
IX. Brown Was Denied Due Process
The District Court denied Brown his Federal and
State Constitutional due process rights to sue for
Taking, Impairment of Contract, Ex Post Facto
Prohibition, Limits to Punitive Damages, Pro Se
Fees, and Civil Conspiracy!
Brown was denied his Constitutional Due Process
Rights for discovery and to sue CPIC for Bad Faith.
160

[Brown was denied Due Process and Equal
Protection rights from suing CPIC in State Court
Case because of an unconstitutional state law
impairing contracts] [Doc 20, Pg 19, #38; Pg 20, #44]
“contract rights are property that may not be
taken by the government without just compensation
under the Fifth Amendment.” Lynch v. United States
292 US 571, 579.] [EA]
“Contracts between individuals or corporations
are impaired within the meaning of the Constitution
(article 1, 10, cl. 1) whenever the right to enforce them
by legal process is taken away or materially lessened”.
Lynch v. United States 292 US 571, 579. [EA]
Contracts are "inviolable," and that it is irrelevant
whether a legislature's attempt to abrogate a
contract is "reasonable," whether the abrogation is
"substantial," and whether the abrogation is for a
good reason. Under the Contract Clause as originally
understood, and as applied by this Court for
hundreds of years, there can be no doubt that
Florida's CPIC bad faith statute impermissibly
impairs the obligations of contracts.
States surrendered a portion of their sovereign
immunity when the 14th Amendment was adopted.
§5 is different because it was meant as a limit on
states and that the 14th Amendment modifies the
previously enacted 11th Amendment. Therefore,
Congress may authorize private suits against non­
consenting states to enforce constitutional
guarantees of the 14th Amendment. [Doc 30, Pg 10,
#22] Brown was denied Due Process but cited them
161

here: [Doc 01, Pg 46-47, #83; Pg 47-49, #84,85; Pg 86,
#152; Pg 87, #156] [Doc 20 Pg 1-2, #1; Pg 6-7, #9(3);
Pg 7, #9(5); Pg 8, #9(6); Pg 15, #17; Pg 20, #44; Pg 28,
#69] [Doc 12, Pg 9, #2; Pg 23-24, #8] [Doc 28, Pg 1112, #25; Pgl2-13, #26; Pgl9, #65] [Doc 30, Pg 23-27,
#40-47; Pg 38-39, #67] [Doc 35, Pg 4, #8C] [Doc 51,
Pg 4, #7; Pg 6-7, #10] [Doc 57, Pg 1-2, #1; Pg 4-5, #4;
Pg 6-7 8(b); Pg 7, #9; Pg 10, #17; Pg 11, # Relief 1,2]
X. Brown’s Motions For Declaratory Judgment
Were Denied.
Brown raised multiple Federal and State
Constitutional issues in both his Original [Doc 01]
and his Amended Complaint [Doc 20] plus in two
separate Motions for Declaratory Judgments [Doc 12
& 30]. Brown raised issues in Immunity, Due
Process, Impairment of Contract, Taking, Ex Post
Facto Prohibition, Limits to Punitive Damages, Pro
Se Fees, and Civil Conspiracy. District Court never
addressed these issues!
“A declaratory judgment is appropriate when it
will "terminate the controversy" giving rise to the
proceeding.” Quoting a part of Rule 57.
"The very essence of civil liberty certainly
consists in the right of every individual to claim the
protection of the laws, whenever he receives an injury.
...It is emphatically the province and duty of the
judicial department to say what the law is." Chief
Justice Marshall in Marbury v Madison 5 U.S. (1
Cranch) 137 (1803) [EA]
CONCLUSION
162

Brown sued CPIC twice over commercial contracts
and never over a state governmental function.
District Court’s errors were prejudicial because it did
not properly considered and interpret all the facts,
authorities, motions, and arguments. The Court
should have ruled that the 11th Amendment did not
apply to CPIC.
Brown Requests Relief from this Appeals Court to:
1. Decide, in the affirmative, all questions
listed in the STATEMENT OF THE ISSUES,
2. Answer all the legal questions in Documents
12, 20 & 30,
3. "Publish" this 11th Circuit Court of Appeal’s
decision,
4. Reinstate the District Court Case with the
above rulings.
And finally:
“There is, no doubt, some truth to Learned
Hand's comment that a lawsuit should be ldread[ed]
. . . beyond almost anything else short of sickness and
death” Association of the Bar of the City of New
York, Lectures on Legal Topics 105 (1926)." Clinton
v. Jones, 117 S. Ct. 1636, 1650 n.40 (1997).
G. Affidavit All Appendix items are actual and
true copies of the Originals
I swear under penalty of perjury that the documents
here in this Appendix to the Petition are accurate
and true. I have reformatted the documents without
additions. The documents were reformatted to the
163

booklet format. Otherwise these documents are in all
respects valid, true, and accurate.
Sign: /s/ Roger Brown, Petitioner
Roger Brown, Pro Se [Non-Lawyer]
do PO Box 566, Dunedin, Florida 34697
956-408-9167, rbl27.legal@gmail.com

164

